<html>
<title> - CHEMICAL FACILITY SECURITY: WHAT IS THE APPROPRIATE FEDERAL ROLE?</title>
<body><pre>[Senate Hearing 109-382]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-382
 
   CHEMICAL FACILITY SECURITY: WHAT IS THE APPROPRIATE FEDERAL ROLE?

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION




                               ----------                              

                          JULY 13 AND 27, 2005

                               ----------                              

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

   CHEMICAL FACILITY SECURITY: WHAT IS THE APPROPRIATE FEDERAL ROLE?



                                                        S. Hrg. 109-382

   CHEMICAL FACILITY SECURITY: WHAT IS THE APPROPRIATE FEDERAL ROLE?

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION




                               __________

                          JULY 13 AND 27, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
23-157                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                        Allison J. Boyd, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                   Holly A. Idelson, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins.............................................. 1, 49
    Senator Lieberman............................................ 3, 50
    Senator Voinovich............................................ 4, 59
    Senator Lautenberg........................................... 6, 52
    Senator Carper............................................... 7, 62

                               WITNESSES
                        Wednesday, July 13, 2005

Martin J. Durbin, Managing Director, Security and Operations, 
  American Chemistry Council.....................................     8
Matthew Barmasse, Environmental, Health, Safety, and Quality 
  Director, ISOCHEM, Inc., on behalf of the Synthetic Organic 
  Chemical Manufacturers Association.............................    12
Bob Slaughter, President, National Petrochemical and Refiners 
  Association....................................................    15
Gerald V. Poje, Ph.D., Former Board Member, U.S. Chemical Safety 
  and Hazard Investigation Board.................................    29
Glenn Erwin, Project Director, Triangle of Prevention Program, 
  United Steelworkers International Union........................    33
Carol L. Andress, Economic Development Specialist, Environmental 
  Defense........................................................    36

                        Wednesday, July 27, 2005

Rear Admiral Craig E. Bone, Director of Port Security, Marine 
  Safety, Security, and Environmental Protection Directorate, 
  U.S. Coast Guard...............................................    53
Beth Turner, Director, Global Operations Security, E.I. duPont de 
  Nemours and Co., Inc., Wilmington, Delaware....................    64
Jim Schellhorn, Director of Environmental Health and Safety, 
  Terra Industries, Inc., on behalf of the Fertilizer Institute..    67
John P. Chamberlain, Security Manager, Asset Protection Services, 
  Corporate Security, Shell Oil Company, on behalf of the Shell 
  Oil Company and the American Petroleum Institute...............    70
Chief Robert A. Full, Fire Marshal/Emergency Management 
  Coordinator, Allegheny County (PA) Department of Emergency 
  Services.......................................................    74

                     Alphabetical List of Witnesses

Andress, Carol L.:
    Testimony....................................................    36
    Prepared statement with attachments..........................   209
Barmasse, Matthew:
    Testimony....................................................    12
    Prepared statement...........................................   102
Bone, Rear Admiral Craig E.:
    Testimony....................................................    53
    Prepared statement...........................................   233
Chamberlain, John P.:
    Testimony....................................................    70
    Prepared statement...........................................   264
Durbin, Martin J.:
    Testimony....................................................     8
    Prepared statement...........................................    91
Erwin, Glenn:
    Testimony....................................................    33
    Prepared statement with an attachment........................   144
Full, Chief Robert A.:
    Testimony....................................................    74
    Prepared statement...........................................   272
Poje, Gerald V., Ph.D.:
    Testimony....................................................    29
    Prepared statement...........................................   130
Schellhorn, Jim:
    Testimony....................................................    67
    Prepared statement with an attachment........................   253
Slaughter, Bob:
    Testimony....................................................    15
    Prepared statement with attachments..........................   119
Turner, Beth:
    Testimony....................................................    64
    Prepared statement...........................................   238

                                APPENDIX

Survey entitled ``PACE International Union Survey: Workplace 
  Incident Prevention and Response Since 9/11'', October 2004, by 
  Paper, Allied-Industrial, Chemical and Energy Workers 
  International Union (PACE), submitted by Mr. Erwin.............   150
``Security Vulnerability Assessment Methodology for the Petroleum 
  and Petrochemical Industries, Second Edition,'' October 2004, 
  American Petroleum Institute, NPRA, submitted by Mr. 
  Chamberlain....................................................   277
``Security Guidelines for the Petroleum Industry,'' American 
  Petroleum Institute, April 2005, submitted by Mr. Chamberlain..   428
Paul Orum, Working Group on Community Right-to-Know, July 2004, 
  report entitled ``Unnecessary Dangers: Emergency Chemical 
  Release Hazards at Power Plants,'' submitted for the record....   482
Jon P. DeVine, Jr., Senior Attorney, Natural Resources Defense 
  Council, prepared statement, with an attachment entitled 
  ``Critical Infrastructure Security Series, New Strategies to 
  Protect America: Securing our Nation's Chemical Facilities,'' 
  by Dr. Linda Greer.............................................   522
Meghan Purvis, Environmental Health Advocate, U.S. Public 
  Interest Research Group, prepared statement with attachments 
  entitled ``Needless Risk, Oil Refineries and Hazard 
  Reduction,'' August 2005, U.S. PIRG Education Fund, and 
  ``Survey of Chemical Industry Hazard Reduction to Protect 
  Public Safety, 2002 Survey Summary''...........................   549
The National Association of Chemical Distributors, prepared 
  statement......................................................   587
Agricultural Retailers Association, submitted by Richard Gupton, 
  ARA Director of Legislative Policy and Counsel, prepared 
  statement with attachments entitled ``Guidelines to Help Ensure 
  a Secure Agribusiness,'' and ``Agricultural Retailers 
  Association: Security Vulnerability Assessment Workshop''......   595


   CHEMICAL FACILITY SECURITY: WHAT IS THE APPROPRIATE FEDERAL ROLE?

                              ----------                              


                        WEDNESDAY, JULY 13, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:32 a.m., in 
room 562, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Lieberman, Voinovich, 
Lautenberg, and Carper.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning.
    Today marks the third in this Committee's series of 
hearings on the issue of chemical security. At our first 
hearing, we heard from experts about the potentially 
catastrophic impact of a successful terrorist attack on a 
chemical facility and about how vulnerable many chemical sites 
are.
    At the second hearing, the Department of Homeland Security 
and the Environmental Protection Agency testified that current 
laws are not sufficient, and the Administration pledged to work 
with this Committee in developing appropriate legislation.
    At today's hearing, we will hear from a variety of 
witnesses who have a longstanding interest in the safety and 
security of chemical sites.
    Let me take just a moment to describe the chemical 
industry. By economics alone, it is impressive. The total value 
of chemical shipments in the United States approaches half-a-
trillion dollars annually. The chemical industry represents our 
largest export sector, with exports totaling $91.4 billion in 
2003. More than 900,000 people work directly in the American 
chemical industry, with an additional 700,000 supplier jobs and 
millions more in indirect jobs.
    Perhaps even more significant than the economic impact is 
the impact of chemicals on our daily lives. Chemicals are 
necessary for more than 70,000 products that help make life in 
our country what it is today and that have helped us to achieve 
the greatest standard of living the world has ever seen.
    How many people have enough food to eat because fertilizers 
and other agricultural chemicals have helped to make America 
the breadbasket of the world? How many Americans would die of 
cholera and other diseases if we did not have chemicals to 
treat our water supply? How many children's lives are saved 
each year by the chemical compounds that make up prescription 
medicines? Where would we be without computers and other 
consumer electronics, which are not possible without chemicals?
    It is an unfortunate fact of life that many things in this 
world that have the greatest capacity for good also have the 
greatest capacity to cause harm. Chemicals fall in that 
category. While of immense benefit to society, chemicals can 
also cause tremendous damage.
    Since the first large-scale use of chemical weapons in 
World War I, chemicals have been the most used weapon of mass 
destruction by both governments and terrorists. As we learned 
in chilling detail in this Committee's first hearing, even 
necessary and legitimate chemicals have an immense capacity to 
cause death and destruction.
    It is a further fact of life that we often fail to 
appreciate the significance of a threat until a catastrophe 
occurs. For example, many of our most important chemical safety 
measures were not established until after the tragic deaths of 
thousands following a chemical accident in Bhopal, India. The 
Chemical Safety Board, as well as the EPA's Risk Management 
Plan program, were both established in response to Bhopal.
    Many companies have recognized the need for stronger 
security and have already taken strong steps to improve 
security at their chemical sites. Many in the industry have 
subscribed to well-regarded voluntary programs such as the 
Responsible Care program. I applaud these efforts and strongly 
encourage the continuation of voluntary actions to improve 
security.
    Unfortunately, as the Department of Homeland Security 
testified at our earlier hearing, not all companies abide by 
such codes of conduct. I look forward to hearing from our first 
panel of industry representatives today about their views on 
the need for mandatory measures to complement the voluntary 
efforts.
    Our second panel consists of representatives from 
environmental, labor, and public advocacy groups. Environmental 
groups and other public advocates have long sought to increase 
public recognition of the risks inherent in operating large 
chemical facilities, particularly near large population 
centers. Similarly, labor representatives have long pushed for 
greater worker safety at chemical plants.
    Given that the chemical industry presents both tremendous 
benefits as well as immense risks, it is critical that any 
legislation strike a carefully thought out balance. Terrorists 
seek to use our infrastructure and assets to cause maximum 
disruption to our society and harm to our economy. In our 
search for a solution to the threats that we face, we must be 
careful not to accomplish the terrorists' objectives for them 
by harming our economy.
    I look forward to hearing from industry, labor, and 
environmental groups in today's hearing. Their different views 
and perspectives will be most helpful to this Committee as we 
continue our work on this critical issue.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks very much, Chairman Collins. As 
you have noted, this is the third in a series of hearings that 
our Committee has held on chemical site security. Since there 
are not many subjects that get three hearings before the 
Committee in 3 months, it should be very clear that the 
Chairman and I and the Members of the Committee consider 
chemical security to be a particularly urgent challenge for our 
Nation and for this Committee.
    This hearing, as we all know, comes just 1 week after 
terrorists in London demonstrated yet again their intention and 
capacity to attack and kill innocent civilians, to find and 
exploit weaknesses in our homeland defenses. And even though 
the most recent incident was an attack on a mass transit 
system, it was a very loud and painful warning that we need to 
continue to be alert, to be vigilant, to identify and close 
vulnerabilities in our own country.
    By any measure, the chemical industry today is one of the 
sectors in American life that is most vulnerable to terrorist 
attack. At our first hearing, we heard compelling testimony 
about the potential risk posed by chemical sites across the 
Nation. We were told that chemical facilities represent 
potential weapons of mass destruction. If released through 
accident or terrorist attack, the chemicals stored or 
manufactured in these plants could kill thousands of people in 
surrounding communities.
    At our second hearing, the Department of Homeland Security 
agreed that chemical facilities posed a serious risk from 
terrorist attack. While describing some significant initiatives 
taken by the chemical industry itself, the Department conceded 
that these voluntary measures are not enough. Rather, the 
Department said we need new legislation to ensure that all 
facilities that use or store significant amounts of hazardous 
chemicals, and therefore pose a terrorism risk, are subject to 
minimum security standards. I agree.
    Today, we will hear from representatives of the chemical 
industry and other stakeholders, that is, those who work at 
chemical sites and also environmental and safety advocates who 
work on issues relating to the operation of chemical 
facilities. These witnesses really can help us on this 
Committee answer some of the most difficult questions that we 
will need to answer as we attempt to draft responsive and 
sensible legislation.
    For example, one of our witnesses today, the American 
Chemistry Council, developed a security code for its members 
after September 11. I would like to learn more about what this 
code requires, what are its strengths and weaknesses, and how 
it might inform any Federal mandates, statutory mandates, for 
chemical facilities.
    Another important question that I have relates to local 
preparedness and response. While some chemical facilities have 
clearly tried to improve security on their premises themselves, 
they also rely on local officials to secure the area outside 
their gates and respond in the event of an accident or an 
attack. Based on testimony at our earlier hearings and on 
interviews by our Committee staff, I am concerned that State 
and local officials will need more resources than they now have 
to carry out those responsibilities, and I hope today we can 
get some clarity about what is the best division of labor 
between the chemical industry and public authorities and what 
needs to be done by whom to ensure effective security and 
response capability.
    Third, I am also concerned that there may be many citizens 
who live near chemical facilities who haven't been adequately 
prepared and informed about what to do if there is an accident 
or an attack at a chemical facility, and so I hope our 
witnesses can help us to decide how we can improve public 
readiness here.
    And finally, and perhaps most difficult, we have to resolve 
critical questions about how to define and regulate the word 
``security.'' Some have argued that any legislation should be 
limited to physical security measures, such as gates, 
surveillance cameras, and access controls. Others say that 
these types of measures will never stop a determined terrorist 
and that we must instead figure out how to reduce potential 
damage from these sites. Some have said that this will and 
should require that the chemical industry look into alternative 
substances or technologies to reduce the amount of harmful 
chemicals it employs or configure them in ways that minimize 
the risk of hazardous release.
    I know that there is great disagreement about whether these 
issues, all of them, should be addressed in chemical security 
legislation, but there should be no disagreement, and I don't 
believe there is, about the need to make our chemical industry 
and processes as safe as possible, indeed, safer than they are 
today, and the question is how to best get there.
    A final word, Madam Chairman. Although the Administration 
is not testifying today, I am sure that they are listening, and 
so I want to reiterate my request made at our last hearing that 
the Administration and the relevant departments take a real 
leadership role in crafting chemical security legislation. I 
know you and I are prepared and eager to work with them. We 
need the benefit of the Administration's work on this issue and 
its recommendations on legislation it believes is needed, and 
we need that as soon as possible. Thank you very much.
    Chairman Collins. Thank you. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman, for holding 
this series of hearings on chemical facility security. I 
compliment your diligence in examining the issue. I look 
forward to a bipartisan legislative effort to ensure that our 
Nation's chemical sector is secure from the threat of terrorist 
attack.
    The chemical industry is a critical component of our 
Nation's infrastructure. It is massive, impacting every facet 
of our daily life. The scope and complexity of the chemical 
industry warrants careful consideration of any new security 
initiatives.
    During the first hearing of this Committee on April 27, we 
heard alarming statistics that warned of a devastating loss of 
life in the event of a terrorist attack against a major 
chemical facility. Senator Lieberman, in your opening remarks, 
you made reference to the threat that is there.
    In the hearing on June 15, we heard from the Environmental 
Protection Agency and the Department of Homeland Security 
regarding the safeguards that have already been implemented 
industry-wide. I think we must recognize that there has been a 
lot of legislation addressing safety at chemical facilities.
    I recently hosted a round table discussion in Cincinnati 
and included local officials, law enforcement, and emergency 
response personnel. I was informed of the Community ``Right-to-
Know'' laws, which require companies to disclose what is inside 
their facilities, assess the potential risk, and develop a 
response plan. So there has been a lot of work on the local 
level and by the industry that we should take into 
consideration when we pursue this legislation.
    Today, we are going to hear differing views on how the 
Federal Government should best secure the chemical industry. I 
look forward to learning the perspectives of each party as we 
begin to debate the Federal role in securing this vital sector.
    Though the risk of terrorism is serious, as last week's 
horrific attacks on London's transportation sector demonstrate, 
I must reiterate my belief that the Federal Government cannot 
protect against every potential threat that we can possibly 
conceive of in this country. Doing so would bankrupt the 
Nation. I would like to state publicly that one of the stated 
goals of the terrorists, the people who have announced that 
they would like to do us harm, is that they want to hurt our 
economy. We should learn the lessons of the Cold War. The 
Soviet Union bankrupted themselves trying to protect against 
whatever the United States might do to them.
    So as we address the issue of chemical facility security, I 
think as a Nation, we need to take into consideration just how 
we are going to handle this. We must be wary of throwing money 
at this issue. Further, if we require that the industry incur 
the cost of enhanced security, it will have a horrific impact 
on the economy. I would like to emphasize the importance of a 
balanced approach between self-regulation by industry and more 
proactive Federal action.
    Industry leaders like the American Chemistry Council and 
the National Petrochemical Association should be commended for 
building a strong foundation for chemical safety. It is my hope 
that the significant safety measures developed by industry will 
be incorporated into legislation and built upon. Likewise, we 
should carefully evaluate the laws already on the books and 
seek to enhance those relevant to chemical security.
    As we further explore the issue, I would like to iterate 
four points. First, efforts to enhance the security of our 
facilities should be sharply focused on prevention, protection, 
and consequence management of potential terrorist attacks.
    Second, Federal action to address chemical facility 
vulnerabilities must not be burdened with extraneous issues.
    Third, critical information must be protected from 
unnecessary public disclosure, providing it only to responsible 
government authorities that need to have access to such 
information.
    And fourth, Federal action should be based on risk and 
vulnerability. In other words, security considerations should 
be based on factors such as potential for adverse economic 
impact and serious loss of life. A one-size-fits-all approach 
will not work for chemical security.
    Finally, Federal legislation should adhere to a 
comprehensive cost-benefit analysis so as not to place industry 
at a competitive disadvantage. As my colleagues may know, the 
chemical industry is experiencing economic hardship as a result 
of natural gas costs. In fact, we have gone from a Nation that 
exported chemical products to a Nation that is now importing 
chemical products because of the high cost of natural gas. The 
industry is already under economic stress.
    I think we ought to take all these things into 
consideration when we are putting this legislation together. 
Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman, for 
convening this hearing, yet another on chemical security. As I 
look at the witness table, I just left a Durbin and now we face 
another Durbin. Welcome. Part of the family, right?
    Mr. Durbin. Indeed.
    Senator Lautenberg. But we know you are objective and we 
welcome you. [Laughter.]
    My concern about the security of chemical plants dates back 
to the late 1990s, when I introduced the first bill in Congress 
to deal with the problem. And while the industry has made 
substantial investments in trying to improve the safety around 
these plants, more obviously needs to be done.
    Now, 2005, we are well past the time to start acting to 
confront the terrible risks that have not diminished, but 
rather have increased since September 11, and I commend 
Chairman Collins for calling this hearing.
    In view of the devastating attack in London last weekend, 
it is clear that we can't let down our guard. But as the 9/11 
Commission cautioned, we must not focus so much on the last 
attack that we fail to continue to develop our own strategy.
    Since September 11, we have focused on the security of our 
aviation system. But the London attacks remind us that there 
are many other potential targets in our country, particularly 
chemical facilities. With over 15,000 chemical plants, storage 
facilities in the country, we have quite an array of facilities 
that under attack, could be devastating. More than half of 
these are located in areas where an attack could claim 
thousands or even millions of lives.
    In my State, New Jersey, we lost 700 of our friends, 
neighbors, and loved ones on September 11. We all hope that we 
can prevent something like that from ever happening again. But 
as horrible as the attacks on September 11 were, most of the 
victims were adults, but this wouldn't necessarily be the case 
in an attack on a chemical plant, since an incident there could 
kill or injure thousands of innocent children at home or 
school. The Congressional Research Service has calculated that 
more than 8,000 schools or hospitals are near a chemical 
facility.
    Now, according to EPA, the largest zone of vulnerability to 
widespread death and destruction is in South Carney, New 
Jersey. You know that New Jersey has an industrial past, and we 
welcome the jobs and the industry in our State. But in this 
particular area, it is believed that an attack on this chemical 
facility could kill as many as 12 million people. It is a 
densely populated area, the New York-New Jersey region.
    The threat is clear and our response deserves some 
acceleration. New Jersey has some 1,600 chemical facilities 
within our State borders. Not a single one of these facilities 
is legally required to take any of the risk-reduction steps 
identified by experts at our hearing a few months ago.
    Ignoring the threat of a chemical plant attack won't make 
it go away. So I urge my colleagues on this Committee, who I 
know are very committed to the issue, to try to move forward 
from this hearing toward a legislative remedy. I am not sure 
that we can legislate everything that we want. Senator 
Voinovich was correct. I mean, we can't disrupt an industry 
that provides so much good, keep it from operating efficiently 
or at costs way beyond their capacity. But we do have to 
protect our citizens where we can, and I thank all the 
witnesses who are with us and look forward to hearing their 
views. Thank you, Madam Chairman.
    Chairman Collins. Thank you. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Madam Chairman, and to our 
witnesses, welcome. We are glad that you are here today.
    I was sitting here listening to Senator Lautenberg talk 
about all the chemical plants that they have in New Jersey. At 
one time, Delaware was known, among other things, as the 
chemical capital of the world, with companies like DuPont, 
Hercules both headquartered there with a number of facilities 
there, as well. I don't think we ever had 1,500. You may have 
bragging rights there.
    We are known for a number of other things. We are also 
known as the First State, the State that started the Nation, as 
well as the Nation's summer capital, home of tax-free shopping, 
Small Wonder. I expect we could go around the Committee here 
and ask for each of us to tell what our States are known for or 
famous for, and we could all do that. And we may not be the 
chemical capital of the world, but we have a great deal of 
interest in the security of the chemical plants that we do 
have.
    In Delaware, we have a bit of a reputation for being able 
to get things done, for being able to work across the aisle, 
for using common sense. It is one of those rare States where 
actually Democrats kind of like Republicans and vice versa. It 
reminds me a little bit of this Committee. This Committee has a 
reputation for getting things done, and with the leadership of 
Senator Collins and Senator Lieberman, we do work well across 
the aisle. I am told they like each other, and frankly, we like 
them, too.
    This is an issue whose time has come. There are other 
Committees that have sought to deal with this without a great 
deal of success. The ball has been punted, if you will, in our 
direction, and we are on the receiving end, and I am pleased to 
see that we are going to receive that ball and take the kickoff 
and run with it, and I look forward to providing some of that 
upfield blocking and maybe a lateral from time to time, and let 
us see if we can't get this ball in the end zone and provide, 
whether it happens to be the chemical capital of the world in 
Delaware or our neighbors to the East, a little greater 
security not only for the folks who are really living around 
those plants, but also those who are working there, too. Thank 
you.
    Chairman Collins. Thank you, Senator.
    Our first panel of witnesses represents some of the largest 
chemical industry associations. Our first witness will be 
Martin Durbin, the Managing Director of Security and Operations 
and the Senior Director for Federal Relations at the American 
Chemistry Council. ACC member companies are responsible for 
approximately 90 percent of basic industrial chemical 
production in the United States. We welcome you, Mr. Durbin.
    I would also like to welcome Matthew Barmasse, Director of 
Environmental, Health, Safety, and Quality at ISOCHEM, 
Incorporated. Today, however, he is here representing the 
Synthetic Organic Chemical Manufacturers Association. He has 
more than 25 years of experience in the chemical industry and 
will provide this Committee with the perspective of how a 
smaller company like ISOCHEM has improved security.
    Last, I would like to welcome Bob Slaughter, the President 
of the National Petrochemical and Refiners Association. The 
NPRA has more than 450 member companies, including virtually 
all the refiners and petrochemical manufacturers in the United 
States. So we welcome you, as well.
    Mr. Durbin, we are going to begin with you.

 TESTIMONY OF MARTIN J. DURBIN,\1\ MANAGING DIRECTOR, SECURITY 
           AND OPERATIONS, AMERICAN CHEMISTRY COUNCIL

    Mr. Durbin. Madam Chairman, Senators, good morning. My name 
is Marty Durbin, and as the Managing Director for Security and 
Operations at the American Chemistry Council, I appreciate the 
opportunity to provide testimony on behalf of ACC.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Durbin appears in the Appendix on 
page 91.
---------------------------------------------------------------------------
    Allow me to directly address the question posed by this 
hearing: ``What is the appropriate Federal role for chemical 
facility security?'' On behalf of ACC, I am here this morning 
to repeat and continue the call we have made for more than 2\1/
2\ years, and that is the need for legislation to set mandatory 
national standards for security at chemical facilities and 
provide the necessary regulatory authority to the Department of 
Homeland Security to ensure this critical part of our national 
infrastructure is protected.
    ACC represents more than 130 of the leading companies in 
the U.S. chemical manufacturing sector, and as noted, we are 
responsible for nearly 90 percent of basic industrial chemical 
production and are an essential part of our Nation's critical 
infrastructure. As many of you have noted, the products of 
chemistry are critical in many aspects of our lives, from 
cleaning our drinking water to supporting agriculture and 
spurring medical innovations to prevent and treat disease.
    In my brief remarks, I would like to highlight the 
following. First, the leadership role that ACC members have 
taken to further ensure the safety and security of their 
products, their facilities, the supply chain, and the 
communities in which they operate, an investment to date of 
more than $2 billion in security since September 11.
    Second, the great strides we believe have been made by the 
Federal Government and our industry, cooperatively, to secure 
the chemical sector.
    Third, the real need for Federal legislation to provide 
nationwide assurances that all portions of the industry take 
the same aggressive actions that ACC members and others are 
taking.
    And finally, our views on the important and often 
misunderstood subject of inherent safety.
    Security isn't new to our members, but the tragedies of 
September 11, 2001, brought swift and decisive action from the 
industry leaders of our association. Without waiting for 
government direction, ACC quickly issued site and 
transportation security guidelines in October and November of 
that year, after which ACC's Board of Directors launched an 
aggressive effort to develop a new, Responsible Care Security 
Code. Implementation of Responsible Care, which is ACC's 
signature program of continuous improvement in environmental, 
health, safety, and now security performance, is mandatory for 
our members.
    The Responsible Care Security Code and ACC member security 
enhancements have been widely and uniformly acknowledged by 
government and security experts. State and local governments 
have used the code as a model for their own regulation of 
chemical facility security, and the U.S. Coast Guard, which 
regulates security for nearly 240 chemical facilities under the 
Maritime Transportation Security Act, recognized our Security 
Code as an alternative security program for ACC members.
    The Security Code itself required each of our member 
companies to take the following four steps broadly. First, they 
had to prioritize every facility by risk.
    Second, they had to assess the vulnerabilities using 
methodologies that were developed by Sandia National 
Laboratories and the Center for Chemical Process Safety, which 
is a program of the American Institute of Chemical Engineers.
    Third, they then had to implement security enhancements 
commensurate with the risks that were identified by those 
assessments and taking into account inherently safer 
approaches, engineering, and administrative controls and other 
security prevention and mitigation measures.
    And finally, they had to verify the implementation of those 
physical security measures using third parties that are 
credible in the local community, such as first responders and 
law enforcement officials. All ACC member company facilities 
have completed their vulnerability assessments, implemented 
security enhancements, and to date nearly all have had those 
enhancements verified.
    The ACC Security Code also covers transportation and cyber 
security. It allows our members to extend the reach of the code 
throughout the physical and virtual value chain. Separate 
guidance documents were developed to assist members in 
implementing the code with those companies who transport our 
products, including rail, truck, and barge.
    Specific to cyber, our members lead an industry-wide cyber 
security program that has developed guidance documents and a 
broad practices standards and technology initiative. We believe 
our members provide a model to other industries with similar 
automated systems. Some of our members' cutting edge 
facilities, in fact, have hosted visits by staff from DHS and 
this Committee, and we have received very positive reports.
    All of the guidance materials I have mentioned addressing 
site, transportation, and cyber security, as well as the code 
itself, are publicly available through our website so they can 
have the broadest possible effect beyond our membership.
    Now, turning to our partnership with the Federal 
Government, the Homeland Security Presidential Directive Number 
7 specifically names DHS as the lead or sector-specific agency 
for the chemical sector. To achieve the infrastructure 
protection objectives of that directive, ACC and its members 
have worked in close partnership with DHS over the past years, 
facilitated site visits to our member facilities, and 
participated in their Buffer Zone Protection Program that 
provides support and resources to local governments.
    We created, fund, and maintain the Chemical Sector 
Information Sharing and Analysis Center, a two-way 24/7 
communications tool between DHS and the chemical sector, which 
we operate as a public service through our CHEMTREC program in 
cooperation with DHS.
    We participate regularly in exercises and drills at all 
levels, from facility-based emergency preparedness and response 
drills to the recent national level TopOff 3 exercises.
    We also facilitated development of the Chemical Sector 
Coordinating Council, a group of 16 leading trade associations 
that coordinates communication between DHS and our sector for 
purposes of infrastructure protection. In fact, all three 
organizations represented on this panel are members of that 
Council.
    Along with others in the sector, we are working with DHS to 
develop tools and methods to help intelligently allocate 
protective resources on a risk basis. That is not to say 
everything is working perfectly in our relationship with DHS, 
but we are all learning together, and we have made great 
strides to improve the partnership between our sector and the 
agency, and we have established a constructive relationship 
that will allow for even better things as we move forward.
    So why is Federal legislation necessary? Despite all the 
progress that has been made to date, there is no way to assure 
that all chemical facilities that need to be protected are 
taking the same kinds of aggressive steps that ACC members have 
taken to protect this critical sector. No doubt, many non-ACC 
members have also taken appropriate steps, and they should be 
commended. But as highlighted by DHS Assistant Secretary 
Stephan at last month's hearing, there are high-risk facilities 
that have not.
    ACC has led the effort to ensure that all chemical 
facilities are secured against the threat of terrorism. We have 
worked continuously with Congress and the Administration for 
enactment of national security legislation that will first 
establish national standards for security of chemical 
facilities. We agree with DHS that those standards should be 
risk-based, reasonable, clear, and equitable, and that they be 
performance-oriented in a way that will provide flexibility to 
facilities.
    Second, require those identified facilities to conduct 
vulnerability assessments and implement security plans.
    Third, provide oversight, inspection, and enforcement 
authority to DHS.
    Fourth, protect sensitive security information.
    And finally, recognize responsible voluntary efforts. 
Naturally, we believe that any Federal legislation should 
enable DHS to give credit to ACC members for their substantial 
actions and investments to implement the Responsible Care 
Security Code. As witnesses at your April hearing concurred, 
ACC members deserve a level playing field and a common set of 
expectations. But let me be clear. We are not asking for an 
exemption from the law, only that DHS be allowed to recognize 
our members' significant actions just as the Coast Guard has 
already done.
    Without Federal action on this vital topic, State 
legislatures will fill the void. Both Maryland and New York 
have already enacted chemical facility security laws. And while 
ACC was able to support both of those statutes, we strongly 
believe that a national program, not an incomplete patchwork of 
potentially conflicting State efforts, is necessary.
    Finally, Madam Chairman and Senators, in the debate over 
chemical security, no issue has proven more controversial than 
the role of inherent safety. Because of ACC members' deep 
investment in this issue, I want to spend the balance of my 
time explaining our views and why we feel so strongly about 
them.
    In a nutshell, inherent safety means designing a process to 
minimize hazards in the first place rather than managing and 
controlling them with protective equipment or procedures. This 
concept was invented by the chemical engineering profession and 
our industry has long embraced it. Under the Responsible Care 
initiative, inherent safety is a key element in the design and 
modification of facilities and job tasks. Our members 
continually conduct process hazard analyses of our facilities, 
and those analyses can lead us to change processes, modify 
procedures, or substitute materials to reduce and manage risks. 
And, as I noted earlier, the Responsible Care Security Code 
mandates that our members take inherently safer approaches into 
account in assessing possible security measures.
    I cannot overemphasize, however, that inherently safer 
chemical processing requires considering all the risks 
potentially associated with a process. Inherent safety 
typically involves making very challenging judgments to ensure 
that risks are not unwittingly shifted or substituted and that 
overall risks are reduced.
    Many inherently safer approaches involve trading one risk 
against the potential of another.
    For example, advocates of inherent safety frequently speak 
of reducing onsite inventories or reducing or eliminating 
storage of hazardous materials. While that may be appropriate, 
reducing inventories at a facility may also increase the number 
of truck shipments through a neighborhood. Similarly, replacing 
a low-temperature, low-pressure process that uses a toxic 
chemical with a process that uses a less-toxic chemical but 
operates at a higher temperature and pressure may increase the 
potential hazard to workers.
    The challenge of trying to oversee inherent safety 
decisions is compounded by the complexity of chemical industry 
processes. Chemical companies make tens of thousands of 
products, and there are no standard processes for making them. 
To expect effective regulatory oversight in this area is 
unrealistic, at least without great difficulty, expense, and 
delay. In fact, in the Clean Air Act Risk Management Program 
rulemaking, EPA concluded that requiring and reviewing multiple 
process options at each regulated plant would not lead to 
greater advances in process safety.
    Members and witnesses at April's hearing agreed on the 
importance of this legislation, and in Senator Voinovich's 
words at the time, any legislation must be sharply focused on 
security and not burdened with extraneous issues. We firmly 
believe that judgments about inherent safety are fundamentally 
process safety decisions that must ultimately be left to the 
process safety professionals. So mandating IST, we believe, 
should not be part of any security-focused legislation.
    In closing, I just want to say that it has been nearly 4 
years since September 11, and now is the time to act. So we 
welcome this hearing, and we are committed to continuing to 
work with this Committee and others to see that legislation is 
enacted in this session of Congress.
    Thank you, and I would be happy to answer any questions.
    Chairman Collins. Thank you very much. Mr. Barmasse.

   TESTIMONY OF MATTHEW BARMASSE,\1\ ENVIRONMENTAL, HEALTH, 
 SAFETY, AND QUALITY DIRECTOR, ISOCHEM, INC., ON BEHALF OF THE 
      SYNTHETIC ORGANIC CHEMICAL MANUFACTURERS ASSOCIATION

    Mr. Barmasse. Madam Chairman, Members of the Committee, my 
name is Matt Barmasse. I am the Director of Environmental, 
Health, Safety, and Quality for ISOCHEM, which is a small 
chemical manufacturer located in Western New York. My company 
mainly produces phosgene and phosgene derivatives, serving very 
diverse customers and markets, from pharmaceuticals to 
photographic products.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Barmasse appears in the Appendix 
on page 102.
---------------------------------------------------------------------------
    I am appearing today on behalf of the Synthetic Organic 
Chemical Manufacturers Association, also known as SOCMA. I 
appreciate the opportunity to speak with you about the 
appropriate Federal role in chemical site security. SOCMA is 
the leading trade association representing specialty and batch 
chemical producers, most of which are small companies. As a 
condition of membership to SOCMA, chemical companies must 
subscribe to Responsible Care and its security code.
    I will focus my remarks today on the nature of specialty 
chemicals and batch manufacturing, our relationship with DHS, 
EPA's Risk Management Program, and our perspective on 
Inherently Safer Technology.
    Specialty chemicals are essential ingredients and building 
blocks for other products and perform very specific functions 
based largely on their molecular structures, which give them 
unique physical and chemical properties. Without these 
substances, nylon would not be strong enough to use for seat 
belts, medicine would revert back to what it was in the 1800s, 
and our Armed Forces would not have the modern equipment and 
supplies necessary to defend our country.
    Because of their complex chemistries and narrowly focused 
applications, specialty chemicals are typically produced in 
small quantities, batch by batch. Most batch producers change 
products frequently, often on customer demand and short notice. 
This leads to frequent changes in the risk profile of the site. 
In many cases, batch producers are located in nondescript 
industrial or office parks with most of the processing 
equipment either indoors or out of view, making them difficult 
to recognize as chemical facilities.
    Does this mean that my company and other SOCMA members feel 
that we should do nothing about security? Absolutely not. 
ISOCHEM conducted a security vulnerability analysis and 
accordingly enhanced its security policies and procedures. We 
spent over $750,000 to upgrade our physical and cyber security 
since September 11. And again, we are a small company.
    I do believe, however, that a one-size-fits-all approach to 
security is neither appropriate nor feasible. Instead, SOCMA 
and its members support a tiered, risk-based approach.
    SOCMA has established a strong working relationship with 
the Department of Homeland Security. DHS officials have met 
with SOCMA and its members on many occasions. SOCMA staff and 
member company experts are routinely consulted by DHS on 
technical issues and participate on DHS work groups, such as 
the team developing RAMCAP. SOCMA is a founding member of the 
Chemical Sector Coordinating Council, which also works closely 
with DHS.
    DHS has also visited our site, providing valuable insight 
and constructive suggestions to enhance security. ISOCHEM has 
also been involved in our area Buffer Zone Protection Program, 
enabling our region to receive direct DHS funding for security 
upgrades. We are also participating in a RAMCAP pilot project 
which will be conducted over the summer. In addition, DHS is 
working with other Federal, State, and local agencies, trade 
groups, and individual companies to secure America's chemical 
facilities.
    The Committee should be aware of other important efforts 
currently underway. State and local authorities are often in 
the best position to help secure our Nation's infrastructure, 
and there are many ongoing efforts to augment chemical site 
security. At the community level, we all have a mutual interest 
in mind. None of us want our communities to be attacked by 
terrorism.
    In earlier hearings before this Committee, some have 
suggested that a number of RMP facilities are unwilling or 
unable to secure their facilities. While there may be some 
outliers, which are primarily small-scale chemical users rather 
than manufacturers, I am not easily convinced that they are 
very attractive terrorist targets. Simply put, the figures 
often cited by the press, 15,000 chemical facilities that put 
thousands or even millions of people at risk, are just not an 
accurate depiction of reality.
    In fact, the RMP database, especially the worst-case 
scenarios, were never designed to be realistic. EPA and DHS 
officials have made this point repeatedly, and this has just 
been reaffirmed by the Congressional Research Service. Yet I 
repeatedly see RMP data used to scare people into thinking that 
the chemical industry is putting our communities at significant 
risk. This is both irresponsible and inaccurate. It is unfair 
to the chemical industry, DHS, and the local authorities with 
whom we work closely.
    An important consideration missing from RMP methods include 
the safety systems in place at our facilities, our outstanding 
emergency response capabilities, residential and industrial 
building codes, and the realities of how hazardous materials 
behave when released, which will explain why we don't see 
Bhopal-like incidents occurring here in the United States.
    That is not to say RMP data cannot be useful. While we 
believe that most facilities falling under the RMP program are 
not attractive terrorist targets, the list does provide a 
reasonable universe of sites to begin screening and 
prioritizing according to risk.
    Inherently Safer Technology (IST) is probably the most 
misunderstood and controversial aspect of chemical site 
security. IST is a philosophy, it is not a technique, and it is 
certainly not a panacea for securing America's chemical 
facilities. Many non-scientists have been led to believe that 
the only way to achieve inherent safety is by substituting for 
the hazardous materials used in chemical manufacturing and 
processing. Application of IST, however, is bound by the laws 
of physics and nature. Physical laws place restrictions on what 
can and cannot be done when trying to make a chemical. In 
chemistry, reactive substances must be used to form new 
molecules and many reactive chemicals are, by their very 
nature, hazardous.
    Where hazardous chemicals are used, they are highly 
regulated by EPA and OSHA and appropriately managed by chemists 
in universities, government, and industry. The fact of the 
matter is that scientists cannot produce the materials that 
make our standard of living possible without using very 
specific chemicals.
    Making medicine is a good example. Phosgene is a key 
building block for an important starting material in a 
pharmaceutical application. The structure of phosgene allows 
for transfer of atoms that is clean, meaning that it does not 
allow side reactions to occur that would contaminate the 
compound with potentially toxic byproducts. Using phosgene 
helps secure the safety of medicines used to treat diseases, 
such as MS.
    Another important factor is the potential for transferring 
risk from one area to another. For example, if the amount of a 
chemical stored onsite is reduced, the only way to maintain 
production schedule is to increase the number of shipments to 
the site, which increases the transportation and transfers the 
risk.
    The very nature of hazardous chemicals provides important 
economic incentives for companies to use the safest and least 
hazardous chemicals possible, including reduced accidents, 
cheaper transportation and disposal costs, cheaper insurance 
rates, fewer government regulatory requirements, and avoidance 
of facility down time.
    With all these incentives in place, the question becomes 
why do chemical companies still use hazardous materials? The 
simple fact is that the law of physics and nature are much 
larger drivers than anything else. No Federal program mandating 
IST will change the science of chemistry. Instead, such a 
program would result in nothing more than a burdensome 
paperwork exercise forced on companies just to justify their 
scientific methods and decisions while doing nothing at all to 
enhance security.
    As noted earlier, chemical sites are extremely diverse as 
are the chemistries that take place within our facilities. 
Because of this, a one-size-fits-all approach to security of 
chemical facilities with prescriptive standards just will not 
work, nor will attempting to mandate Inherently Safer 
Technologies.
    SOCMA and its members support a tiered risk-based approach 
to security that begins with a mechanism to screen and 
prioritize sites and concentrates further work on areas with 
the greatest degree of risk. Any Federal oversight of security 
in a chemical sector needs to account for the significant 
voluntary efforts already undertaken. It should also use 
performance-based fundamentals that provide the flexibility 
needed to implement effective site-specific programs.
    Key elements of such a program include a clear definition 
of covered entities and any exceptions; recognition of past 
efforts and voluntary programs that are substantially 
equivalent to DHS requirements; flexibility in achieving 
compliance; compliance assistance for small companies; risk 
screening for prioritization across covered facilities; DHS 
approved security vulnerability assessments for higher-priority 
sites; Federal preemptive authority for DHS; retention of 
security plans containing critical infrastructure information 
with availability to DHS upon request; and finally, recognition 
of efforts by the regulated community under other security 
programs.
    Madam Chairman, Members of the Committee, thank you for 
your consideration of SOCMA's perspective of these important 
issues, and I am happy to answer any questions you have about 
my testimony.
    Chairman Collins. Thank you. Mr. Slaughter.

      TESTIMONY OF BOB SLAUGHTER,\1\ PRESIDENT, NATIONAL 
             PETROCHEMICAL AND REFINERS ASSOCIATION

    Mr. Slaughter. Thank you very much. Madam Chairman, Senator 
Lieberman, and other Members of the Committee, my name is Bob 
Slaughter. I am President of the National Petrochemical and 
Refiners Association.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Slaughter with attachments 
appears in the Appendix on page 119.
---------------------------------------------------------------------------
    NPRA's member companies constitute an extremely broad 
representation across two industries, the petrochemical 
industry and the refining industry, as well as their suppliers 
and vendors. On behalf of our members, I do want to begin by 
thanking you for the opportunity to appear today and for 
holding this important hearing, as well as for the very 
balanced and fair opening statements.
    We would like to offer the following summary of our 
complete testimony. Maintaining the security of our facilities 
has always been a priority at refineries and petrochemical 
plants. It is job one. It simply has to be that way. Our 
industries have long operated globally, often in unstable 
regions where security is an integral part of providing for the 
world's energy and petrochemical needs.
    After the occurrence of the tragic events of September 11, 
those industries realized, as did everyone else, that 
additional threats had to be taken into account to secure the 
critical assets that we own. Our members began implementing 
additional and far-reaching measures to address these new 
threats, and you have asked what are some of those steps.
    We developed, along with our sister association, the 
American Petroleum Institute, a peer-reviewed Security 
Vulnerability Assessment methodology especially attuned to the 
needs of refining and petrochemical industries. The Department 
of Homeland Security has endorsed this methodology and, in 
fact, uses it in instances to train its own people.
    Under that methodology, you analyze a facility to determine 
the vulnerabilities. You identify potential threats. You 
identify potential security vulnerabilities. You determine the 
risk by measuring the likelihood of an attack and the 
consequences, and you recommend appropriate incident mitigation 
and countermeasures. You identify the appropriate security 
measures and incorporate them in a security plan addressing the 
SVA findings, which is then implemented.
    Our members have conducted security vulnerability 
assessments pursuant to these plans, and they have prepared and 
implemented facility security plans in response to the 
findings. In 2004, the SVA methodology was extended to 
transportation-related activities, including pipelines, rail, 
and truck transportation.
    We developed an extremely close working relationship, as 
well, with key Federal agencies, as well as State and local law 
enforcement officials, to obtain and exchange critical 
information. We are actively partnering with DHS on many 
important security initiatives, including the development of 
the Risk Assessment Methodology for Critical Asset Protection, 
or RAMCAP, the Homeland Security Information Network, HSIN, and 
the Buffer Zone Protection Plan, among others. Other groups 
that we work with include the FBI, the Department of 
Transportation, DOE, the Department of Defense, the CIA, the 
Government Accountability Office, and, of course, the 
Department of Homeland Security and its various components, 
particularly the U.S. Secret Service, Transportation Security 
Agency, and Coast Guard.
    We have held joint training exercises simulating terrorist 
attacks on numerous occasions with both Federal and State 
officials. We have developed training programs involving 
Federal and State Government officials. We have shared best 
security-related practices among large and small companies that 
constitute our diverse membership at NPRA meetings and 
conferences. We have held five national security conferences 
involving large numbers of companies in both industries since 
2001. Again, they have shared best practices, they have heard 
from experts, they know what the state of the art is when it 
comes to security practices.
    Our members, like others, have complied with the 2002 
Maritime Transportation Security Act. The Coast Guard has 
jurisdiction over a majority of the 150 refineries and 200 
petrochemical manufacturing facilities in the United States. 
SVAs and plans have been submitted to the Coast Guard. They 
have been reviewed and approved. Companies have designated 
Facility Security Officers to oversee implementation. Quarterly 
drills are required to test the elements of these plans.
    Companies themselves have taken strong new security 
measures. They have reconfigured sites. They have set critical 
assets back from perimeters and installed electric intrusion 
detection systems, implemented card access controls using 
biometric technology. They have acquired enhanced security 
community systems, shared security response plans with local 
law enforcement and appropriate Federal agencies. They have 
conducted drills and exercises to test security and response 
plans, and hired additional security personnel. There is an 
even more complete list of this, which in itself is still 
partial, in the filed testimony.
    You have asked for NPRA's position on legislation. We do 
not oppose reasonable chemical security legislation and 
regulation. However, the existing system, we believe, is 
working well and care must be taken to do no harm to current 
efforts in fashioning your ultimate product. Although we have 
not advocated legislation, we realize this Committee and DHS 
have both announced support for new regulatory authority, and 
in response, we have developed some principles that we hope the 
Committee will consider and adopt in Federal legislation, and 
we look forward to working with you on that.
    Our principles are, you need to be prudent in fashioning 
what could amount to a significant additional and costly 
mandate on America's scarce refining and petrochemical 
facilities. There has been a lot said about how scarce our 
refining facilities are in the United States. We have not built 
a new refinery in the United States since 1976. So security 
needs to be maintained at these facilities, but we have to have 
an eye toward the impact on their survivability and the 
maintenance of these facilities in the United States.
    The same with petrochemicals. As Senator Voinovich pointed 
out, the petrochemical industry has been under intense pressure 
on natural gas prices in recent years, so no one wants to 
compromise security, but requirements need to be reasonable. 
These are scarce assets and necessary to national security.
    We hope you will try to maintain the close and highly 
productive relationship that currently exists between the 
Department of Homeland Security, other Federal, State, and 
local governmental bodies, and the refining and petrochemical 
industries. That relationship is largely responsible for the 
success of security programs in those industries thus far. We 
are concerned about the impact of new legislation on this 
productive relationship. The dynamics of the relationship could 
be affected and the current level of information sharing could 
be diminished and that would not be productive, and we hope you 
will keep that in mind as you fashion your legislative product.
    We hope that you will use MTSA as the model for any new 
security legislation. It has clear performance-based 
requirements. Essentially here, we are talking about support 
for a tiered approach based on risk. We favor reliance on 
Security Vulnerability Assessments and responsive facility 
security plans with exercises, documentation, reporting 
procedures, and audits, protection, above all, for sensitive 
security information.
    We think there should be self-assessment and auditing. We 
have had good experience with Coast Guard jurisdiction. We 
would assume that you would set up a Department of Homeland 
Security jurisdiction for facilities not subject to Coast Guard 
jurisdiction. We think that a facility that currently is 
partially covered by the Coast Guard should be able to opt in 
its whole facility if it chooses. We hope you will preempt 
other Federal and State programs so there aren't a lot of 
overlapping requirements that will make it difficult to comply 
and understand what the rules are.
    We hope you will credit companies for security programs 
already implemented by companies. We have not developed and 
marketed a proprietary NPRA program for our members. We have 
tried to let them know what the state of the art is. We have 
some of the largest meetings in the world in the petrochemical 
and the refining industry, and we have invited folks to come in 
and talk about their programs, including ACC, so that our 
members will know what is available. We let them make their own 
choice.
    We hope you will help companies with background checks, to 
define the criteria for denying access to facilities, and 
hopefully allow companies to access and utilize government 
resources and databases in making employment decisions.
    Again, we hope you will require DHS to develop a tiered 
risk-based approach to regulate chemicals and facilities.
    We were very much encouraged by the DHS statement before 
this Committee and others that they are developing core 
principles based on risk, reasonable, clear, equitable and 
enforceable security standards, ones that recognize investments 
and the progress that companies have made so far. We are 
committed to continuing that progress however we go forward.
    So just to conclude, I want to underscore again that 
refiners and petrochemical manufacturers take very seriously 
the responsibility to maintain and strengthen security at 
facilities. We urge the Committee to fully consider the impact 
of legislation on existing programs and practices. Please use 
MTSA as the template for developing new chemical security 
requirements and embrace and support the core principles 
outlined by DHS at this Committee's June 15 hearing.
    I am happy to answer any questions the Committee may have 
on our testimony. I want to thank you again for offering us the 
opportunity to be here today.
    Chairman Collins. Thank you.
    Mr. Durbin, you testified that compliance with the 
Responsible Care Security Code is mandatory for ACC members. 
First, could you explain to us how ACC monitors compliance with 
the code, and second, what would your suggestions be for 
compliance measures to be included in the legislation that we 
will be drafting?
    Mr. Durbin. Senator, for the Responsible Care program 
overall and the Security Code, we have set the guidelines for 
the companies to follow within the code and they self-assess. 
And in the case of the Security Code, they actually had to 
report to a third party that they had completed the steps that 
I outlined. And again, if they had not done that, they had not 
met those guidelines within the code, then we have a governance 
process that would first try to bring them into compliance, and 
if not, make clear that they are no longer eligible for 
membership.
    With regard to compliance within legislation, again, I 
think, clearly, we have stated very clearly that there should 
be clear oversight, inspection, and enforcement authority for 
DHS. All that we asked, just as the other witnesses have, as 
well, is that we give DHS the ability to look at work that has 
been done through programs such as those that have been cited 
and determine whether or not they are essentially equivalent to 
those regulatory programs, and if so, let us not force 
companies to duplicate efforts that they have already made.
    Chairman Collins. Mr. Slaughter, in your written testimony 
and again this morning, you have cited the Maritime 
Transportation Security Act as a model that this Committee 
could use in drafting chemical security legislation. Under that 
law, the Coast Guard has the authority to shut down a facility 
if the Coast Guard determines that the facility has not 
established sufficient security measures. In fact, the law 
prohibits a facility from operating unless it has submitted and 
is in compliance with a security plan approved by the Secretary 
of Homeland Security. Would you support giving the Department 
of Homeland Security similar authority to shut down chemical 
facilities that the Secretary determines have not taken the 
necessary steps or security measures that the Department deems 
necessary?
    Mr. Slaughter. Obviously, any regulatory entity, Madam 
Chairman, has got to have ultimate authority to enforce its 
requirements. I think you have to hope that any regulatory 
authority will use wisely whatever authority they are given, 
and I don't believe that anyone in the industry would be 
disinclined to grant that as the ultimate authority to the 
Coast Guard under MTSA. But again, one would hope there would 
be a number of steps and the good working relationship has been 
set up with the Coast Guard and DHS, but that is probably one 
aspect of that regulation, yes.
    Chairman Collins. Mr. Barmasse, more than 3 years ago, the 
CIA first alerted us to the possibility of an al Qaeda attack 
on chemical facilities, and since that time, many experts both 
inside and outside of government have warned the industry that 
you are a potential target. That is different, however, from 
knowing the specifics, from knowing that there is a specific 
plant that is at risk or a specific plot against a particular 
sector.
    I am curious about the flow of communication and 
information sharing between the Department and smaller 
companies like yours. I suspect that the Department has a very 
close communication and working relationship with the ACC and 
with larger industry players. But could you tell us how a 
threat that would involve plants that are smaller, like yours, 
would be conveyed and assess for us the extent of communication 
and information sharing between the Department and the smaller 
manufacturers?
    Mr. Barmasse. We have been very pleased with the flow of 
information from DHS and through the chemical sector, ISAC, 
which anybody can participate in to get that type of 
information on chemical site security. We signed up for that. 
We get notices and information on potential threats. And the 
Department of Homeland Security and their different offices 
within the Department have been very forthcoming with 
information and sharing information. They visited our site. 
They have assessed our security procedures that are in place. 
They provided valuable information on how to assess threats, 
and we have found that the information flow from them through 
the chemical sector, ISAC, has been very good, which all small 
chemical companies would be available to. So it has been a very 
good relationship to date and the information has flowed very 
well.
    Chairman Collins. That is good to hear.
    Mr. Durbin, one of the issues raised by witnesses at our 
previous hearings is that while 80 percent of the industry is 
complying with voluntary codes and has taken sometimes very 
expensive measures to improve security, there is a smaller 
percentage, possibly as much as 20 percent, according to the 
Department, that has not implemented the kinds of security 
measures that your members have embraced.
    Are there competitive issues at play here? What I am 
thinking of is that a company that makes the investments, and 
they may well be expensive investments, to improve security may 
be put at a competitive disadvantage compared to a counterpart 
that does not make those investments.
    Mr. Durbin. Certainly. I think it is clear that we have--
just speaking for ACC members, we can point to more than $2 
billion worth of investment in security. That doesn't count 
what my counterpart organizations here at the table have also 
invested there. But while that is certainly a consideration, 
and something that I think from our members' standpoint, yes, 
we would like to see the playing field leveled and ensure that 
as we do move forward, we are not forced to make duplicative 
investments, the fact of the matter is our primary drive here 
is that you have a critical sector, critical part of this 
national infrastructure that has to be protected, and we have 
to have those nationwide assurances that the entire sector is 
acting in ways that it should.
    Chairman Collins. Thank you.
    Senator Lautenberg. Madam Chairman, may I make a request 
that questions be answered by the witnesses in writing? I have 
to go to another hearing.
    Chairman Collins. Certainly. The hearing record will remain 
open for 15 days. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Thanks to the 
witnesses for their testimony this morning.
    Let me ask this question. Despite some of the significant 
steps that the industry has taken, which you have testified to 
today, there have been media reports relatively recent that 
suggest an unacceptable level of access to some chemical 
facilities with dangerous materials. Most recently, the New 
York Times reported that the stretch of Northern New Jersey 
between the Newark Airport and Port Elizabeth, which has more 
than a dozen chemical plants and a lot of other potential 
targets--storage tanks, refineries, and pipelines--was very 
accessible to trucks. Apparently, you could drive within 100 
feet of storage tanks. A Times reporter and photographer, and I 
quote here from the story, ``found the plant only loosely 
guarded as they drove back and forth for 5 minutes, snapping 
photos.''
    This experience echoed previous incidences, which I am sure 
you are familiar with, including one highlighted on ``60 
Minutes'' where reporters easily gained access to a chemical 
facility near Pittsburgh, which contained very toxic and 
explosive chemicals.
    Given the work that the industry has done, how do you 
explain these incidences and what do they say to us about what 
more should be done? Mr. Durbin, do you want to start?
    Mr. Durbin. Sure. In the instances that were cited with 
``60 Minutes,'' if there is access to a facility, and certainly 
getting to the more sensitive areas of a facility, frankly, 
that is unacceptable, and I think that is why you have to have 
programs that are focused on making sure those things won't 
happen and why we as an organization have been calling for 
national legislation to make sure that we do have those kinds 
of standards set in place.
    It is difficult to comment on other stories without knowing 
more details, but not all security preparations are obvious or 
visible. So I am reluctant to get into specifics on any one----
    Senator Lieberman. No, I understand----
    Mr. Durbin [Continuing]. And you are talking about public 
roadways and what have you. But in general, again, I think that 
this just points out why there needs to be a nationwide set of 
standards to be sure that all those facilities that ought to be 
taking these kinds of actions are doing so.
    Senator Lieberman. I appreciate that answer. Mr. Barmasse.
    Mr. Barmasse. And again, I am not familiar with the 
specifics of those, but we are also supportive of legislation 
that is reasonable and flexible for the risks associated with 
facilities. A facility like ours takes quite a few steps to 
make sure that our facility is adequately secured. We have gone 
through a lot of the risk assessments and worked with DHS to 
help identify those threats. And I think many of the small 
companies are doing similar-type things. So we would be very 
supportive of legislation that does provide those types of 
security.
    Senator Lieberman. Mr. Slaughter.
    Mr. Slaughter. Senator Lieberman, we work very closely 
through our NPRA Security Committee with our members, who go 
from the largest to the smallest of companies. I can tell you 
from what I have seen personally and what I have heard is that 
they are extremely sensitive to problems such as were discussed 
in this particular article, which I also have read.
    Senator Lieberman. Right.
    Mr. Slaughter. And we certainly have sent a very strong 
message, and they have heard it and they have heard it from 
others, that this is unacceptable behavior. So it is difficult 
to determine--the company names I have seen are people who are 
not our members, but sometimes you don't see them. But this is 
behavior which seems to be very different from what we are 
seeing in our members who are watching to see if anyone takes 
pictures of the facility or anything. So it is difficult to 
determine who the outliers are. All of us are united here in 
efforts to get the information about best practices out and to 
see that they are enforced.
    Senator Lieberman. OK. I appreciate the answers. I think 
you draw the same conclusion I do, which is that these stories, 
generally speaking, speak to the need for national standards 
and for legislation.
    Mr. Durbin, let me ask you this. After September 11, I know 
that your organization added a security requirement to the 
Responsible Care Security Code that requires facilities, and I 
applaud this, to conduct a vulnerability assessment and then 
prepare and implement a security plan. There is third-party 
verification of plan implementation. However, the third-party 
review consists of verifying that the chemical facility took 
the steps outlined in the security plan, but it doesn't conduct 
an independent assessment of whether the plan is adequate to 
the threat.
    Is there a need for a truly independent assessment of the 
sufficiency of the security measures taken in our Nation's 
chemical facilities?
    Mr. Durbin. You are absolutely correct, Senator, in your 
explanation of the verification process, and that is how it was 
set out when the code was developed. At that time, the overall 
program was moving from one of a separate set of codes to what 
is now the Responsible Care Management System. So we put the 
code in place and the verification piece that you described in 
place in the interim.
    Now, as we move forward, we are moving to RCMS, modeled on 
ISO 14,000, where there actually will be third-party 
certifications and audits of companies that will encompass 
everything they have done in the environmental, health, safety, 
and security area. So moving forward, there will be those 
independent third-party auditors coming in to certify that they 
have taken appropriate actions.
    Having said that, we were also working toward trying to get 
a government role that would help to assure that the actions 
taken were indeed up to the measure on whatever the national 
standards are that would be set.
    Senator Lieberman. OK. My time is up. Thank you for that 
answer.
    Chairman Collins. Thank you. Senator Voinovich.
    Senator Voinovich. I have been thinking about this from a 
perspective of a former governor and former mayor, and I am 
wondering how you get all of this done? Specifically, what 
percentage of the industry is covered by MTSA?
    Mr. Slaughter. For refining, it is over half of the 
refining facilities and probably over half of the petrochemical 
facilities, as well, Senator Voinovich. They tend to be located 
close to coasts and large navigable waterways.
    Senator Voinovich. OK. How much different is the MTSA 
regulations as to the Responsible Care Security Code? How 
similar are they?
    Mr. Durbin. Actually, Senator, they are very close. In 
fact, as I noted, the Coast Guard was given the authority to 
look at programs like Responsible Care and determine whether 
or not they were substantially equivalent. We worked with them 
over about a 6- to 9-month period to walk through their 
regulations and our program, and at the end, the Coast Guard 
was willing to declare that the Responsible Care Security Code 
was an alternative security plan for complying with MTSA. They 
did require each facility to provide some additional 
information on what they will do when we raise the alert levels 
in the port, but overall, our companies did not have to go back 
and redo vulnerability assessments----
    Senator Voinovich. So from the Committee's point of view, 
if we looked at your Responsible Care Security Code and looked 
at the MTSA regulations, that could give us a nice picture of 
what we should be doing in terms of regulation. Now, does the 
Coast Guard verify that MTSA is being carried out?
    Mr. Slaughter. Yes, Senator.
    Mr. Durbin. Yes, sir.
    Senator Voinovich. From your perspective, is it pretty 
conscientious?
    Mr. Durbin. It is extremely conscientious. It is one of 
the, frankly, rare times that our members say that a Federal 
agency is extremely conscientious, and also, they have a very 
good relationship with that group.
    Senator Voinovich. How do your recommendations differ from 
one another? If you read the testimony, you are almost all in 
sync about what you think the legislation should look like. You 
all agree that there should be national legislation. So how 
much different, in terms of your consensus of the legislation, 
is it from what the Department of Homeland Security has 
suggested as the kind of legislation that needs to be 
implemented? Is there a wide discrepancy? I have asked my staff 
to look at that, but from your perspective, how far off are 
you?
    Mr. Durbin. Again, just responding to what we have heard so 
far, what Assistant Secretary Stephan laid out in his testimony 
and from discussions with them, so from the broad context, I 
think we are very supportive of the approach that they are 
taking on this. Again, nothing specific to respond to yet, but 
very supportive of the structure they have laid out.
    Senator Voinovich. It would be interesting to get from DHS 
their opinion about what the industry folks are recommending in 
terms of the legislation.
    The other issue, then, is the bureaucracy. I understand 
that the Coast Guard is responsible for the facilities or 
navigable water. What bureauacy do you suggest should monitor 
the rest of the facilities?
    Mr. Slaughter. That is correct, and we suggested DHS 
outside of the Coast Guard.
    Senator Voinovich. It appears that the Coast Guard is a 
good role model for them to follow.
    Mr. Slaughter. Right.
    Senator Voinovich. The other issue, of course, is 
Inherently Safer Technologies. The concept that reduction or 
elimination of particular chemicals or alternative approaches 
will lessen the threat. What is your opinion on I.S.T?
    Mr. Slaughter. I would say we have concerns about an IST 
requirement, Senator Voinovich, because a lot of--there are 
great incentives to go to Inherently Safer Technologies if they 
are effective and practical today. But if you get into a 
situation where it is mandated and you get into an extensive 
review process as to why didn't you do A, B, C, and D instead 
of what you are doing, this whole program may be very difficult 
to implement and be very problematic for everyone and just be a 
papermaking exercise, as the SOCMA testimony pointed out.
    Mr. Durbin. I would echo those comments. I think the 
Inherently Safer Technology is clearly something that our 
member companies, this industry really drives toward, but it 
does not lend itself to a regulatory approach.
    I believe one of the Senators in your opening statements 
talked about the dichotomy between those who just want physical 
and those who say you have to have this approach. I don't think 
it is that stark of a contrast here. If you are doing a 
meaningful vulnerability assessment that has a meaningful 
methodology behind it, that is going to point you in that 
direction toward process changes as well as other ways of 
managing risk.
    For example, the GAO report responding to Senator Byrd that 
was provided in March, they visited ten ACC member company 
facilities. Seven of those facilities noted that they made 
process changes as part of their security enhancements.
    Senator Voinovich. My time is up. Thank you.
    Chairman Collins. Senator Carper.
    Senator Carper. Thanks very much.
    I have a couple of questions. One, I find it helpful with a 
panel like this where there is a fair amount of consensus, 
before you wrap up, just to come back again and tell us where 
you think the consensus lies among the three of you. A follow-
up question is going to be, where do you disagree?
    And then I think I am going to ask you to sum it up by 
saying, again, the purpose of this hearing was what is the 
appropriate Federal role, and I am going to ask you to sum up 
again and say this is what we believe, each of you, this is 
what we believe the appropriate Federal role is.
    So if you could, Mr. Durbin----
    Mr. Durbin. Sure. At the risk of speaking for my 
colleagues----
    Senator Carper. Where is the consensus, what are the 
differences, what is the appropriate Federal role?
    Mr. Durbin. The consensus I am hearing here this morning is 
that the Federal role that is put in place needs to be a risk-
based tiered approach that will set national standards to 
ensure that everyone in the chemical sector that has been 
identified is taking the appropriate steps. But again, it needs 
to be a risk-based program that is reasonable, clear and 
measured, and provides some flexibility, and also recognizes 
the efforts that have already taken place within the industry.
    Mr. Barmasse. And I agree with that, and I would like to 
add a few things to that----
    Senator Carper. Go right ahead.
    Mr. Barmasse [continuing]. Especially for the smaller 
facilities and smaller chemical companies that may not have the 
expertise of the larger companies. I think Small Business 
assistance or compliance assistance is going to be a very 
important component of anything that is drafted, and so I 
believe that is the extent of my additional comment.
    Senator Carper. All right. Mr. Slaughter.
    Mr. Slaughter. We also would agree that it is very 
important that everything rely on a tiered, risk-based 
approach, which is what DHS apparently is talking about. I 
suspect where there may be a little bit of disagreement is 
that, I think the impression is left sometimes that industry 
has not focused on this issue and done a great deal of work. We 
have.
    I would say at the same time there are competitive issues 
here. I think we need to have a flexible program that fits 
requirements to facilities and responds to the risk and threats 
at that particular facility. If large companies can make 
certain investments but they go beyond what is necessary to 
secure facilities that may be owned by someone with less 
capital, we don't want to lose facilities in the petrochemical 
and refining business unnecessarily. So rather than force 
everyone to do what the largest companies in the world are 
doing, we need to focus, as I think the MTSA does, on what does 
a facility really need to do rather than going beyond in any 
case. If there are competitive concerns, as the Chairman 
mentioned and questioned earlier, they run both ways, and I 
think a reasonable program will take care of both elements of 
competitive concerns.
    And as I said before, we have not been advocates of Federal 
legislation. We have focused on working with our members to 
help them do everything they can do at their facilities. But 
given the position of the Committee, the position of DHS, we 
want to work with you to fashion reasonable requirements and 
look forward to working with you in that. And I agree with you, 
there is a substantial consensus at the table with just small 
differences and concerns.
    Senator Carper. Does anyone else want to mention 
differences, where you might differ?
    [No response.]
    OK. I will come back again to the issue of the appropriate 
Federal role with a specific focus on this Committee, if you 
will. Any closing thoughts?
    Mr. Durbin. Again, just to restate, the ACC believes there 
needs to be a Federal role. We believe DHS should play that 
role in coordinating the efforts of the Federal Government to 
protect this critical sector. They have worked very diligently 
with our sector. You have heard all three organizations talk 
about the good working relationship there, and I think that is 
absolutely the case.
    Allow them to take that expertise that they have built over 
at the agency and that relationship and really put together and 
build a meaningful program that will also take advantage of not 
only the existing actions of the industry itself, but the 
existing actions of various Federal agencies that we all deal 
with on a day-to-day basis, not just EPA. We are talking about 
DEA and the Department of Commerce and Department of State, 
OSHA and what have you. Those are all the things that need to 
be coordinated.
    Mr. Barmasse. I would like to add that I have a legitimate 
concern that, being in New York State, there is New York State 
security legislation drafted, and if there are vast differences 
between Federal and State legislative activities, it could 
conceivably require us to spend a lot more time, effort, and 
money to comply with two totally different types of programs, 
and we would be supportive of Federal preemptive authority over 
the State programs so you don't have to do two totally 
different things.
    Senator Carper. Any last comment, Mr. Slaughter?
    Mr. Slaughter. Well, Senator Carper, I just say that the 
real trick in doing this will be not to harm the existing 
relationship that exists with DHS and industry. Particularly 
with DHS, the information flow is very good right now. There is 
a lot of understanding and it grows all the time--between the 
industries and DHS. If they become a regulator, you don't want 
to do too much harm to that relationship. The nature of it will 
change somewhat, but you want that information flow to be 
maintained and not to set up a purely adversarial relationship.
    Senator Carper. All right. One more real quick one. There 
are many times when safety and security actions mesh together 
well. There are some instances when security priorities have 
conflicted with safety. Are you aware of any times when we have 
had a conflict between the security priorities and the safety 
priorities?
    Mr. Durbin. One example that sticks out, more on the 
transportation side, was the use of placards for hazardous 
materials as they are being transported. The question raised is 
does that make it a target, or do you need to maintain that as 
the useful tool that it is for first responders and others that 
need that information in the event of an accident?
    Our association very clearly agreed that placards should 
stay because they do play an important role for first 
responders, and the first responder community themselves said, 
until we come up with a better way of doing this, those need to 
stay on there. So that is the only kind of obvious conflict, 
but DHS clearly stepped in and resolved that, as well, and said 
they are staying on. We are not going to try to change that at 
this time.
    Senator Carper. Anybody else?
    Mr. Barmasse. The only thing I would add to that is that 
the protection of the information may be a conflict. The 
security-sensitive information and people's right to know what 
is going on at these facilities is a very important 
consideration. I think that information, it is very important 
that it is protected, kept within the chemical facilities and 
possibly with only DHS so that this information isn't publicly 
available beyond that and might pose another threat to the 
chemical facilities.
    Senator Carper. Gentlemen, thanks very much. Madam 
Chairman, thank you.
    Chairman Collins. Thank you.
    I want to give my colleagues the opportunity for one last 
question each to this panel before we go on to the second one. 
I understand from your testimony that each of you would oppose 
including in legislation a requirement involving Inherently 
Safer Technology, and Mr. Durbin, you have cited the complexity 
of the chemical processes. In addition, others have cited to me 
a fear of litigation resulting from the requirements.
    But let me ask you a broader question. Do you think that 
the Department of Homeland Security should have any authority 
to regulate chemical processes, chemical use, or chemical 
storage? Mr. Durbin.
    Mr. Durbin. I believe that with regard to chemical 
processes, use, and storage, there are existing regulations in 
place. Our companies have to perform process hazard analyses as 
part of the PSM rule at OSHA and with RMP and----
    Chairman Collins. If I could interject, just for a second. 
Those programs are not aimed at security. Those programs are 
aimed at enhancing worker safety or environmental health and 
safety. So they have a different justification. They may, in 
fact, help safety and security, but that is a different issue.
    Mr. Durbin. That is correct, but that is why it is 
important that you have a meaningful vulnerability assessment 
that would be required that would essentially point you toward 
and encourage the use of different technologies or things that 
you could put in place to change not only your process, but 
perhaps the way you distribute it and the way that your plan is 
configured. We have countless examples where our member 
companies have done just that to address security issues.
    Chairman Collins. But should the Department be able to 
require a process change if the vulnerability study indicates 
that this is an issue for a particular facility?
    Mr. Durbin. I think I could only answer that by saying we 
would have strong concerns about the agency making those types 
of decisions, as to what process should or shouldn't be used or 
what material should or shouldn't be used. I think we should 
use that authority to really drive companies toward finding 
those solutions.
    Chairman Collins. Thank you.
    Mr. Barmasse, same question for you. Should the Department 
have any authority in this area?
    Mr. Barmasse. I think the Department's expertise is going 
to be in the area of security and not chemistry, and it is 
going to be very difficult for security experts to have the 
expertise to understand how to regulate what goes on in a 
process. Chemists and scientists spend a tremendous amount of 
time trying to understand their process, and they develop these 
processes in the safest manner they can. And security experts 
would have a difficult time understanding the intricacies and 
the complexities of a chemical process and be able to make any 
meaningful suggestions or recommendations on that. So I think 
it is outside the realm of their area of expertise.
    Chairman Collins. Thank you.
    Mr. Slaughter, what about a requirement that companies have 
to consider Inherently Safer Technology, which is different 
from having the Department mandate specific chemical processes?
    Mr. Slaughter. My answer, I am sorry, is somewhat 
hackneyed, is that the devil is in the details on that one 
because--the devil is in the details because the question is, 
how is that written? What is reviewable? I mean, you can end up 
in the exact same place just with that type of requirement as 
you can actually giving them authority to mandate changes in 
processes.
    I agree that the SVA methodology and process will lead to 
information about potential problems and a dialogue with the 
regulator. But I think we would have significant concerns about 
either type of provision being included in the legislation.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. Thanks again to 
the witnesses.
    My question goes to the interaction of the chemical 
industry with local governments, and I would just ask each of 
you to respond briefly. Mr. Durbin, first, if you might, I am 
interested in knowing whether the Responsible Care Security 
Code includes a requirement to conduct drills and exercises or 
interact in any way with first responders and local 
communities.
    Mr. Durbin. Absolutely. In fact, it was one of the founding 
principles within Responsible Care, the original Care Code, 
was the community awareness and emergency response. Frankly, 
that is one of the good stories here, is that after September 
11, this is an area where we didn't have to start from scratch. 
Our member companies generally had very well established and 
good relationships with first responders in their communities. 
In fact, in many cases, you will find that the first responders 
work at our facilities. The volunteer firemen--some of our 
security directors happen to be the deputy sheriff of the 
county or the fire chief of the neighboring community. So there 
is a very robust relationship that already existed there and 
drills that have been taking place all along. So this was just 
one more way of focusing our effort.
    Senator Lieberman. Mr. Barmasse and Mr. Slaughter, do you 
believe that the chemical facilities should have a role or a 
requirement to play in ensuring that the surrounding 
communities which they might impact have a well-functioning 
local emergency planning committee, and just briefly, because 
our time is going, what is your sense of the current 
relationship generally between the chemical facilities that you 
are involved with and the local surrounding communities?
    Mr. Barmasse. I would be happy to respond to that, and I 
would like to say that it is not just large companies that do 
those types of things. It is small companies, also. We work 
very actively with local emergency planning committees. 
Previously, it was always on response to chemical accidents, 
but now, we have even worked with them and broadened the local 
law enforcement to provide security and vulnerability 
assessments from a security perspective.
    The Buffer Zone Protection Program brought in State, local, 
and county law enforcement agencies to perform buffer zone 
protection analysis. We have had drills and we have had 
meetings with our local and county emergency planning 
committees that discuss just response to terrorism activities.
    So I believe that the integration has already occurred in a 
lot of cases, and not just at the larger LEPC levels. It is 
happening with smaller companies and at the smaller level.
    Senator Lieberman. Good. Mr. Slaughter.
    Mr. Slaughter. I would agree that is the case with large to 
small companies across our membership in both industries, 
Senator, and I would also say that the State and local law 
enforcement personnel plus also first responders have been 
active participants in all the exercises that we have been 
doing for several years with Federal and State agencies on 
terrorist-related events.
    Senator Lieberman. I thank the three of you.
     I think, Madam Chairman, that the testimony of this panel 
has been significant. I, at least, have not heard up until 
today this kind of clarity of statement that, while some 
progress has been made voluntarily and in other ways, that the 
status quo with regard to chemical security of facilities in 
America today is no longer acceptable, that there is a larger 
necessary and appropriate Federal role.
    Now, obviously the question is, what is that role, and 
there are going to be a lot of disagreements about that. But 
most encouraging from your testimony today, I think we are all 
at the same table. The Administration is. Obviously, we are. 
And I presume that the representatives of the stakeholders on 
the next panel are. Under your leadership, Madam Chairman, I am 
more encouraged after hearing this panel that we are going to 
get something done in this critical area in this session of 
Congress. Thank you.
    Chairman Collins. Thank you. I, too, want to thank this 
panel for excellent and very constructive testimony. We look 
forward to continuing to work closely with you. Thank you.
    I would now like to call up our second panel of witnesses 
today. Our first witness on the second panel is Dr. Gerald 
Poje. Dr. Poje is a toxicologist by training and has years of 
experience dealing with safety issues in the chemical industry. 
Dr. Poje recently completed his second term on the U.S. 
Chemical Safety and Hazard Investigation Board, where he earned 
the distinction of the longest-serving member of that Board. He 
currently is serving on the National Academies of Science 
Expert Committee assessing the vulnerabilities of the Nation's 
chemical infrastructure.
    Our second witness on this panel will be Glenn Erwin, the 
Project Director of the Triangle of Prevention, or TOP Program, 
and the Catastrophic Accident Investigator for the United 
Steelworkers. Mr. Erwin has more than 30 years of experience in 
the petrochemical industry and in particular with health and 
safety issues. The Steelworkers Union recently merged with 
PACE, the largest chemical workers' union in the United States, 
and we welcome you, as well.
    And finally, we will hear from Carol Andress, who is an 
Economic Development Specialist for the environmental 
organization known as Environmental Defense. She has led 
Environmental Defense's work to foster pollution prevention and 
improve the public's awareness of chemicals in the environment, 
and we thank you for coming today, as well.
    We are going to start with Dr. Poje.

  TESTIMONY OF GERALD V. POJE, PH.D.,\1\ FORMER BOARD MEMBER, 
      U.S. CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD

    Dr. Poje. Thank you, Madam Chairman and Senator Lieberman, 
for the opportunity to testify before this Committee on 
strengthening the chemical sector's security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Poje appears in the Appendix on 
page 130.
---------------------------------------------------------------------------
    With its history of catastrophic releases, the chemical 
sector has had too many unintentional incidents of public 
terror to leave unregulated the potential for intentional 
terror. As last Thursday's events in London and yesterday's 
blast at a Spanish power station tell us, terrorism, maybe home 
grown, is becoming an all too frightening global specter.
    My written testimony focuses on a number of issues. 
However, my oral testimony today, I hope, will convey my 
passion and urgency for preventing these chemical disasters.
    While America's worst chemical disaster occurred in Texas 
City in 1947, my wake-up call came more than 20 years ago when 
I was a young toxicology professor. I vividly remember the 
world's worst chemical disaster. It began as a violent runaway 
reaction within a methyl isocyanate (MIC) storage tank in 
December 1984 at the Union Carbide pesticide plant in Bhopal, 
India. After about 1,500 pounds of water entered an MIC tank, 
possibly caused by a routine line washing procedure, an 
exothermic reaction ensued. Excessively heated and pressurized 
gases burst through a rupture disk and opened a pressure relief 
valve, allowing approximately 50,000 pounds of MIC and 
reactants to be released through an elevated scrubber vent 
system.
    The cooling gas formed a dense, low-lying cloud in that 
early morning and slowly and quietly drifted through the 
adjacent housing and much of the central city. MIC is highly 
reactive, irritating, and a toxic gas that is soluble in the 
aqueous fluid membranes around eyes and lungs. Victims awoke 
gasping for painful breaths and stumbled bleary-eyed into the 
streets with no indication of which direction to seek relief. 
Immediate fatalities were estimated at 3,000, with an 
accumulation of almost 20,000 disaster-related deaths in 
subsequent years. Injuries estimates range from 200,000 to 
500,000. Casualties overwhelmed the city's four hospitals and 
several clinics that supplied only a total of 1,800 hospital 
beds and 300 doctors. Now, how many American communities could 
triage such an event?
    What made Union Carbide such a tool of mass destruction in 
Bhopal? Well, I think the root causes lie in the systemic 
problems at the facility and within the community.
    Lack of awareness and knowledge of the hazards--MIC was 
produced and utilized as a high-volume intermediate chemical, 
and yet its hazards under specific process conditions were not 
well understood by the workers, or the management, or the 
emergency responders.
    Deficient hazard assessments--the hazards associated with 
contamination of the MIC in the storage tanks and their 
operations under high temperatures and pressures were poorly 
assessed and, therefore, abnormal situations were not managed.
    Inadequate operating procedures--procedures were just 
insufficient, poorly written, understood, and executed.
    Insufficient staffing and preparedness for the abnormal 
situation--managing staff at that facility were relatively new, 
unfamiliar with its processes. Employee responsibilities were 
not clearly established. Staffing had been downsized and staff 
turnover was high.
    Failure to maintain the essential design and safety 
equipment--major changes had occurred without them being 
assessed for their safety impact. A refrigeration unit was shut 
down and the refrigeration material drained. The flare tower 
had been shut off for maintenance and was inoperable. The 
scrubber system, which had the ability to detoxify smaller 
amounts of MIC, also was turned off at the time of the event.
    Inadequate investigations and failure to implement audit 
recommendations--prior deadly incidents that caused fatalities, 
injuries, and evacuations and smaller releases at the facility 
were not fully investigated and their root and contributing 
causes not established.
    The equipment mechanical integrity was not maintained. 
Valves, pipes, and other pieces of equipment were corroded and 
leaking and unable to contain the material.
    And there was inadequate emergency planning and response. 
The community was not even alerted to the disaster that was 
impending in their midst.
    And there was lack of public oversight and authority. The 
government of India did not have rules, regulations, and 
authorities to conduct the appropriate management of such 
facilities.
    You might think that this incident was long ago and far 
away and off topic. However, the CSB observed every one of 
these deficiencies in our investigations during my tenure, and 
who among us could not imagine a terrorist scenario being 
successful at such an operation and location? In fact, a 
consultant to the company speculated that the real cause was 
sabotage.
    Let us look at a tale of two countries. While most 
Americans remember the events of September 11, few recall the 
major chemical catastrophe that occurred just 10 days later. On 
September 21, a huge explosion tore through the AZF fertilizer 
factory in Toulouse, France. Nearly 400 tons of ammonium 
nitrate detonated with a force equivalent to 3.4 on the Richter 
scale. AZF is owned by Atofina, the chemicals unit of 
TotalFinaElf, one of the world's largest petrochemical and 
petroleum producers.
    The blast created a crater 50 meters in diameter and 10 
meters deep. Windows shattered in buildings throughout the 
city's center three kilometers away. Thirty people were killed, 
10,000 injured, and a further 14,000 sought treatment for acute 
post-traumatic stress. Over 500 homes were rendered 
uninhabitable and 27,000 others were damaged. Alarm systems 
failed, telephone lines were severed, frustrating public 
communications of safety messages. Nearby businesses collapsed 
and others had long-term business interruptions.
    Thousands of tons of liquified ammonium, ammonium nitrate, 
and solid fertilizers and other chemicals at nearby businesses 
prompted additional concerns about possible domino effects. 
Because so many windows and building structures were damaged, 
sheltering in place would have been impossible if toxic 
chemicals were released.
    The event greatly exceeded the consequences of the 
scenarios that have been used for planning emergency response. 
More than 1,500 firemen, special emergency personnel, and 950 
policemen responded to the event, yet the early responders 
arrived on scene lacking exposure assessment equipment and 
personal protective equipment to cope with the toxic cloud.
    The facility had been inspected several times in 3 years by 
local authorities, but not for the inadequacies of the ammonium 
nitrate fertilizer management in a warehouse of that facility, 
a warehouse mostly operated by the subcontracting workers and 
not by the management itself.
    The Toulouse disaster, as many others have, and you already 
know, prompted nationwide debate about acceptable risks in 
communities. The French legislature extensively reviewed 
policies and practices and new legislation has focused on 
strengthening safety management systems of technological risk, 
including enhanced worker training and roles in risk 
prevention, improved safety management coordination and roles 
for contract workers, expanded public information about the 
risks and involvement in prevention, and better land use 
planning and siting around these high-risk facilities.
    Now, with 20/20 hindsight, could we imagine what would have 
happened if that event occurred in the United States on 
September 21, 2001? The same corporation had a facility in 
Michigan that just 2 months earlier had sent 2,000 people into 
an evacuation mode and killed three in using a chemical called 
methyl mercaptan.
    If there is a silver lining in this cloud of terrorism, it 
is, I believe, the urgent motivation to reign in the risks 
posed by the chemical sector. I urge the Committee to see the 
development and maintenance of competent management systems for 
safety as essential underpinnings to enhanced security. These 
have to go together. We need to have U.S. policies that will 
force the marriage between these two domains such that we are 
not Balkanizing security into a Homeland Security Department 
that is completely ignorant of all of the essential security 
features that have to be part of a security paradigm.
    I give you five--or six recommendations to consider. One, 
ensure that whoever has responsibility monitors the scope of 
the chemical sector problem. We know that we have 9,000 
incidents occurring annually in just 15 States in this country. 
We don't have a nationwide surveillance system to tell us how 
many chemical events are occurring in America.
    I ask that you also establish a Department of Homeland 
Security responsibility that promotes effective coordination 
with other agencies. If these agencies are only on bended knee 
to Homeland Security about security issues and there is no 
interdigitation of security's work with these other agencies 
functions, we will lose a golden opportunity for strengthening 
our whole system of safety and security.
    Set requirements for a security management system. We heard 
on the previous panel the importance of the words ``management 
systems.'' I believe that those are the critical underpinnings 
for us being able to have a much more effective approach. One 
where effectiveness is observed, in my particular unique safety 
portion of the world, by looking at exceptions. Yes, I know 
about good coordination between agencies. I know about good 
work of trade associations. But I have had to look at the 
safety exceptions, when good practice and oversight don't work. 
We have to make more abundant use of such features of the 
safety landscape of the chemical sector and force the study of 
the exceptions, the exceptions that are causing evacuations and 
injuries in communities right now and are showing us where 
those relationships aren't working. I think we have to keep a 
high focus on that.
    I also believe that the ultimate solutions for security and 
safety will be found in reducing the volumes and the toxicity 
of the hazardous chemicals. We need to have a better way of 
making an attack on that problem.
    And finally, we need to employ effective training 
approaches. An absolute critical step to improving security at 
the chemical plants is going to be to properly train the 
workers who respond to the disruptions. We have some good 
models, and I think they need to be built upon for enhancing 
security.
    Thank you for this opportunity to testify, and I would be 
happy to answer any questions.
    Chairman Collins. Thank you. Your testimony is a powerful 
reminder of why we are committed to passing legislation.
    Mr. Erwin.

  TESTIMONY OF GLENN ERWIN,\1\ PROJECT DIRECTOR, TRIANGLE OF 
  PREVENTION PROGRAM, UNITED STEELWORKERS INTERNATIONAL UNION

    Mr. Erwin. I would like to thank you, Chairman Collins and 
Senator Lieberman and the rest of the Committee. I would also 
like to thank the staff. Too often, the ones that do the work 
never get the recognition, so I would like to thank the staff.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Erwin with an attachment appears 
in the Appendix on page 144.
---------------------------------------------------------------------------
    As Dr. Poje said in his remarks, he said he wanted to share 
with you his passion for this concept here. He reminded me of 
an 86-year-old cowboy friend I have in Texas that always said, 
``Whatever you do, you do with all your heart, mind, and 
soul.'' So I guess you have my mind in the written agenda that 
I gave you, or the written comments. Like Dr. Poje, I would 
like to share my heart and soul. I promise you I won't sing. I 
am not Aretha Franklin. [Laughter.]
    But I would like to talk about some things that are very 
near and dear to me. Just as recently as March 23, 2005, I lost 
a very good friend in an explosion in Texas City, one of the 
most wonderful, Godly men I had ever met. As a matter of fact, 
the last Christmas that I saw him, he was gathering up a pickup 
load of toys to take to the Texas State Penitentiary in 
Huntsville, Texas, to make sure that none of the children there 
had a Christmas without toys. He was killed in that explosion. 
Now, I know we are here to talk about intentional acts of 
sabotage, but whether it is an intentional act or an accidental 
act, his life was cut short and our community has really lost a 
wonderful person.
    Now, I believe that we, in the oil and petrochemical 
industry, oil refineries and chemical, I believe that we will 
be a target. It is not ``if'' but ``when.'' I am certain it is 
going to happen. I think one of the reasons for it is we are 
too easy, very easy to gain access.
    We did a survey.\2\ We have distributed that. We have also 
submitted that for your review. But only 3 percent of our 
people think that we have done an excellent job in preparing to 
prevent an intentional act of sabotage. So, we are too easy.
---------------------------------------------------------------------------
    \2\ The survey entitled ``PACE International Union Survey: 
Workplace Incident Prevention and Response Since 9/11'', October 2004, 
by Paper, Allied-Industrial, Chemical and Energy Workers International 
Union (PACE) appears in the Appendix on page 150.
---------------------------------------------------------------------------
    There is such a large vulnerability. There is such a 
potential on what they can do if they get access into certain 
chemical plants, and our industry is just too important. If we 
disrupt the flow of energy, the flow of gasoline, the flow of 
chemicals, as everybody said before, we are going to really 
impact our country.
    Now, I want you to think layers of protection, and that is 
what we need to do, is we need to look at protection, some way 
to protect from this worst possible thing happening. And I 
guess I would ask you to visualize, I couldn't think of 
anything better, but maybe an onion. Let us make it a 10-15 
layered onion that was developed by Texas A&M---- [Laughter.]
    It goes great with barbecue and will give you something to 
pick on Senator Hutchison about, about somebody talking about 
onions from her State.
    But anyway, I want you to visualize an onion and just kind 
of take the outer skin of it. The outer skin of it, the first 
layer is our security. It is the fence line. It is to keep the 
unauthorized people from being there, the gates to control the 
flow of who goes in and out in normal admission, and also to 
train and equip our guards. That is our first layer. That is 
the one that we need first to put in place, but it is not there 
yet.
    I just stood at the front gate of a major multi-national 
oil company the other day right at lunch time, and I watched 
the flow through the front gate of one car going in after 
another, and I watched a pickup truck, and I will use this one 
for an example. There were two people in it, and they drove up 
to the gate, and they showed their badge, and they went right 
on through. Well, sitting in the back of that truck was five or 
six buckets, closed-top five-gallon containers, and I looked at 
the guy that was next to me, and I said, ``What is in the 
buckets?'' And he said, ``I don't have any idea.'' And I said, 
``Well, does the guard?'' And he said, ``No.'' I said, ``Why 
won't he check them?'' He said, if he did, nobody would get 
back from lunch, and he would be in trouble for holding up the 
flow of traffic.
    So I think that we are vulnerable there. I don't think we 
have control of our main gates yet. So that is the first layer.
    The second layer of security is inside the plant. Once you 
are inside the plant, there are different areas. But our 
security is set up for perimeter. Our security is not set up 
for everything within it. We treat a kerosene tank, the 
accessibility to a kerosene tank, the same as we do to a 
hydrofluoric acid tank. In fact, the same plant, as we drove 
by, and we drove on a road, not 100 feet, maybe 150 feet from a 
hydrofluoric tank that contained probably 800,000 pounds of 
hydrofluoric acid.
    That didn't bother me as much as to see 50 or 100 people 
with a flurry of activity going on around that. And I said, 
``Is that tank empty?'' And he said, ``Oh, no, that tank is 
full.'' They had heavy equipment operating within 20 to 25 feet 
of a line, the suction line to that tank. Now, had they have 
hit that, whether intentionally or unintentionally, knocked 
that suction line loose from that tank, I asked our guide, I 
said, what would have been the effect, and he said it would 
have been catastrophic. And I said, ``Well, how bad?'' I said, 
``Thousands?'' And he said, ``More like 10,000, maybe 100,000 
if the wind direction is right,'' if that happened.
    So that is the second layer. There needs to be added 
precaution once inside and not treat everything just the same.
    Let us peel another layer. Let us go now to substitution, 
and we have talked--they have used some fancy words for it. I 
am not going to use that, but let us get rid of some hazards.
    Just like the HF tank, it is used for an alkylation process 
that you can also use sulfuric acid for. Now, why does one 
company use one method that doesn't have the potential and 
another company use the other one? I can't answer that. There 
are lots of other examples of how we can eliminate, how we can 
substitute, how we can change. I guess economics is one reason, 
but if you start looking at the human toll if something 
happened to a sulfuric tank versus a hydrofluoric tank, there 
would be a tremendous incentive to try to move to the others.
    Now, some companies may not want to hear that I feel, and 
our institution feels, that there should be some mandatory look 
at what you handle. Whether you use the HF, sulfuric, chlorine, 
or bleach, I think somebody has to do it, and it is not just 
economics. It should be based on the vulnerability.
    Now, you may not get that law passed, but I will tell you 
the second best thing. Pass a law where the plant manager or 
the CEO has to live in that plant, and I will tell you what, 
they would look at it just a little different. You know what 
the dirty little underbelly is? It is that most of the people 
that manage our facilities don't even live in the same town. 
They move further away.
    Let us peel another layer--reduction. Reduce the hazard. 
Look, there are things that we can do, and it has got to be 
mandatory to look at trying to reduce the hazard. My old cowboy 
friend would say, if you are going to raise cattle, you have to 
have a bull, but he doesn't have to have horns. Look at doing 
something to try to reduce the hazard in the materials that we 
work with.
    We can store it in smaller amounts. They say you have to 
truck more in that way. If you use 1,000 pounds a year, I don't 
care if you store 100,000, that is what you have to use to get 
in and out. I don't see the math. So I think we need to look at 
trying to reduce it.
    Let me peel another layer. Next is to minimize what we have 
other than just the amount in a tank. We had an 800,000-gallon, 
or pound tank of hydrofluoric acid. Wouldn't it be less 
hazardous to have four 200,000 if you have to do it? There are 
just some things like that that make common sense to me that I 
understand why we don't do it, the things that we have to look 
at.
    Now, I want to emphasize that there are a couple hazards in 
the plant we have to look at. One of them is explosives. The 
other one is toxics. Nine-eleven was explosives, but Bhopal was 
toxic.
    Now, I have a friend that drives a truck, and he drives a 
hydrofluoric acid truck--methyl mercaptan. He drives a methyl 
mercaptan truck. And I was talking to him and I said, ``well, 
what would happen--what are you doing to prevent somebody from 
using your truck as a weapon of mass destruction? What is to 
prevent somebody from hijacking it?'' He said, ``Well, I have a 
Global Positioner Satellite on top of my truck.'' And I said, 
``Have you got one on the tank?'' He said, ``No.'' And I said, 
``Well, all they have to do is just to waylay you and take the 
tank, isn't it?''
    Let me visualize, can you imagine what a tank of methyl 
mercaptan could do if they drove it into the right area and 
somebody knocked the belly cap off that thing and just released 
all the contents of that highly-toxic material at the right 
place, at the right time? It would be devastating. We need to 
put the positioning satellites on the trailer, not just the 
truck. We need to see where the actual shipment is going.
    Now, look, I lost a friend, I said, to that explosion. I 
have had other people that have been hurt in fires. I have 
walked into Ben Taub Hospital and walked into the burns 
institute. There were four people in there and I was trying to 
find my friend, and I couldn't tell the four people apart. I 
couldn't even identify him. His own mother didn't even know 
which one he was.
    The incidental act and the intentional act still have the 
same effect, but if we can prevent the intentional and really 
prepare ourselves to prevent for those along at the same time 
that we are looking for the intentional acts, I think we are 
going to gain so much more.
    Let me give you a personal example. I am running out of 
time, but I will tell you what--on Halloween night, 1987, it 
was Friday night in Texas. We had a football game. And on 
Friday night in Texas, what is the most important thing that 
goes on? I have two kids, a 17- and 15-year-old that were 
already down at the stadium, and I was preparing to go, and as 
I was sitting there, I came across the eyewitness news that we 
had a leak in town, shelter in place, stay off your phones and 
behave yourself. Don't get out of the house. There I sat, with 
two kids at the football field. They told over the TV where the 
spill was occurring. It was occurring at a Marathon facility. 
Well, I could just draw a beeline from my house to there and 
right in the middle of it was where that stadium was.
    I know what it would be like if the leak that occurred was 
a contractor dropped and hit the vapor line of that tank. Now, 
had he hit the liquid line of that tank, it would have killed 
both my kids. Both of them were exposed, but it was minor 
because the vapors were coming up, not the liquid being left 
off.
    Look, the hazards are out there, the potential in our 
communities. We have to do some things. We have to look at 
layer protection. We have to work together. We have done our 
survey. We said there is more that can be done. Our members say 
that there is more that can be done. It is not just me sitting 
here. It is 125 sites that were surveyed. It says we are not 
ready enough. They are not involving the people. We have not 
involved the actual workers to the extent that we can.
    Now, we support legislation. I am out of time and I am 
going to shut this off, but we support it. It is in my written 
comments. We can do better. I think we can do better. And I 
appreciate your effort for convening this and attempting to try 
to make our workplaces and our communities safer. Thank you.
    Chairman Collins. Thank you very much. Ms. Andress.

    TESTIMONY OF CAROL L. ANDRESS,\1\ ECONOMIC DEVELOPMENT 
               SPECIALIST, ENVIRONMENTAL DEFENSE

    Ms. Andress. Good morning, and thank you for the 
opportunity to testify today. I represent Environmental 
Defense, a national environmental group where I work on 
pollution prevention issues. I will summarize my written 
statement, but I ask that my full statement and the attachments 
be entered into the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Andress with attachments appears 
in the Appendix on page 209.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Ms. Andress. On the issue of chemical security, I want to 
describe an example that I believe is illustrative of the 
challenges and the opportunities before you. It is about an 
actual chemical plant in Baltimore, Maryland, that was subject 
to three separate but overlapping security programs. It was 
covered by ACC's Responsible Care Security Code, and, in fact, 
the facility had already passed the company's mandatory third-
party verification process. The facility was also covered by 
the Maritime Transportation Security Act because it is located 
on a navigable waterway. The Coast Guard approved the security 
plan that the facility developed under ACC's voluntary program. 
The facility is also covered by a Baltimore ordinance on 
mandatory security plans. Despite these requirements, a 
reporter was able to enter the facility, enter an unguarded 
gate, reach two fully loaded chlorine tank cars, and then leave 
without ever being challenged.
    This is not an isolated example. Investigative reporters 
have documented lacks and inadequate security at many 
facilities storing and using extremely dangerous substances. An 
enterprising reporter, or more troubling, a determined 
terrorist could likely gain access to most if not all of the 
several thousand facilities that use or store large quantities 
of dangerous substances. This includes about 2,800 facilities, 
all of which have 10,000 people or more living within a 
projected danger zone. These very high-risk facilities are 
located in almost every State.
    So the problem is significant, pervasive, and yet 
unaddressed. This is why your commitment to a strong chemical 
security program is so important.
    I want to return to the example of the plant in Baltimore. 
What lessons can we learn from this? First and most importantly 
is that a sole reliance on a strategy of guards, gates, and 
guns is simply inadequate and bound to fail. Physical security 
alone cannot prevent a determined terrorist.
    Second, current security programs which, frankly, are 
largely voluntary, are not effective. This suggests that the 
accountability mechanisms in the existing laws are not enough.
    So what should we do? The most effective and economical way 
to achieve security is to design the products and processes 
that reduce the use of these extremely dangerous chemicals. 
Reducing the source of the problem, the chemicals and 
processes, makes a facility less attractive as a terrorist 
target. It cuts the needs and costs of security measures. And 
it minimizes the likelihood of a major chemical accident. This 
is classic pollution prevention. But more importantly, this is 
how you get real, lasting, cost-effective security.
    My written statement provides examples of some high-hazard 
industries that have eliminated or significantly reduced their 
vulnerabilities to terrorist attack. This includes refineries, 
power plants, sewage treatment, and water treatment facilities.
    The challenge then is not how many guards, gates, and guns 
are needed but how to foster more widespread risk reduction. 
Several State laws and one local law provide a road map for how 
to achieve that risk reduction. These include New Jersey's 
Toxic Catastrophe Prevention Act, Massachusetts's Toxic Use 
Reduction Act, California's Accidental Release Prevention Act, 
and Contra Costa County's Industrial Safety Ordinance. These 
laws are aimed at spurring facilities to cut their use of 
certain toxic chemicals and the results are impressive.
    At the start of New Jersey's program, 575 facilities 
reported having chlorine tanks on site. Now that number is 26. 
Contra Costa County, California, experienced a 36 percent 
reduction in acutely hazardous substances between 1990 and 
1994.
    Lessons from these programs suggest three key principles 
for a Federal chemical security program. First, Congress should 
mandate the most effective, most efficient, and safest option. 
This means establishing requirements that all facilities 
conduct a thorough evaluation of ways to switch to safer 
chemicals or processes, reduce the amount of dangerous 
chemicals used, or reduce the amount stored onsite. When those 
options are practicable, the facility should be required to 
implement them. High-risk facilities, especially, should be 
expected to make significant investments in reducing the 
quantity and nature of the hazardous chemicals onsite.
    I realize not every facility will be able to eliminate or 
significantly reduce the hazards. When a facility finds that 
there is no safer option that is technologically feasible, or 
where the alternatives are prohibitively expensive, 
particularly when compared to the potential damages, or when 
the available alternatives would create an equal or greater 
hazard to public health or the environment, then they should 
provide a justification for why an alternative approach is not 
practicable.
    Safety cannot be voluntary. The issue is too important and 
the market mechanisms are simply inadequate. Facilities that 
are facing daily questions about operational efficiency and 
financial performance have little interest in dealing with 
catastrophic hazards that seem remote. For that reason, 
Congress needs to mandate that a reasonable process be put in 
place for getting safer approaches in place. The complexity of 
the industry should not be an obstacle to action.
    A second key principle is accountability. I trust that most 
facilities will make a good faith effort to implement safer 
approaches. However, this is far too important to rely solely 
on good intentions. Facility owners and operators must be 
accountable to Federal authorities and the public for reducing 
hazards. I believe accountability measures should include 
government oversight and intervention, especially when 
facilities do not perform; public disclosure of the reasons why 
they were unable to implement alternative approaches; and 
linking public funding with safer operations.
    This is especially applicable at sewage and water treatment 
plants that receive substantial public money and yet continue 
to use chlorine gas in populated areas. It frankly makes no 
sense to me to have taxpayer money going to basically pre-
position a deadly and unnecessary chemical in a populated area 
and then spend Homeland Security money to try to protect the 
chemical. Taxpayer money should not be spent at facilities that 
pose an unnecessary risk to the American public.
    The third principle is that Federal legislation should 
avoid creating loopholes for voluntary programs. We commend 
ACC's, SOCMA's, and MPRA's early efforts to protect their 
facilities. But as we have seen with many news reports, 
voluntary programs alone are wholly inadequate. Creating 
special conditions for facilities that participate in these 
voluntary programs will undermine your efforts to safeguard 
facilities. Allowing facilities to follow their own standards 
has not been deemed acceptable for airports or nuclear plants 
and should not be acceptable for chemical plants.
    We agree that companies should not have to reinvent work 
done previously. Congress should allow them to submit prior 
documents with supplements, as needed. For example, 
vulnerability assessments done by drinking water facilities 
under the Bioterrorism Act should be considered as part of 
meeting their obligations under a chemical security program.
    However, it is particularly important that work done as 
part of a voluntary industry program be strictly scrutinized. 
It is one thing to recognize the security efforts performed 
under Federal statutes. However, it is completely unacceptable 
to rubber stamp voluntary measures that have not been evaluated 
or enforced by a Federal agency.
    My written statement elaborates on some additional issues 
to include in chemical security legislation, including 
requiring buffer zones and simulating community evacuation 
drills with the community and coordinated by local emergency 
responders.
    Efforts to protect Americans from terrorist attacks are 
often costly and complicated. Instances when protection of the 
public can be achieved in a cost-effective manner should be 
aggressively pursued. That some of these options have side 
benefits, such as eliminating the potential for chemical 
accidents, makes them all the more appealing, and I do not 
consider these to be extraneous issues. Safety and security 
cannot be separated.
    Congress should insist that facilities take all reasonable 
steps to reduce risks of catastrophic chemical release. Thank 
you.
    Chairman Collins. Thank you for your testimony.
    Each of you has argued for mandating a reduction in the use 
of dangerous chemicals or the substitution of less-hazardous 
chemicals wherever possible. But if we draft legislation so 
that it is truly risk-based, so that the level of regulation is 
ratcheted up depending on the hazards at a particular facility, 
wouldn't the companies have an inherent incentive to use less-
dangerous chemicals or smaller amounts of hazardous chemicals 
in order to get into a lower-risk category with fewer 
regulations imposed upon them? Dr. Poje.
    Dr. Poje. Actually, Senator, that is a very good point. The 
earlier mentioning of the Toxic Catastrophe Prevention Act in 
New Jersey, I think, has given us quite a few examples to look 
at for how a regulatory regimen over time has caused the 
mobilization of the industry to change its pattern and practice 
of the use of chemicals.
    A certain portion of chlorine-using facilities, 
particularly in the water and wastewater treatment arena, have 
migrated out of chlorine gas usage for biocidal treatment, and 
that has come in part because of a higher degree of oversight 
and a ranking of high hazardness for that particular chemical 
in that regulatory regimen.
    Now, to be fair to the previous panel, there is enormous 
complexity in the diversity of processes being used throughout 
the chemical producing and using sector. However, I think it is 
abundantly clear to me that there are some processes whose 
moment has come for inherently safer approaches and we need to 
be able to challenge the usage of those chemicals in ways that 
embrace clear alternatives available. I think Ms. Andress has 
given us a pretty clear example with chlorine in the water-
treatment industry.
    Do we taxpayers want to pay both for the development of a 
wastewater treatment facility using the most highly hazardous 
form of biocidal treatment and then a second payment for using 
Homeland Security protection measures to be imposed over that? 
I think that is just foolish, and we clearly don't have the 
resources to perpetuate such a poorly thought out system.
    Chairman Collins. Mr. Erwin, wouldn't there be an inherent 
incentive for companies to change to less-hazardous processes 
if we draft the legislation so there is a different level of 
regulation depending on the risks involved?
    Mr. Erwin. That might be very true. The more hazardous it 
is, the larger the problem. It is a very complex issue. There 
are some things that are hazardous they can't get rid of. And a 
lot of the companies have done a lot of work, and I don't want 
to sound like they haven't because they have done a lot of work 
to try to substitute, when they can reduce. But not everybody 
has.
    There are some forward-thinking companies. There are some 
companies that are very responsible. And then there are some 
that are not. There are some that keep the books right and some 
that don't. We know that for a fact, too, and it is the same 
thing here. But you are right. That may be true.
    Chairman Collins. Ms. Andress.
    Ms. Andress. Well, I think implicit in that kind of risk-
tiering approach is that safer approaches are, frankly, the 
best option. And so from that standpoint, I find that 
appealing. I think, however, I am concerned that it would 
leave--it potentially leaves some fairly high-risk facilities 
to simply adopt a physical security approach and that, I don't 
think, is enough, to just rely on physical security.
    Chairman Collins. Dr. Poje.
    Dr. Poje. If I could just make one additional comment on 
that. My experience for 7 years has been to look at safety 
tragedies in the chemical sector, so I have a very myopic view 
of seeing where failures occur. Having said that, though, I 
also see that is the place where Phoenix-like, we can rise up 
out of the ashes to do a much better job.
    Bhopal changed policies in the United States to be more 
aggressive. There was a chemical facility in the State of Texas 
right after the terrible Bhopal tragedy in India, a DuPont 
facility, that within an 8-month period switched dramatically 
out of methyl isocyanate usage. It actually had plans already 
developed. Now, the acceleration of the implementation of those 
plans took the terrible Bhopal tragedy to make it happen.
    The Chemical Safety Board under my tenure conducted 33 
investigations. Only less than 10 percent of those 
investigations involved chemical processes covered under the 
RMP system. Now, in one way of thinking, RMP is an appropriate 
approach for risk ranking systems, the conceptual basis of what 
is worst, highest toxicity, highest amounts. Those are all very 
rational designs that we have to employ.
    But there is one other piece of the equation to consider. 
What happens when failure tells us there are other management 
processes that are having terrible problems. In fact, every one 
of those 9,000 incidents that I mentioned occurring in those 15 
States is an enormous red flag to everybody--a red flag to 
those who want to do harm that we have management problems here 
and harm can be had in this fashion. If we don't embed the 
responsibility within DHS to have to hold them up for an 
example and examine them in a detailed way, we are going to 
lose the advantage of those disasters to strengthen the whole 
of the system of safety and security.
    And I would argue if there is a pattern within these safety 
incidents that identifies particular chemicals and processes 
having the most frequent problems, we had better figure out 
solutions for them quickly. And, there should be governmental 
resources, if there isn't private sector resources, to help 
make that happen.
    Chairman Collins. Mr. Erwin, before I turn to Senator 
Lautenberg, I am very interested in the results of the study 
that you were involved with. It prompts in my mind a question 
about whether the Department of Homeland Security involves the 
workers, goes to the head of the local union if there is one, 
when it does an assessment of the security of a chemical plant. 
Do you happen to know? DHS has pointed to these site visits 
that it has undertaken. Do you happen to know whether workers, 
union representatives, are interviewed by DHS officials when 
they do these site visits?
    Mr. Erwin. We are not party to when they come in like we 
are when OSHA comes in or when the CSB comes in, and we are not 
included in the conversations, to my knowledge. I don't know of 
any union leaders or employee representatives that have been 
included in this area. I think it is nonexistent.
    Chairman Collins. That is very helpful and something I will 
follow up with the Department on, because I think, judging from 
your testimony and experience, that they could learn a lot from 
talking to the employees of these facilities.
    Let me ask just one other related question. Has the 
Steelworkers Union or PACE shared its survey with the 
Department of Homeland Security, do you know?
    Mr. Erwin. Well, we have copies here. I would be glad to 
give them a copy. But what we did when we prepared the report, 
we shared this with the governmental agency that we were 
working with, the National Institute of Environmental Health 
Scientists. Now, it is our understanding that they have shared 
that in the report with other agencies with whom they are 
working, and I guess they work with DHS, too.
    Chairman Collins. Thank you. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman. Thank you 
all for your testimony. I am sorry that I wasn't here, Madam 
Chairman, when the first panel was still up because I was 
struck by some things that were said, and one of them related 
to Mr. Barmasse's testimony about IST.
    You talked, Ms. Andress, about how much use has been 
reduced of chlorine, and we know that here in this district, 
the wastewater treatment had enormous reductions in threat as a 
result of transfer from chlorine to another material that 
appeared to be substantially safer. I don't like to ask 
questions that Mr. Barmasse could have answered, but I am 
compelled by the structure to ask you.
    I think in Mr. Barmasse's testimony for SOCMA, he made the 
point that Inherently Safer Technology is probably the most 
misunderstood and controversial aspect of chemical site 
security. While it seems self-explanatory, the term as used in 
chemical and engineering may be misleading to non-scientists. 
It is an approach to chemical processing that considers 
procedures, equipment, and the use of hazardous substances.
    Don't we have data that refutes the fact that IST can be 
seriously employed with a lot less expense or risk than the 
other massive changes that have to be made? Are we out of 
reliable changes of one material for another that can make us 
safer?
    Ms. Andress. I am not sure I understand the question.
    Senator Lautenberg. Well, the question is whether or not we 
have exhausted the opportunity to make substitutions of 
materials. Dr. Poje may want to say something about that. Have 
we run the gamut on substitutable materials?
    Ms. Andress. Well, you are correct in that we have--there 
is quite a bit of knowledge and expertise out there, and, in 
fact, there is quite a bit of knowledge about these issues at 
the various State institutions in New Jersey, Massachusetts, 
and elsewhere. So there probably--I don't think we have 
exhausted it. I think there is still ground to be tilled. I 
think from my standpoint, the most important point is that we 
haven't exhausted the adoption of the safer chemicals. There 
still are several wastewater treatment plants using chlorine 
gas in heavily urban areas. That is simply outrageous.
    Senator Lautenberg. Would that transfer be relatively 
transparent with regard to costs? Dr. Poje, do you have any 
knowledge about this?
    Dr. Poje. Yes. I think as I said earlier and I think as the 
first panel reflected, there is a great complexity to certain 
aspects of the chemical industry. But we have already heard 
from two panelists here about the use of hydrofluoric acid in 
alkylation within the oil refining industry for which there are 
two alternatives. One, hydrofluoric acid, has a much higher 
risk than the other sulfuric acid. In the chlorination and 
alternative biocidal treatment of water and wastewater, there 
are also clear examples.
    In other chemical process areas, it takes specific research 
and analysis to make processes inherently safer. Now, within 
the chemical industry, there are some that are leaders in doing 
this R&D work, and it gives them the competitive advantage of 
new materials. In fact, the greatness of our chemical industry 
comes in large measure by very innovative chemistry and R&D to 
help get a competitive advantage in the global market over 
those who are producing things in a less efficient way.
    The term that has grown of art recently is green chemistry. 
That is the most vibrant aspect of the chemical industry's 
development and the chemical sciences development. How do we 
optimize across 12 different principles for making a better 
chemical science that will be of advantage to us for our lives 
and lifestyles in the future? There are aggressive programs in 
universities all over this country and across the globe to 
promote that end.
    One of the Green Chemistry principles is to design things 
so that they are inherently safer and so that we prevent 
chemical accidents. I would argue in the post-September 11 
world, also to prevent terroristic disasters.
    Senator Lautenberg. Dr. Poje, you heard the testimony of 
our first panel, and yet it is clear that you believe that 
improvements in chemical safety and security beyond the 
industry's Responsible Care program are needed. How do you 
draw those conclusions because I think they are quite different 
from the idea we heard earlier.
    Dr. Poje. I certainly draw those conclusions from my more 
intimate experience, having studied the pattern of safety 
tragedies that occur when chemicals aren't appropriately 
managed. And when you see after the incident that safer 
alternatives could have been available, you are forced to ask 
the question, what are the barriers that prevented people from 
either knowing about those alternative approaches or for 
economically employing them?
    Clearly, there are two different worlds that we have to be 
concerned about. Greenfields development, in which we should 
have the best and most cutting-edge technologies applied as we 
develop new facilities. Then there is the brownfields, the 
facilities that already have tanks and concrete and 
``hardened'' facilities for which making changes is going to 
have to come out of someone's capital budget.
    And I think that is where the artfulness of business 
decisionmaking is coming into this debate. How much can you 
mandate of that to existing facilities before you wind up 
mandating those facilities to leave the country and go 
offshore. We have to be concerned about that. I think we do 
need this domestic industry and its jobs and its opportunities 
here in the United States. But how do we avoid expanding the 
risks that we see?
    Last April, I had the terrible experience of having to lead 
a team from the Chemical Safety Board to a place in Dalton, 
Georgia, that was a SOCMA member that for the first time had 
been using a chemical called allyl alcohol. And while the 
investigation is still ongoing at the Chemical Safety Board, 
rudimentary aspects of safety and emergency response just were 
not operational in that fairly sizeable community of Dalton, 
Georgia.
    When that chemical was being used for the first time, there 
were poor plans on how to deal with abnormal situations. The 
reaction got out of control and it bubbled out of the reactor. 
There was no secondary containment available. A bucket, a small 
plastic bucket, was being used to capture what was coming out 
of this reactor, and that poor containment allowed toxic gas to 
emanate into the surrounding community.
    Emergency responders turned out to deal with it. Police 
went door to door. Police without any kind of protective 
equipment went gasping into this cloud of toxic allyl alcohol, 
trying to get community members out of harm's way. There was no 
awareness within this community about those hazards.
    In fact, I was quite shocked. When I gave a press briefing 
the next day after I had arrived and announced to people what 
chemicals were involved, they didn't already know that 
information at that time. They didn't know it at the hospital. 
They didn't know it in the broad community. You shouldn't wait 
for somebody from Washington to come and investigate and find 
out what people might have been exposed to. You need to know 
that at the hospital.
    Those 154 people went to the hospital on a cold mountain 
Georgia evening to be stripped naked, hosed down before they 
were allowed to go in and be examined for any possible impact. 
But if the medical system did not know what they were exposed 
to, how would you possibly be able to deal with the hazards 
that those people had?
    So we here have a reason to start asking more serious 
questions about who is using chemicals, when they are using 
them, how they are using them, and make sure that we are 
adhering to even the minimal standards that currently operate 
for risk management and process safety management. There are a 
whole bunch of chemicals that are outside of the RMP system, 
and the Chemical Safety Board has had to investigate numbers 
that are not currently covered by Federal safety standards.
    I would not want Homeland Security to think that somehow it 
can pull out of another agency the named list of chemicals, 
talk to the industry and thereby say that these are the only 
ones we are going to worry about, and consequently blindly miss 
other risks that are around us. And those risks, the ones that 
I see, have seen, are ones that announce themselves through 
mismanagement as releases into communities.
    Senator Lautenberg. Madam Chairman, if I might, just 
another question.
    Chairman Collins. Certainly.
    Senator Lautenberg. It was said by Mr. Barmasse in the 
first panel that, in response to a memo to Congressman Markey 
of Massachusetts, the population potentially affected under an 
EPA worst case scenario release is calculated in a circle 
around the facility. It is unlikely that this entire population 
would be affected by any single chemical release even if it is 
a worst case accident. So this challenging to the data that are 
being used to describe the threat.
    All three of you have had occasion to look at these. Would 
you agree that the figures that are used are under suspicion in 
terms of their accuracy?
    Ms. Andress. Well, he is correct when he says that 
everybody within the vulnerability zone would not be affected 
in the event of a release. The idea is there is a circle drawn 
around the facility. It shows where the potential could be. But 
on any given day, an incident is only going--depending on 
prevailing wind conditions, it is only going to move in one 
direction or another. But it does get to this issue of how do 
we determine what are the risky facilities, and I am aware 
that, for example, the Department of Homeland Security has its 
own system for evaluating risk.
    At Environmental Defense, we recognize we need to 
prioritize. We are not talking about a rigorous government 
oversight of rural facilities that have minimal, if any, 
offsite consequences. We do believe that every facility that 
poses an offsite risk needs to evaluate safer options, but 
where we need to focus government resources is on the high-risk 
facilities.
    But I do think the EPA numbers are useful in that they are 
transparent. We know how those numbers got arrived at, whereas 
the DHS numbers, it is largely a secret methodology, and it is 
predictable, and we think both the public and the agencies 
need--and the companies need that kind of clear basis for 
knowing what the priorities are.
    Senator Lautenberg. Well, the ``Right-to-Know'' law that I 
helped coauthor in Federal statute derived from a similar law 
that was developed in New Jersey. The thing that triggered the 
Right-to-Know law in New Jersey was when the firemen 
approaching a chemical fire had their protective gear virtually 
melt in front of them. What happened is there was an incredible 
amount of participation by industry on a voluntary basis to 
reduce the emissions and to identify these hazardous chemical 
facilities that were located in lots of places in New Jersey. 
So it was a good start.
    But as we look now, there wasn't an interest then by some 
terror group that was looking for a way to really do us a lot 
of damage, and so there are things that we can do on a 
voluntary basis, but there are also things that we have to do.
    Mr. Erwin. Can I comment on this issue right here?
    Chairman Collins. Absolutely.
    Mr. Erwin. Any institution is just like a body. The head of 
it is the only one that gets to dream. The ones down in the 
rest of the body live in reality. [Laughter.]
    Having said that, the worst case scenario, we only look at 
single worst case scenarios, and if we are going to deal with 
terrorists, don't you believe that they are smart enough to hit 
more than one? So when we look at a worst case scenario, we are 
not dealing with a single incident. We are going to look at 
multiple things. I mean, if I was going to do it, I would knock 
the HF tank, I would hit your power supply, I would also do 
some other things all at one time, and I am not a terrorist, so 
I don't think like that. But just imagine what they could do 
when they hit a lot.
    So I think we need to go back and reassess what our worst 
case is now in the light of terrorism because I think it has 
changed. I don't think that our worst case that we looked at 
now is truly our worst case. I think we need to go back and do 
a reassessment on that.
    Senator Lautenberg. Thank you, Madam Chairman. Thank you to 
the witness table.
    Chairman Collins. You are welcome.
    I just have a couple of final questions for this panel. One 
of the most important tasks that this Committee will face will 
be to define in legislation the universe of chemical facilities 
that DHS should be regulating for security. Do you have any 
advice for the Committee on how we should define the universe? 
Dr. Poje.
    Dr. Poje. Yes. I think it is clear that the usage of 
chemicals is widespread in our society. One could go to an 
individual consumer who goes to a Home Depot and picks up a can 
of pesticide for use on their lawn and that person is handling 
a chemical. Could we possibly reach down and touch such persons 
for the way that they are securely and safely managing it? You 
can't do that. So there has to be a scale that moves in some 
direction toward those that are using the highest and the worst 
chemicals.
    I think there has been an awful lot of work done in this 
country in the chemical safety arena to examine and reexamine 
that question. I think we can build off of that platform to 
define what are the highest risks in a measurable fashion above 
the next tier. The Risk Management Planning program obviously 
establishes three different tiers of program responsiveness for 
dealing with that kind of work. I think that should be examined 
and looked at, and I would hope you would get the assistance 
that you called for from Homeland Security and from OSHA and 
EPA and those who have had that kind of responsibility to work 
together to come up with such a proposal.
    Again, my written statement, though, asks also that we be 
prepared for the exceptions. Do not put the blinders up that 
says that listed chemicals in regulated amounts are the only 
thing we worry about. Force yourself and DHS to have to 
confront the annual reality of chemical releases and cross 
compare. Are the chemical incident events reflective of the 
reality that we have chosen for our regulatory programs?
    Chairman Collins. Mr. Erwin, do you have any advice for us 
on the scope of our legislation?
    Mr. Erwin. I think the scope of your legislation should be 
based on potential, the potential risk, the potential 
vulnerability, the amount of who could be harmed, and if you 
based it on that, it would be very inclusive.
    Chairman Collins. Ms. Andress.
    Ms. Andress. Well, I would start with the Risk Management 
Program. It is, as I mentioned earlier, a transparent system. 
We know how those numbers are derived at. They are imperfect on 
both sides. As the industry panel noted, they may exaggerate 
the risks in some respects, but then in others, as Mr. Erwin 
noted, they don't take into account, what if all of the 
inventory were to be released at one time. But I actually think 
maybe that makes them the best option because they are kind of 
in the middle.
    And then in terms of--I know there have been proposals, for 
example, to say that all facilities above a certain 
vulnerability should do X, Y, and Z, and I think that is--we 
recognize again the need to prioritize, and there are a number 
of facilities in the Risk Management Program that don't need 
heavy regulation and oversight. But as I said earlier, I think 
everybody needs to have--all facilities in the program that 
pose a potential risk to communities and workers nearby need to 
do an evaluation of the safer alternatives. And then you focus 
government resources on the high-risk facilities.
    Chairman Collins. Thank you. Yes, Mr. Erwin?
    Mr. Erwin. Because I have never been here before, I may not 
understand the procedure, but do I have to ask to have my 
written comments and the survey added into the record?
    Chairman Collins. All of the statements, surveys, and 
anything else that you wish to submit will be included in the 
record.
    Mr. Erwin. Thank you.
    Chairman Collins. Just one final question, Dr. Poje. In 
response to an earlier question, you made a statement along the 
lines that we need to be able to challenge the chemicals and 
chemical processes employed by chemical facilities. This raises 
a question that I posed to the first panel.
    You have already testified that you would support imposing 
some sort of IST requirements directly on facilities. But could 
you also support an alternative approach whereby we would not 
impose those requirements across the board, but give DHS the 
explicit authority to require changes if specific vulnerability 
studies for particular sites indicated a problem that could be 
addressed that way?
    Dr. Poje. Certainly, I would, if I understand you 
correctly, I would see the advantage of having a Federal entity 
have some oversight in this area, particularly if it could 
identify common problems across the country and for which there 
should be some mandated inherently safer approaches. However, I 
would also have to say, my experience on the Chemical Safety 
Board is that the knowledge as to where a particular process 
could best change oftentimes is dependent upon the best process 
engineering competency within that facility itself or within 
that corporation.
    I don't think that we are going to be able to guarantee 
that any Federal agency is going to become the best repository 
for that intimate process information. The agency should be the 
coordinator, convener, collaborator for drawing that 
information into a public arena so that more of the public 
would be able to see what are the opportunities. And thereby, 
more of the facilities that might not have access to getting to 
a professional American Institute of Chemical Engineering 
meeting would find out what inherently safer techniques are 
being used through the services provided by a Federal entity 
required to make sure that information gets out to the public. 
And I think it would also help this Committee do an effective 
job of oversight on whether we are making the progress as 
rapidly as we could.
    Chairman Collins. Thank you. I want to thank all of our 
witnesses today for truly excellent testimony that will be very 
valuable to this Committee as we undertake the Herculean task 
of weighing all these arguments and drafting legislation.
    We will be having a final hearing in this series of four 
hearings focusing on chemical security. That hearing is 
tentatively scheduled for July 27.
    Again, I want to thank you all. We look forward to working 
closely with you.
    The hearing record will remain open for 15 days for the 
submission of any additional questions for our witnesses as 
well as other materials.
    This hearing is now adjourned. Thank you.
    [Whereupon, at 12:10 p.m., the Committee was adjourned.]


   CHEMICAL FACILITY SECURITY: WHAT IS THE APPROPRIATE FEDERAL ROLE?

                              ----------                              


                        WEDNESDAY, JULY 27, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Voinovich, Lieberman, Carper, 
and Lautenberg.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Good morning. Today, the Committee is holding its fourth 
and final hearing on the security of our Nation's chemical 
industry against terrorist attack. The goal of these hearings 
has been to help this Committee develop comprehensive, 
bipartisan legislation to address what is clearly one of our 
Nation's greatest homeland security vulnerabilities.
    Throughout this series of hearings, we have learned that 
the United States is home to an astonishing number of 
facilities that manufacture, use, or store chemicals for 
legitimate purposes that could cause devastation if turned 
against us as weapons.
    The Environmental Protection Agency has listed some 15,000 
chemical facilities that produce, use, or store large 
quantities of hazardous chemicals. The Department of Homeland 
Security uses a different methodology and has identified 3,400 
facilities that could potentially affect more than 1,000 people 
if attacked and nearly 300 chemical facilities where a toxic 
release could potentially affect at least 50,000 people.
    We have heard expert testimony regarding recent chemical 
accidents in our country that have also resulted in injury and 
death. We have learned that the chemical industry is enormous, 
diverse, and vital to the American economy. The U.S. chemical 
manufacturing industry approaches half a trillion dollars 
annually in sales. The chemical industry represents our largest 
export sector, with exports totaling $91.4 billion in 2003. 
More than 900,000 people work directly in the U.S. chemical 
industry, which supports an additional 700,000 supplier jobs 
and millions more indirectly.
    From national defense and high-tech to agriculture and 
health care, the chemical industry produces more than 70,000 
products that improve the well-being of the American people. 
And these hearings have reminded us that the terrorist enemy we 
face has a clear strategy of turning the tools of free and 
productive societies into weapons. They did it on September 11, 
2001. They did it in Madrid last year. And they have done it in 
London, not once but twice this month. Given the chance, they 
will surely do so again.
    Currently, the Federal Government's regulation of the 
security of chemical facilities is limited. The Department of 
Homeland Security's representative and many other witnesses 
have testified that new legislation is required to strengthen 
the security of chemical sites. The Department points out that 
approximately 20 percent of the overall chemical industry 
sector that it believes to be at high risk does not subscribe 
to voluntary industry security standards. While I applaud those 
many companies that have taken voluntary measures, an 
unacceptable number have not. Moreover, given the severity of 
the threat, I believe that it is a mistake to rely on voluntary 
measures alone.
    To date, we have heard from witnesses representing 
industry, labor and environmental associations, as well as 
chemical safety professionals, homeland security experts, and 
the Department of Homeland Security and the Environmental 
Protection Agency. Today, we will hear from company security 
chiefs who will describe the day-to-day challenges of securing 
these sites. A local emergency manager with decades of 
experience in responding to chemical incidents will also 
testify. And we will begin our hearing today by hearing from 
the U.S. Coast Guard, which is responsible for implementing the 
Maritime Transportation Security Act of 2002.
    Throughout these hearings, the results-based cooperative 
approach of MTSA has been described as a security success 
story. Maritime commerce is no less diverse or vital to our 
economy than is our chemical industry, and the security issues 
are no less challenging.
    I will be very interested to hear the Coast Guard's views 
on the extent to which MTSA could be used as the template for 
the chemical security legislation we will begin drafting next 
month.
    I look forward to hearing from all of our expert witnesses 
today.
    Senator Lieberman, welcome.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Madam Chairman. This is, as 
you have said, the fourth--and I believe the last for now--in a 
series of hearings that the Committee has held on chemical 
security. I think this series has really served to inform us of 
the vulnerabilities we face as well as the various responses 
that we can take together to strengthen our defenses against a 
potential terrorist attack or a chemical accident. I hope it is 
clear that Chairman Collins and I and the Members of this 
Committee consider securing our most exposed chemical storage 
and manufacturing sites a top priority for this Committee and, 
indeed, for our country.
    I am heartened that we have agreement with the 
Administration and a large portion of the chemical industry 
itself that legislation is necessary. The fact is that the 
recent news from Sharm el-Sheikh and London reminds us again 
that the war of Islamist terrorists against us is continuing 
and it is global; that terrorists will exploit weaknesses in 
our homeland defenses wherever they find them; and that they 
aim to kill as many innocent men, women, and children as 
possible to spread fear and panic throughout our countries to 
bring about the political changes that they desire.
    By any measure, the chemical industry today is one sector 
where a successful attack could have catastrophic consequences 
for our people and our country, and that is why we must and 
will continue to work with haste to do everything we possibly 
can to prevent such an attack.
    At our first hearing in April, we learned of the potential 
risk posed by thousands of chemical sites across the Nation. 
One witness described chemical facilities as potential weapons 
of mass destruction. At our second hearing, in June, the 
Department of Homeland Security testified that voluntary safety 
measures taken by the chemical industry, commendable as they 
were, were not enough and that the Administration supports 
legislation to secure the most hazardous facilities by imposing 
minimum security standards.
    Earlier this month, industry representatives told us that 
legislation was, in fact, needed in their opinion to establish 
Federal security standards. The largest chemical trade 
associations--which is to say the American Chemistry Council, 
the Synthetic Organic Chemical Manufacturers Association, and 
the National Petroleum and Refiners Association--all agreed 
that Federal standards would improve security, although they 
opposed Federal mandates requiring companies to implement the 
so-called inherently safer technologies.
    Today, we are going to hear from a variety of stakeholders, 
both public and private. Some of our witnesses will argue that 
Federal controls should be limited to--and have argued, in 
fact, that Federal controls should be limited to standards for 
physical security measures such as gates and surveillance 
cameras. But I must say that I am impressed by the arguments of 
most of the security experts that we have heard that physical 
measures alone will not stop a determined terrorist attack. 
Knowing that, I believe we must look long and hard and 
thoughtfully at what can be done to reduce the inherent hazards 
at chemical sites by finding alternative substances or 
technologies to reduce the risks or configure plants in ways 
that minimize the possibility of a hazardous release. In other 
words, how can we ensure that the chemical companies are doing 
all they can to achieve better safety and security through such 
measures?
    I am also concerned that too many local preparedness and 
response teams may not be able to respond effectively to an 
attack on a chemical plant, and I believe that State and local 
officials, who are also the first preventers, need more 
resources than they now have if they are expected to protect 
the areas just outside a chemical facility's fence, as now 
seems to be the case.
    And, finally, I want to be sure that the people who live 
near chemical facilities have been informed and prepared about 
what to do if there is a breach at a chemical facility. Today, 
in too many places, I conclude that is not the case, leaving 
the public uninformed and unnecessarily at risk.
    I know that there are still disagreements about details, 
and they are not insignificant disagreements. But I must say, 
as we come to this fourth hearing, I am very encouraged that we 
all are walking along the same road, which will lead us to an 
agreement that will make our chemical plants safer and that 
will guarantee that they pose as few risks as possible to the 
American people.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator.
    Senator Lautenberg. Madam Chairman, are we going to be 
permitted to make opening statements?
    Chairman Collins. As the staff had informed all Members, we 
just did opening statements at the first day of this series of 
hearings. But if you and Senator Voinovich----
    Senator Lautenberg. I just think this subject is such an 
important one, and in particular, the area I come from is 
highly vulnerable to terrible destruction if an attack is 
placed against any of the chemical facilities, and I don't want 
to upset the routine, but I would hope, Madam Chairman----
    Chairman Collins. Senator, if you would like to make a few 
comments, that is certainly fine with me. We do have a number 
of witnesses this morning, so I would ask that they be brief.
    Senator Lautenberg. Sure.
    Chairman Collins. I will call on Senator Voinovich and 
offer him the same courtesy, if he would like to make any 
comments.
    Senator Voinovich. The only comment I would like to make is 
I have been working on this subject for about 4 years.
    Chairman Collins. You are very knowledgeable.
    Senator Voinovich. In that amount of time, the issue was 
before the Environment and Public Works Committee, and now it 
is over at Homeland Security and Governmental Affairs. I am 
really pleased that you and our Ranking Member have taken it 
upon yourselves to have these extensive hearings on this issue. 
I hope that as a result of them we can come up with some 
legislation that is fair.
    Chairman Collins. Thank you, Senator. You have worked long 
and hard on this issue, and we are very fortunate to have your 
expertise to help guide us as we draft legislation jointly on 
this issue. So thank you for your participation.
    Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. I won't extend the courtesy, Madam 
Chairman, but I would hope that in the future there is an 
opportunity to lay out a point of view. And I, too, started on 
this a long time ago. As a matter of fact, before I took my 
sabbatical, I had proposed a chemical hazards structure so that 
we could identify these things. But I look forward to the 
hearing, and I commend you, Madam Chairman, for having held 
these hearings. But the change in procedure is one that I would 
hope would change.
    Chairman Collins. Senator Lautenberg, we will discuss that 
further after the hearing, but the procedure was made very 
clear.
    Our first witness today is Admiral Craig Bone of the U.S. 
Coast Guard. Admiral Bone is the Coast Guard's Director of Port 
Security and brings to this job more than 28 years of service 
to our country. It is noteworthy that he was the Deputy 
Commander of Activities-New York on September 11 and later 
served as the Commanding Officer and Captain of the Port 
Activities-New York, where he laid the groundwork with the 
maritime industry for the implementation of MTSA. We look 
forward to hearing his testimony.
    Admiral Bone, thank you for being with us, and you may 
proceed.

 TESTIMONY OF REAR ADMIRAL CRAIG E. BONE,\1\ DIRECTOR OF PORT 
SECURITY, MARINE SAFETY, SECURITY, AND ENVIRONMENTAL PROTECTION 
                 DIRECTORATE, U.S. COAST GUARD

    Admiral Bone. Good morning, Madam Chairman, Senator 
Lieberman, and distinguished Members of the Committee. I am 
Rear Admiral Craig Bone, Director of Port Security in the Coast 
Guard's Marine Safety, Security, and Environmental Protection 
Directorate. Today, I intend to discuss the Coast Guard's role 
to secure chemical facilities on the waterways of the United 
States.
---------------------------------------------------------------------------
    \1\ The prepared statement of Admiral Bone appears in the Appendix 
on page 233.
---------------------------------------------------------------------------
    A terrorist incident against a facility in our marine 
transportation system could have a disastrous impact on public 
safety, our Nation's economy, and international trade. Such an 
incident, if it were to occur in a strategic port, could also 
threaten our military mobilization capabilities. Clearly, the 
security of the chemical sector is vital and important to the 
protection of the public from harm.
    Of more than 3,000 facility security plans that the Coast 
Guard has reviewed and approved under the Maritime 
Transportation Security Act, commonly known as MTSA, we have 
approved 300 for chemical facilities. This represents about 2 
percent of the approximate 15,000 chemical facilities in the 
United States that use or store chemicals. The Coast Guard also 
approved an alternative security program for the American 
Chemistry Council. An alternative security program is an option 
afforded to facility operators under MTSA. Instead of creating 
their own facility plan, operators of facilities required to 
meet Title 33, Code of Federal Regulations, Parts 101 through 
106, may meet an alternative security program that has been 
approved by the Coast Guard. Approximately 50 chemical facility 
operators have chosen to use the American Chemistry Council's 
alternative security program rather than create their own 
individual plans.
    The Coast Guard has completed compliance inspections of all 
facilities that currently have facility security plans or the 
alternative security program to verify that they are operating 
within their respective plans. Since the July 1, 2004, 
implementation date for MTSA, the Coast Guard has taken control 
actions, which include restrictions to or suspension of 
operations, against 45 facilities. Three of those facilities 
were from the chemical industry.
    The Coast Guard's work in implementing MTSA for waterfront 
facilities has been a collaborative effort with other Federal, 
State, and local agencies as well as the private industry 
partners. We have worked in conjunction with the Information 
Analysis and Infrastructure Protection Directorate within the 
Department of Homeland Security to ensure that all MTSA plans 
are consistent with their buffer zone protection plans.
    The Area Maritime Security Committees, led by the local 
Coast Guard Captain of the Port, have identified their port's 
specific vulnerabilities and created a plan to address those 
vulnerabilities. The Area Maritime Security Committees, which 
include representatives from the oil and chemical sector, 
developed the Area Maritime Security Plans to address the risks 
specific to their ports. These area plans focus on critical 
port operations and infrastructure, which include regulated 
chemical facilities under MTSA as well as those facilities 
merely located in close proximity to the navigable waterways 
but do not engage in marine transfer operations. Such 
facilities would not be regulated under MTSA. These plans 
address how local, State, and Federal resources will be 
deployed to prevent terrorist attacks and protect critical 
infrastructure in our ports, waterways, and coastal areas.
    We have developed a security matrix under Operation Neptune 
Shield, which is our internal plan to identify highest-risk 
threats and conduct operations which prevent and protect the 
public, facilities, and vessels from a terrorist attack. The 
matrix establishes a protocol of risk awareness and 
surveillance to include vessel traffic, air patrols, cutter 
presence, security zones, vessel escorts, security boardings of 
vessels, and positive control measures used to mitigate the 
vulnerabilities inherent in the ports, waterways, and maritime 
domain.
    We continue to address highest-risk maritime operations. As 
such, we have contracted for a special assessment of inland 
barges which carry certain dangerous cargos, evaluating their 
vulnerabilities and identifying the blast consequence analysis.
    The Coast Guard will continue to perform facility security 
plan compliance examinations and spot checks on waterfront 
facilities that are regulated under Title 33, Code of Federal 
Regulations, Part 105, including facilities identified as 
chemical, production, and storage operations. Those facilities 
will continue to be held to a standard commensurate with the 
vulnerabilities of the facility, the threat to the facility, 
and the consequences of a successful attack.
    Since September 11, the Coast Guard has worked closely with 
Federal, State, and local agencies and members of the chemical 
industry to enhance the security of the chemical sector and the 
marine transportation system. We have established a robust 
strategy to enhance public safety from potential threats to 
chemical facilities located in the maritime region. We have 
conducted vulnerability assessments, implemented comprehensive 
security plans, and worked again with the Federal, State, and 
local agencies and industry to exercise those plans against 
realistic scenarios.
    The MTSA has provided the foundation piece for chemical 
facility security in our ports. Our work is far from complete. 
We will build upon this foundation using a program of regular 
training and exercises, an annual review of plans.
    The Coast Guard, in concert with the other Federal 
agencies, State and local authorities, and partners in industry 
will continue to refine the tools and analysis that aid senior 
leaders and first responders alike in their ability to protect, 
prevent, and rapidly respond to maritime transportation 
security incidents. We want to minimize the damage in such an 
incident and aid in recovery operations.
    I thank you for the opportunity to testify today. I will be 
pleased to answer any questions at the appropriate time.
    Chairman Collins. Thank you very much, Admiral. I very much 
appreciate your testimony and the expertise that you bring.
    Many of our witnesses, including representatives of the 
Department of Homeland Security, have indicated that the 
framework under the Maritime Transportation Security Act might 
be one that we could use in drafting a chemical security bill. 
So I would like to ask you more questions about the specifics 
of the implementation of the MTSA.
    First of all, how does the Coast Guard verify and enforce 
compliance with MTSA regulations?
    Admiral Bone. Well, first off, the plans have to be 
approved in accordance with the regulations, so that is the 
starting point, which we have already completed. But then there 
is annual compliance examinations. We have already, again, 
examined each facility, and our inspectors go out with a 
checklist that includes the performance dimensions required of 
the facility to deal with their particular risk environment. In 
other words, not every facility is exactly the same; each 
facility has different types of chemicals, has different 
vulnerabilities. So facilities conducted--we confirmed that the 
facilities, in fact, conducted their actual facility risk 
assessment or their vulnerability assessment and then have put 
into place the actions necessary to protect that facility. And, 
again, the checklist includes such things as access controls, 
training of individuals, looking at realistic scenarios for 
threats to that facility or attempts to basically threaten that 
facility and cause a transportation security incident.
    Again, we do not look at everything that could happen. We 
look at those things that would have significant consequences 
if it was, in fact--if someone entered improperly or took 
actions.
    Chairman Collins. Let me pick upon a point that you made 
that not all facilities are the same. This is a point that the 
chemical industry representatives have made to us repeatedly, 
that they are not in favor of a one-size-fits-all regulatory 
scheme, and they have pointed to the performance-based 
regulations of MTSA as a possible model.
    Could you explain for us the differences between 
performance-based and prescriptive regulations and how you have 
implemented a performance-based framework?
    Admiral Bone. An example might be someone could prescribe 
20-foot-size fences plus perimeter guards outside that have to 
be located 20 feet or 100 feet from the facility to address 
incoming traffic. That may be one standard in one highly 
populated area or high risk, particular high risk, but what if 
the facility, for example, you are worried about the cargo that 
is there being taken, or being used, which is a byproduct on 
the facility, versus the product being the target itself to 
cause it to explode or blow up at the location.
    You may be able to do that in a different way in a 
different location, say if you are in a rural area on the 
inland rivers versus if you are sitting, as Senator Lautenberg 
mentioned, in New Jersey, in the port of New Jersey.
    The requirements, however, that are in place are access 
control. Establish effective access control that will not allow 
someone who is not properly identified and is not supposed to 
be there to do business from entering your facility. There are 
multiple ways of doing that, both within your facility but also 
with the help of State and local agencies. In other words, you 
may hire additional security contractors and maybe people 
within your own. You may actually have the local authorities 
assisting you in establishing those access controls.
    Chairman Collins. The focus is on the goal, not how to 
reach the goal.
    Admiral Bone. Yes.
    Chairman Collins. Under MTSA, the Coast Guard has the 
authority, I am told, to shut down a facility that is not in 
compliance with MTSA regulations. Has this actually happened? 
Has the Coast Guard shut down facilities for noncompliance?
    Admiral Bone. Yes. Again, since July 2004, there have been 
32 cases where we have actually shut down a facility, these 
facilities--not all of them chemical. When we are talking about 
MTSA, three of which were chemical facilities. But the majority 
of those, the very beginning when the program started up, some 
of them had not submitted their Federal security plans and as 
such they were not allowed to continue to operate until they 
had submitted them early in the process.
    Chairman Collins. Do you think that authority is important 
for us to give the Department of Homeland Security?
    Admiral Bone. Yes. If you have a significant violation of 
security such as access, illegal access or breach of the 
facility, and there are not proper procedures in place, then 
you have compromised that security, safety, and the well-being 
of the public, and I think that it is imperative.
    Chairman Collins. Does the Coast Guard have authority under 
the MTSA to mandate changes in the storage of chemicals at 
facilities if you deem the security plan to be inadequate?
    Admiral Bone. Well, we start off with an adequate security 
plan, so if they decided to move something to a different 
location, then we would--the Captain of the Port has the 
authority to seek an amendment to their security plan or 
actually require a modification of, again, their protective 
measures or their performance, or it may be a determination 
that they make to move it in order to continue operations.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Admiral, thanks very much for your extremely helpful 
testimony. Some of the experts in this area that I have talked 
to and we have heard from have said, given the thousands of 
chemical facilities in this country, that they worry whether 
the Department of Homeland Security has the kind of 
infrastructure or capacity to adequately monitor and oversee 
implementation of security measures in this sector. In 
contrast, I have heard that one reason why the Coast Guard has 
been able to effectively implement the provisions of MTSA is 
because the agency does have an existing infrastructure at the 
ports, obviously, where the Captains of the Ports are clearly 
in charge of ensuring that security is improved in their areas 
of jurisdiction. The Coast Guard also received substantial 
additional resources to implement MTSA.
    I wanted to ask you to reflect a little bit on the existing 
DHS infrastructure, as you understand it, and also how the 
Coast Guard determined how much in the way of additional 
resources it needed to adequately oversee implementation of 
MTSA.
    Admiral Bone. Well, first off, as you stated, we were 
fortunate because we already had experience working in the 
safety and environmental arenas with these facilities and, in 
fact, had area committees similar to the area security 
committee, both for environmental and port safety operations, 
two separate committees.
    However, we did not have the additional bodies, as you have 
said, in order to do that and actually called up people on 
Title 10 in order to do that until the Administration and the 
Senators and Congressmen provided the additional resources for 
us, which in turn was about $101 million and approximately 800 
people to carry this out.
    Now, when we look at what differential, what do we have to 
put in place in order to establish and actually execute the 
plans and the review of the plans and approval of the plans is 
separate from the execution of the compliance. But, again, part 
of the regulatory process, which we follow, includes looking at 
those alternatives, looking at the approach in order to do this 
and identifying what is required in order to execute it. So it 
is a very deliberate process, identifying--and if you are going 
to be having requirements that are annual, quarterly, semi-
annually, that will drive your resource requirements as well.
    Additionally, we look at what we are currently doing in 
security and what our controls were already able to capture. 
And the fact that we are monitoring these from a safety 
standpoint as well as security, our visits are more frequent to 
these facilities in any event.
    Senator Lieberman. As you probably know, Robert Stephan, 
the Acting Assistant Secretary for Information Analysis and 
Infrastructure Protection, came before the Committee, and he is 
the one who said on behalf of the DHS that voluntary measures 
were no longer enough and that the Department was working on 
legislation. I wanted to know whether the Coast Guard is 
currently involved in those efforts within DHS to try to flesh 
out proposals for broader chemical security safety legislation.
    Admiral Bone. We are not involved in security regulation 
drafting, but we have, in fact, been working closely with IAIP 
on looking at comprehensive chemical reviews of facilities, of 
chemical facilities, and that process. We have also been 
involved with them in looking at the liquefied natural gas 
facilities and comprehensive security assessments of those to 
follow the current assessments that have already been 
conducted.
    Senator Lieberman. So beyond your answers to my first 
question, what lessons have you learned from implementing MTSA 
that could be important for Congress to keep in mind as we 
consider legislation to broaden the requirements for chemical 
safety in the country?
    Admiral Bone. First, I think, is that you have an industry 
that is a mature industry and that is a risk-based industry 
that has been engaged in safety and environmental protection 
and actually understands risk probably better than any other 
group, if they are professional in what they undertake. Risk 
management is not a new thing. The threat vectors may be 
different for this group. So it is key that you engage, as we 
do, actually, in almost all of our rulemakings, with the 
industry component as you go forward and you continue that 
process because they have expertise that you should use.
    The other is that you have to have compliance. I think that 
it is not just--there has to be a mandated set of requirements. 
A voluntary system, as we learned in our environment and in our 
safety system, for those that are already respectable and the 
best companies, they are not just going to meet what you have, 
they are going to exceed it. And that is true also in the 
security arena. And we learned that also with MTSA.
    Senator Lieberman. But they are not all the best companies, 
are they? In other words, the best companies will exceed the 
minimum that we set, but others need that minimum.
    Admiral Bone. But we can learn a lot from those companies 
that set those examples, that have been doing it--actually, 
many of them, this is not a tremendous change to their way of 
doing business because identification and access control and 
worrying about threats, even internal individuals doing harm to 
their facilities because they have certain dangerous cargos 
that, in fact, are such high risk, many of them actually have 
gone down this, what I will call a decision tree process to 
make sure the critical links in the chain are removed so that 
something cannot happen.
    I mean, when I think back on my career, I have worked with 
this industry in the past to try to prevent catastrophic 
incidents from a safety arena. Actually, in our experience with 
MTSA, they, in fact, were one of the leaders in this along with 
the passenger vessel, cruise ship industry, who were already 
involved with security operations.
    Senator Lieberman. Any other lessons?
    Admiral Bone. I think you need to make sure you exercise 
your plans. I think that if you do not have exercises, if it is 
not drilled, people are not trained to do this. And if you do 
not have exercises that involve not just the people in the 
facilities themselves, but the vessel that may be located 
there, the emergency response--I heard mention that one of the 
emergency response agencies, the local authorities that are 
quite often the people that are providing that layer of defense 
for the security of this facility, if they are not built into 
it, it would be a big mistake to not include them in the drills 
and exercises, particularly the exercises, because that is 
where you find out your gaps. You put the framework together, 
which is what MTSA does. It puts the security framework 
together, hardens the targets, and allows for the entities to 
engage. Then the question is: How do you buy down the risk in 
that system? How do you collectively use that? In my 
experience, things have changed drastically from just response. 
In today's environment, if you have an incident, you not only 
are responding to that incident, but at the same time you are 
heightening security in and around the facilities.
    So some of the same people that were engaged before in 
responding and controlling traffic now may also be tapped to go 
provide increased security. So you may build a plan, but until 
you actually exercise it, you will not find all your 
communications. You will not really clearly know your true 
resource requirements. And you may find some things that you 
have more than enough of and other things that you need.
    Senator Lieberman. Thanks, Admiral. My time is up. You have 
been very helpful. Thank you.
    Chairman Collins. Thank you. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Again, Madam Chairman, thank you for 
these hearings.
    In the previous hearings, we have learned of the 
vulnerabilities of this sector and the need to adequately 
secure it from the threat of terrorist attacks. We have also 
begun to understand the patchwork of safety and security 
measures, both public and private, that begin to address both 
the safety and the security of the chemical industry in the 
absence of a comprehensive Federal approach to chemical 
security.
    Before I ask my questions, I would like to express my 
thoughts, Madam Chairman, on this issue. Risk is inherent in 
business. While it is possible to manage risk and mitigate its 
impact, elimination of risk is impossible. Unfortunately, we 
continue to see the brutal nature of terrorism, and we know 
that the possibility of a terrorist attack is very real. That 
threat must be addressed by enhanced security.
    That said, I want to reiterate my belief that the Federal 
Government cannot protect itself against every single threat, 
and I think that is what Osama bin Laden would like to see us 
try to do because in the process of doing so, we will bankrupt 
this country.
    Therefore, I want to emphasize the importance of a balanced 
approach between self-regulation by industry and more proactive 
Federal action. Admiral Bone, I have been very much impressed 
with your testimony here today. It seems to me that the MTSA-
approach to chemical facility security could be the benchmark 
for the way we go about handling this. You have come up with 
your standards; if necessary, the industry has come up with 
their alternative security system. You have approved it. You 
supervised it. I am very impressed with the way you are doing 
things. Madam Chairman, if we are thinking about who is going 
to run the show after we pass the legislation, it seems to me 
that maybe we ought to suggest to Michael Chertoff that the 
person should be Admiral Bone. [Laughter.]
    Admiral Bone. Thank you, Senator.
    Senator Voinovich. One of the things that I would like to 
know is who takes care of the facilities that you do not 
oversee? I understand that you are responsible for facilities 
or navigable water ways; but who takes care of the portion that 
is not in your jurisdiction?
    Admiral Bone. Well, maybe I need to clarify something. 
Actually, this was different than the regulation that applied 
to transfer operations under environmental or safety in that it 
actually takes you to the gate. So if the facility is, in fact, 
a single structure or a single perimeter, then we do, in fact, 
when it comes to security and access control, have authority 
under MTSA to regulate that facility. However, if portions of a 
facility owned by the same company are located, as you say, on 
another location, for example, if one company has this plot and 
area and then there is another one that is completely separate 
and has separate access controls, separate processing, not a 
transfer of cargos that has a maritime nexus to it, then you 
are right, those facilities would be inland facilities and 
would not have a maritime nexus.
    The key is we need some type, from water, either--for MTSA, 
we need from water access for transportation of goods. But from 
the Port and Waterway Security Act, we have authority over a 
facility if it is adjacent to the waterway and it presents a 
risk or a threat. In those cases, MTSA does not apply, but if 
there is a threat vector directed, say, at the chemical sector, 
we can, in fact, impose requirements on that facility regarding 
access controls and assist in that with our own assets, and 
that is working with the State and local.
    Senator Voinovich. So we could look at the proximity or the 
nexus of facilities with that water facility perhaps, to look 
at who would handle those that are not in your jurisdiction.
    Admiral Bone. What I would tell you is that each plan 
identifies the exact perimeter and the layout of that facility, 
so that it is clear if it is a MTSA facility or not.
    Senator Voinovich. OK. But what I am saying is that for the 
facilities that are not subject to MTSA, what entity oversees 
them?
    Admiral Bone. Right now I don't know anyone that is 
actually applying any standards along these lines other than 
the States themselves or the local communities that may have 
input particular requirements or safety requirements, and then 
did it under the guise of safety and protection of the public.
    Senator Voinovich. What do you think about using MTSA and 
the alternative security system as a prototype for expanding 
the method to a nationwide chemical security effort.
    Admiral Bone. I think it is a good model and it is a good 
framework, and I do not see why it would not work. I think that 
you have to look at the organizational constructs. You create 
an area maritime security committee and things like that, you 
may need to look at some other organizational construct further 
inland just because of the nature of the relationship or the 
entities and how DHS could best manage.
    Senator Voinovich. And you are confident that the MTSA 
regulations and the alternative security system that the 
industry has come up with, in terms of regulations, gets the 
job done in terms of securing these facilities?
    Admiral Bone. Yes, it has definitely improved the security 
of the facilities. Again, I want to make sure it is clear that 
this is a systemic approach. The hardening and the protective 
actions by the industry of the facilities is one piece of 
securing that facility from a terrorist event. It has to be 
layered, no different than from a vessel that is coming to the 
facility. When we look at our work overseas, if you are looking 
at a terrorist with intent to do harm----
    Senator Voinovich. But what I am really interested in is 
that in terms of the regulations, that they get the job done. 
Do you feel comfortable that we do not have to come back and 
add another 50 pages of regulations. Do you feel that the 
regulations you have get the job done?
    Admiral Bone. Right, I believe so.
    Senator Voinovich. Thank you.
    Chairman Collins. Thank you. Senator Lautenberg.
    Senator Lautenberg. Admiral, you know that I have great 
respect and I would say friendship with the Coast Guard and so 
much appreciate how you get things done, typically with ever 
reduced resources to do it but more assignments. That is really 
an anomaly, I must tell you. But you carry on in a form that 
makes us all proud.
    When you do an assessment of risk, do you do risk 
assessments throughout the ports that you have jurisdiction 
over or are involved in?
    Admiral Bone. Yes, sir. We have completed 55 risk 
assessments of what we believe to be the 55 most critical 
economic and military strategic ports in the United States. We 
have completed those.
    Senator Lautenberg. So when you do a risk assessment, you 
try to measure the damage that might occur if an attack takes 
place, and that deals with things like volatility of material. 
How about the density of population nearby? Does that figure 
into it?
    Admiral Bone. We look at the threat vector, we multiple 
that by the vulnerability, and then by the consequence. And 
part of that consequence could be public safety. It could also 
be the economic harm. If you are looking at a port, if you are 
looking at a facility, then a facility--again, you will use the 
same assessment only if it is a microcosm of the port. But we 
looked at the combined port system and the vulnerabilities of 
that system, not just of an entity. And we also had threat 
assessments that were conducted as well so that you have some 
validity of what that threat--what is the true risk that you 
are trying to address.
    Senator Lautenberg. Do you have a file, a list, a database 
that lists the most vulnerable and a scale that defines where 
all of these places stand in terms of one risk in one place 
compared to the other sites?
    Admiral Bone. Yes, Senator. We have, in fact, identified 
that----
    Senator Lautenberg. Are you familiar with the----
    Admiral Bone [continuing]. For ports. And then we work with 
DHS to look at critical infrastructure and critical assets.
    Senator Lautenberg. So when you look at the port of New 
York, Newark, Elizabeth, you are, I assume, familiar with the 
identification of the 2-mile stretch from Newark Liberty 
Airport to the harbor. And that is described as the most 
vulnerable, most damage-susceptible place in the country.
    Admiral Bone. I would hope it is not the most vulnerable 
now along the waterfront. But I would say that does present a 
very high risk. It is a high-risk environment that you have to 
have countermeasures for. I agree.
    Senator Lautenberg. So you support applying resources based 
on risk assessments?
    Admiral Bone. Yes, sir.
    Senator Lautenberg. Because we do that on the maritime 
side, the port security side. And that is different than our 
grant programs that we have otherwise. And you know that 
Secretary Chertoff, the Administration, and the Chairmen of the 
9/11 Commission all suggest focus on the risk and that is how 
we should distribute our resources. That is quite logical.
    What is the difference between a risk-based security 
decision and threat-based? Is there a difference or is that 
just terminology?
    Admiral Bone. It sounds to me like terminology. I think 
that risk includes the threat vector as well as the 
vulnerability or the probability of the event and the 
consequence when you say risk-based. If you say threat-based, 
then usually that is counterterrorism direct, meaning here is 
the threat, I go after the threat. I know exactly where it is, 
I counter the threat. So that may be the differential.
    Senator Lautenberg. Admiral, I thank you for your service 
and the Coast Guard.
    Madam Chairman, I would ask that the record be kept open 
because I have to go, and I have other questions. I will not be 
able to hear the other panelists.
    Chairman Collins. Without objection.
    Senator Lautenberg. Thank you.
    Chairman Collins. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Madam Chairman. Admiral, welcome. I 
love your name. [Laughter.]
    I have to slip out, in just a minute, and go to the Capitol 
to participate in an event with one of our colleagues, Blanche 
Lincoln, and some others, on a matter. As a result, I cannot 
ask you but maybe one question. I am going to miss the 
beginning of the testimonies from the panelists who follow, and 
I want to especially welcome Beth Turner from DuPont, and I 
look forward to hopefully returning to ask some questions.
    My staff was good enough to prepare some real good 
questions, and my colleagues have asked them all. So I am just 
going to ask you one.
    Let's say you are sitting on this side of the table, and we 
are sitting out there, and you are thinking about what do I do 
now. The hearing is over, time to craft the legislation and to 
introduce a bill. What would it look like?
    Admiral Bone. I think that it would start with the end in 
mind, meaning, again, what is the risk, the loss that is 
unacceptable. And I would frame it around that.
    We framed MTSA around a transportation security incident 
that looked at significant loss of life or direct impact on the 
transportation--significant impact on the transportation system 
as the baseline. You have to decide that, I think, again, 
inland for those facilities. Then I would craft legislation 
very similar to the protective measures when it comes to 
industry's responsibility to execute security around their 
facilities. And I think that you may have some nuances in that 
maybe trucks go to one location where we have fleeting barges 
in a location, maybe trucks or railroad--trains have places 
that they may come together different than we do for barges. 
But I think you are going to have to look at the nuances 
between the transportation systems and the storage systems and 
develop it from there.
    But I think the framework is in place, and I think it is 
something, too, that we have seen that industry and a portion 
of the States and the local enforcement entities understand. So 
why would you want to create something that is so new or so 
different than now if I am over here on this side of the street 
I work this way, if I am on this side of the street, I have to 
do something completely different.
    Senator Carper. That sounds like pretty good advice. Thank 
you. Thanks for your service as well and being with us today.
    Admiral Bone. Thank you, sir.
    Senator Carper. Thank you, Madam Chairman.
    Chairman Collins. Thank you.
    Thank you very much, Admiral. I think now we will be 
consulting with you as we begin to draft the legislation over 
the August recess, and I hope we can call upon you for advice.
    Admiral Bone. Yes.
    Chairman Collins. Thank you.
    I would now like to call forward our second panel, which 
consists of three security chiefs from different parts of the 
chemical sector as well as a local emergency manager. Our first 
witness will be Beth Turner. Ms. Turner is the Director of 
Global Operations Security for DuPont and is responsible for 
the security of DuPont's operating assets around the world. Ms. 
Turner led the American Chemistry Council team that developed 
the original Responsible Care Security Code, about which we 
have heard so much, and the team also reassessed the code in 
2004. She is currently serving as Chairman of the Chemical 
Sector Coordinating Council. Welcome.
    Our second witness is Jim Schellhorn, the Director of 
Environmental Health and Safety for Terra Industries. Mr. 
Schellhorn is responsible for security for Terra's North 
American operations. In addition to providing testimony about 
his own experience with security for Terra's fertilizer 
facilities, he will be representing the views of the Fertilizer 
Institute, and we thank you for being here today.
    Third, we will hear from John Chamberlain, who is the 
Corporate Security Manager for Shell Oil Company. Mr. 
Chamberlain has years of experience working with Shell's 
refineries, chemical plants, and distribution terminals, as 
well as more than 30 years of law enforcement experience. He 
also serves as the Vice Chairman of the Security Committee for 
the American Petroleum Institute and will be representing both 
API and Shell today.
    And last, but certainly not least, we will hear from Chief 
Robert Full, who is the Fire Marshall and Emergency Management 
Coordinator for Allegheny County in Pennsylvania, an area that 
encompasses the city of Pittsburgh. Chief Full has more than 
three decades' experience with hazardous materials and chemical 
safety. He has been a volunteer firefighter for 34 years and 
the county's emergency manager for the past 7 years. He chairs 
or has chaired the local emergency planning committee for the 
last 6 years.
    I would also note that he has had firsthand experience with 
terrorism. On September 11, when Flight 93 crashed in Somerset 
County, Chief Full was part of the team that responded to that 
tragedy. Chief Full, we welcome you as well.
    Ms. Turner, we will start with you. Thank you.

   TESTIMONY OF BETH TURNER,\1\ DIRECTOR, GLOBAL OPERATIONS 
  SECURITY, E.I. DUPONT DE NEMOURS AND CO., INC., WILMINGTON, 
                            DELAWARE

    Ms. Turner. Thank you very much, Madam Chairman and Senator 
Lieberman. Distinguished Members of the Committee, it is my 
pleasure to be here with you today. My name is Beth Turner, and 
as the Chairman indicated, I am Director of Global Operations 
Security for DuPont. In that responsibility and that role, I 
have responsibility for the security of our operating assets 
around the world, and the Chairman has indicated some of the 
other roles that I have so I will not repeat those. But it is a 
pleasure to be here, and thank you for the opportunity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Turner appears in the Appendix on 
page 238.
---------------------------------------------------------------------------
    My testimony will first address the actions that DuPont has 
taken to protect our employees, our communities, and our 
facilities, so first I will cover that; second, our views 
regarding the critical security legislation that we are here to 
discuss; and third, some brief comments on our activities and 
working with industry programs.
    For over 200 years, DuPont has focused on safety. The 
founders of our company established an uncompromising 
commitment to safety when we opened our first gunpowder 
operation in Delaware, and that safety commitment continues 
today. Our focus on safety is driven by what we, in DuPont, 
know as our core value commitment to our employees and the 
communities in which we operate.
    So, in that context, the world-changing events of September 
11, 2001, compelled us to view security in a different light. 
Quickly after the 2001 attacks, senior corporate leadership 
made security a high priority by integrating it into the 
company's safety core value, and this sent a very strong and 
powerful message across the company about the importance of 
security. The bottom line of that change is hardening and 
heightening of security at our facilities across the company. 
We assessed over 500 locations worldwide, and we used a risk-
based approach to sort these facilities into categories, and we 
called the highest category Category 1 facilities. A security 
leader was designated at each of these locations to become a 
focal point for security. These site security leaders have 
worked tirelessly since the events of 2001, and it is their 
outstanding work that I am so pleased to recognize today to 
this Committee.
    These security professionals partnered with process safety 
professionals in our company and conducted security 
vulnerability assessments of our Category 1 facilities, looking 
at equipment, staffing, procedures, the practices we have in 
place, and our preparedness. We accelerated the timing for the 
overall vulnerability assessment process and completed our 
upgrades and our verification of all Category 1 sites 9 to 12 
months ahead of the American Chemistry Council deadline for 
that work.
    While I cannot speak publicly about specific measures that 
we took, I can describe in general terms the types of upgrades 
that we have implemented at our U.S. Category 1 facilities so 
you get an idea of the kinds of things we have done.
    Equipment upgrades include fencing, motorized gates, 
turnstiles, signage, access control systems, video 
surveillance, additional lighting, fence-associated electronic 
intrusion detection systems and alarm monitoring, crash gates, 
and barricades. We have since implemented a special maintenance 
program to ensure that this new equipment remains functional 
and reliable, and we have another round of upgrades currently 
underway.
    Other measures that we implemented include increased 
patrols of site perimeters, significant reductions in traffic 
coming on site, more stringent identification checks, and 
increased inspections of rail cars, vehicles, and other trucks 
and other vehicles on site.
    In addition, our entire workforce is very alert to 
suspicious activities, and I will talk more about that in just 
a few minutes.
    Security officer staffing has been significantly increased. 
These officers received additional training, and they are 
continually retrained.
    Strong process safety management is a key part of our 
DuPont safety culture, and it is a very important means to 
protect our employees and our contractors. Process safety 
analyses are performed to identify ongoing improvements, and 
they consistently include inherently safer evaluations.
    We require extensive criminal background checks for all 
employees upon hiring and all contractors that seek access to a 
DuPont U.S. site.
    We have long-standing relationships with local law 
enforcement and emergency planners, and these relationships 
have been reinforced. Together, we train, we drill, we 
exercise, we work together on investigation of suspicious 
activities. We are active in local emergency planning 
committees and mutual aid groups and, in fact, we offer our own 
DuPont transportation emergency response teams to assist other 
companies in transportation incidents.
    We work with a range of trade associations and Federal 
Government agencies such as DHS, the Coast Guard, the FBI, and 
the Joint Terrorism Task Forces, and we have found government 
to be a very willing and helpful partner in our efforts to 
secure our sites.
    When the national threat level is elevated, security 
measures are immediately reassessed by headquarters and by 
individual sites, even if there is no connection to the 
chemical industry or DuPont. Additional measures that we might 
implement are determined based on the specific threat 
environment at the time. Each DuPont Category 1 site has 
carefully planned for security actions that might be required 
in extreme circumstances, and we have an automated crisis 
notification system that can contact all of these sites within 
10 minutes or less.
    Perhaps the most powerful security measure activated since 
September 11 is the involvement of our employees and our 
contractors. They have been trained to be alert and to report 
anything unusual, and believe me, they do.
    In summary, DuPont and our employees have done a lot, and 
our security enhancements are continuing. We recognize that an 
effective security program is a journey. It requires constant 
vigilance and continual improvement, and we are committed to 
that.
    So now I would like to turn to the Federal legislation. 
While many security measures have been implemented voluntarily, 
we believe that there is an important role in government to 
ensure that all chemical sites are taking appropriate action. 
Accordingly, DuPont supports meaningful and effective 
legislation and believes that ten important elements should be 
addressed, and I now will go through those briefly.
    First, we believe the legislation must have a clear 
security focus so that we get the job done in a timely and 
effective manner.
    Second, legislation should be risk-based so that government 
and the private sector resources can focus where they can 
provide the greatest benefit.
    Third, we believe that regulatory authority for the 
chemical sector should reside with DHS. DHS and the sector are 
already working together and also DHS regulates portions of our 
sector through the Maritime Transportation Security Act, as has 
been discussed.
    Fourth, we believe that chemical security legislation 
should be guided by a clear Federal program rather than a 
patchwork of State and local programs.
    Fifth, it is important to recognize the different yet 
complementary roles for government and the private sector in 
security matters. The private sector can and should take 
reasonable steps to secure its facilities against threats, but 
it is the role of government to defend the Nation's 
infrastructure.
    Sixth, flexibility is important. Our sector is very 
diverse. In DuPont alone, we operate thousands of chemical 
processes, employing a wide range of raw materials in both 
rural and urban locations. Chemical security legislation should 
be risk-based and allow DHS to tailor its regulations with the 
diversity of the sector in mind.
    Seventh, is the Maritime Transportation Security Act. It 
has proven, in my opinion, to be a very effective security 
regulation for DuPont facilities, and I suggest that it be a 
model for regulating the highest-priority facilities.
    Eighth, the work already done under programs such as 
Responsible Care and the Maritime Transportation Security Act 
has materially enhanced security, and these prior efforts must 
be credited.
    Ninth is the protection of sensitive security information, 
and protection of that information is critical. We must obtain 
strong protection for information that we need to ensure does 
not get into the hands of the wrong people.
    The final issue is inherent safety, commonly referred to as 
inherently safer technology, or IST. As the Committee knows, 
IST is a process safety matter, and we believe that it should 
stay with the safety arena and not be mandated in the chemical 
security context. DuPont believes that inherently safer 
technology is a mainstream component of process safety and that 
it has an important role to play in security. And inherently 
safer has not only been an integral part of our process safety 
system for many decades. In addition, it is now part of the 
security vulnerability assessment process that we all ran and 
the teams that conducted those assessments included both 
security and safety professionals at the table, the safety 
professionals being the ones that understand IST.
    Each chemical process is complex and unique, a complex 
array of piping and pressure vessels, tanks, pumps, valves, raw 
materials, and operating conditions at a variety of 
temperatures and pressures. So given the complex and unique 
nature of each process, safety evaluations do require special 
expertise and consideration of a wide range of possibilities 
for inherently safer operation. Therefore, companies must have 
the flexibility to assess and decide upon options.
    I was also asked to comment on the Chemical Sector 
Coordinating Council in my role as Chair of the group. I am 
pleased to report that the council is strong, and after only 
one year of existence has tackled a number of substantive 
issues. I can speak further about the council during the 
question-and-answer session.
    In closing, Madam Chairman, I want to thank you and the 
Members of the Committee for allowing me to share what DuPont 
has done to build a strong security system and process in place 
in our operations. We have very successfully integrated 
security, engagement, and responsibility into our culture, and 
we know there is more to do. We take this responsibility very 
seriously, Madam Chairman, and we appreciate the trust and the 
confidence that has been placed in us by the public and 
government. Therefore, we are taking the necessary actions to 
appropriately harden and heighten security across the company.
    Our corporate leadership is very committed to continually 
strengthening security. Security and safety of our operations 
are critical to our employees and neighbors and, in fact, are 
essential to the future of the company.
    Thank you very much for the opportunity to testify. We 
appreciate the important work of this Committee, and we have 
enjoyed working with you to date and hope we can do that in the 
future.
    Chairman Collins. Thank you. Mr. Schellhorn.

   TESTIMONY OF JIM SCHELLHORN,\1\ DIRECTOR OF ENVIRONMENTAL 
  HEALTH AND SAFETY, TERRA INDUSTRIES, INC., ON BEHALF OF THE 
                      FERTILIZER INSTITUTE

    Mr. Schellhorn. Thank you. Madam Chairman and Members of 
the Committee, I am Jim Schellhorn. I am the Director of 
Environmental Health and Safety for Terra Industries and am 
responsible for security for Terra's North American operations. 
I am here today to testify on behalf of The Fertilizer 
Institute. TFI is the leading voice of the Nation's fertilizer 
industry, representing the public policy, communication, and 
statistical needs of manufacturers, producers, retailers, and 
transporters of fertilizer. I appreciate the opportunity to 
appear here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schellhorn with an attachment 
appears in the Appendix on page 253.
---------------------------------------------------------------------------
    Terra is headquartered in Sioux City, Iowa. We are a 
leading international producer of nitrogen fertilizers. Our 
primary products are anhydrous ammonia, ammonium nitrate, urea, 
and urea ammonium nitrate solution. Our facilities operate 24 
hours a day, 7 days a week, and Terra employs approximately 
1,200 people in North America and the United Kingdom. We are 
proud of the vital role the fertilizer industry plays in modern 
agriculture.
    Fertilizer is essential to food production. Without the 
contribution of our fertilizers to crop production, roughly 
one-third of the world's population would be without food. 
Because food production depletes soil nutrient supplies, 
farmers rely on fertilizers to keep the soil productive. With 
the help of commercial fertilizer, North American farmers are 
able to produce the most abundant and affordable food in the 
world.
    The fertilizer industry is very diverse. Companies such as 
Terra produce and sell fertilizer into the retail distribution 
system, which in turn sells it to farmer customers. Most of our 
production and storage facilities, like many others in the 
industry, are located in rural communities. For instance, 
Terra's Verdigris plant, where I work, is located in a rural 
area of northeast Oklahoma near the Tulsa port of Catoosa. 
Because we produce and store anhydrous ammonia and because our 
operations include a waterfront facility, the Verdigris plant 
is subject to many Federal safety, security, and environmental 
regulations, including OSHA's process safety management 
standard, the U.S. Coast Guard's facilities security 
regulations under the Maritime Transportation Security Act, or 
MTSA, and EPA's risk management program requirements. Company-
wide, in the United States, Terra has five locations subject to 
MTSA and nine locations subject to PSM and RMP requirements.
    Shortly after the events of September 11, TFI formed a 
security task force, of which Terra is a member. In September 
2002, TFI's security task force developed and the board of 
directors adopted an industry Security Code of Management 
Practices designed to help the fertilizer industry secure the 
manufacture and transport of its products.
    The voluntary code calls on the industry to use 
methodologies developed by the Center for Chemical Process 
Safety, the Synthetic Organic Chemical Manufacturers 
Association, or an equivalent methodology when conducting 
security vulnerability assessments, or SVAs, and when making 
security-related improvements.
    The code establishes benchmarks for conducting SVAs and 
implementing security measures, for conducting employee 
training and drills, for communicating with law enforcement, 
conducting audits, and verifying physical site security 
measures through a third party, and the code provides timelines 
for these activities by ranking facilities at high, medium, and 
low risk levels.
    I would like to take a moment and discuss specific measures 
Terra has taken and continues to undertake to secure our 
facilities and the products we produce.
    After TFI developed the security code, we immediately began 
to conduct security vulnerability assessments and audits at all 
of our facilities. We used both outside law enforcement experts 
and internal resources to identify vulnerabilities, implement 
countermeasures, and develop security plans. The process we 
utilized ranked both our facilities and the vulnerabilities we 
identified based upon risk. Using those rankings, we began to 
address the highest risks first.
    Since September 11, Terra has installed many physical 
security improvements, including additional lighting, fences, 
physical barricades, and video monitors at strategic locations. 
All gates are locked when unattended, and facility access is 
tightly controlled by security or Terra employees 24 hours a 
day, 7 days a week. All of our product carriers and drivers are 
pre-approved. All deliveries to our facilities are checked at 
the gate prior to authorizing access. And criminal background 
checks are required for all contractors and all Terra 
employees.
    We have also recently implemented a system to ensure 
delivery receipts for all truck shipments of ammonium nitrate 
from Terra-owned facilities. All of our facilities now have 
active security plans, and our waterfront facilities are in 
compliance with the Coast Guard facility security regulations.
    Terra Industries and other members of TFI have undertaken 
tremendous efforts to ensure that criminals intent on harming 
our country cannot purchase and misuse fertilizer products. For 
example, after the tragedy in Oklahoma City in 1995, the 
fertilizer industry partnered with the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives in outreach programs called 
``Be Aware for America'' and ``Be Secure for America,'' which 
were aimed at protecting our products and our places of 
business.
    After the terrorist attack on September 11, the fertilizer 
industry launched ``America's Security Begins with You,'' a new 
program, which has been endorsed by ATF, the Department of 
Homeland Security, and the Association of American Plant Food 
Control Officials, who regulate fertilizer at the State level. 
The campaign urges that security plans be developed and 
implemented, records of sales be maintained, and that law 
enforcement be alerted to any suspicious activity.
    These programs have primarily focused on ammonium nitrate, 
the fertilizer used in the Oklahoma City bombing. Recognizing 
the changing nature of the Nation's security, Senators Cochran, 
Pryor, Roberts, and Chambliss recently introduced the Secure 
Handling of Ammonium Nitrate Act of 2005. The bill directs the 
Department of Homeland Security to promulgate regulations 
requiring all facilities that handle ammonium fertilizer to 
register at the State level and maintain records for all 
purchases of ammonium nitrate. The fertilizer industry's 
support of the Senate legislation--and parallel legislation 
introduced in the House--takes the industry's voluntary 
programs to the next level through the creation of a uniform 
Federal set of rules for sellers and purchasers of ammonium 
nitrate.
    We believe that chemical facilities will most effectively 
address security when given the flexibility to use measures 
that will address the risks specific to each facility. Quite 
simply, we at Terra and others in the industry have not 
employed a one-size-fits-all approach at our facilities, and we 
believe that legislation requiring us to do so would be 
counterproductive.
    Equally important, Congress must recognize the security 
measures already taken and facilities covered under other 
Federal regulations, such as the Coast Guard's facility 
security requirements, to avoid duplicate regulations.
    There has also been considerable debate over whether 
Congress should mandate the use of inherently safer 
technologies, or IST. IST is not a security measure. It is a 
safety concept that has been misapplied by some groups in a way 
that we fear could lead to the ban or restricted use of basic 
nitrogen fertilizers. For instance, if anhydrous ammonia 
manufacture was banned in the United States as a result of an 
IST mandate, there would be no nitrogen fertilizer 
manufacturing in the United States because ammonia is the basic 
feedstock for all other nitrogen fertilizer. U.S. farmers would 
have to rely on imported fertilizer to grow their crops, and 
indirectly, the American public would have to rely on foreign 
fertilizer for their food supply.
    Terra and the fertilizer industry are not opposed to 
evaluating process safety of our operations and considering 
potential safety improvements. On the contrary, process hazard 
analyses and risk assessments we have conducted as part of our 
PSM and RMP programs and the security vulnerability assessments 
we have performed include consideration of ways to minimize 
hazards. However, this type of hazard assessment can only work 
when applied by a site owner's engineers and safety 
professionals who truly understand the facility's operations.
    Madam Chairman and Members of the Committee, American 
farmers, fertilizer producers, and retailers are committed to 
security. We have demonstrated that commitment through the 
significant number of voluntary security steps we have taken 
and will continue to take. Without question, we very much want 
to help Congress in its endeavors to shield this country from 
acts of terrorism. We support Department of Homeland Security 
Secretary Chertoff's efforts to evaluate the Nation's 
vulnerabilities and prioritize the Federal Government's 
response based on risk assessment.
    As the Federal Government proposes its suggestions for 
chemical facility security legislation, we recommend such 
proposals be based on reasonable, clear, and equitable 
performance standards. TFI and its members believe that to be 
effective, fair, realistic, and feasible to implement, the 
legislation must: Provide for the varying levels of risk posed 
by different kinds of chemical facilities; recognize the 
security measures our industry has already taken and complement 
Federal regulations with which we already comply; and reject 
attempts to mandate inherently safer technology.
    Furthermore, we urge that the Federal regulations preempt 
any such action by State or local governments. Layering Federal 
regulation upon a patchwork of State regulations is, at best, 
inefficient and, at its worst, an impediment to efficient 
compliance.
    I thank you for the opportunity to testify and look forward 
to answering any questions you might have.

 TESTIMONY OF JOHN P. CHAMBERLAIN,\1\ SECURITY MANAGER, ASSET 
PROTECTION SERVICES, CORPORATE SECURITY, SHELL OIL COMPANY, ON 
    BEHALF OF SHELL OIL COMPANY AND THE AMERICAN PETROLEUM 
                           INSTITUTE

    Mr. Chamberlain. Chairman Collins, Ranking Member Lieberman 
and Members of the Committee, my name is John Chamberlain. I am 
a Manager with Corporate Security for Shell Oil Company. I also 
serve as the Vice Chairman of the Security Committee for the 
American Petroleum Institute. I have many years of experience 
working with Shell's energy operations, and also 30 years of 
law enforcement experience.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chamberlain appears in the 
Appendix on page 264.
---------------------------------------------------------------------------
    I am pleased to appear before you today to testify on the 
issue of chemical security, representing both Shell Oil and the 
American Petroleum Institute, API.
    The U.S. oil and natural gas industry is committed to 
protecting the reliable supply network of fuels and products to 
keep our economy growing. Our industry has long operated 
globally, and often in unstable regions overseas, where 
security is an integral part of providing for the world's 
energy needs.
    After September 11, 2001, the industry partnered with 
Federal, State, and local authorities to reevaluate and 
strengthen our domestic security. Within months of the attack, 
the industry developed security measures for all segments of 
the oil and gas network, including pipelines, refineries, 
terminals, and others.
    One reason I believe the industry was able to move so 
quickly is that we have high caliber security professionals 
with both military and law enforcement backgrounds on our 
staff. These former FBI, Secret Service, and Delta Force 
personnel are experts in physical security, and they are 
employed protecting our industry's assets. A large number of 
security personnel in the oil and gas industry, including 
myself, have security clearances necessary for classified 
briefings we have with the Federal intelligence community, and 
that is important.
    I want to speak briefly about two areas: one, the numerous 
broad actions to address security in the energy sector that we 
support, including industry actions, Federal security laws, and 
public/private sector partnerships; and two, I want to talk 
about specific proposals that we think would be 
counterproductive to security.
    Although it is rarely reported on, the oil and natural gas 
industry, in partnership with government agencies, has taken 
quite thorough and painstaking actions to improve security. We 
have operated under new Federal security law, Federal security 
partnerships, industrial practices, and enhanced intelligence 
sharing networks, and we support these ongoing efforts. Little 
has been communicated about the actions that Congress, 
industry, government agencies, State and local first responders 
have taken. Examples of these actions are--what we heard 
today--the Maritime Transportation Security Act, the TSA 
background check requirements under the PATRIOT Act, and the 
Department of Transportation's security requirements for 
hazardous materials, all security laws that we operate under 
and support.
    The industry collectively created industry-wide methods to 
address two stages of security, first finding the weaknesses 
and then protecting them. First API and the National 
Petrochemical Refiners Association produced the methodology for 
SVA or Security Vulnerability Assessment. This is a method for 
managers to identify security vulnerabilities in the wide range 
of oil and natural gas operations. This SVA methodology is 
sophisticated. It is a risk-based tool used to identify the 
security hazards, threats and vulnerabilities. We co-wrote this 
with the Department of Energy's security personnel, and DHS 
today is using this methodology to train their field 
inspectors.
    I would like to submit a copy of this document for the 
record.\1\
---------------------------------------------------------------------------
    \1\ The document entitled ``Security Vulnerability Assessment 
Methodology for the Petroleum and Petrochemical Industries, Second 
Edition,'' October 2004, American Petroleum Institute, NPRA, submitted 
by Mr. Chamberlain appears in the Appendix on page 277.
---------------------------------------------------------------------------
    Chairman Collins. Without objection, Mr. Chamberlain. Thank 
you.
    Mr. Chamberlain. In addition, this security tool is 
accepted by the American Chemistry Council's Responsible Care 
Code and is an example of the government-recognized industry 
practices that are now in operation in this business.
    API and Federal security personnel next completed the 
Security Guidelines for the Petroleum Industry. This booklet 
instructs operators and plant managers in how to protect 
facilities and respond to changes in the threat level. The 
third edition was completed earlier this summer. These are 
working methods and countermeasures the oil sector uses to 
protect all segments of industries, and I would like to also 
submit this after testimony.\1\
---------------------------------------------------------------------------
    \1\ ``Security Guidelines for the Petroleum Industry,'' American 
Petroleum Institute, April 2005, submitted by Mr. Chamberlain appears 
in the Appendix on page 428.
---------------------------------------------------------------------------
    Chairman Collins. Without objection, Mr. Chamberlain. Thank 
you.
    Mr. Chamberlain. Some legislators may be tempted to treat 
security as a concern to be addressed with proscriptive 
inflexible regulations. This would result in a one-size-fits-
all approach that provides a roadmap for terrorists in my 
opinion. We ask that you recognize that a terrorist, unlike a 
pollutant or physical workplace environment, is clever, 
deliberate, and has the ability to adapt against a checklist of 
arbitrary rules. This is one reason we value our close 
professional partnership with government, industries, and the 
intelligence community.
    Let me give you an example of a more risk-based approach. 
Like other integrated oil companies, Shell and other API 
members have joined with the Department of Homeland Security in 
developing a common system for comparing security risks across 
the Nation's very critical infrastructure. The system is called 
Risk Assessment and Management of Critical Asset protection and 
has the acronym of RAMCAP. It will give Congress and the 
Executive Branch, through the Department of Homeland Security, 
the tools they need to make decisions and allocate resources 
for security. We support the risk-based concept being adopted 
in the RAMCAP program.
    Overall, we hope that you would avoid provisions that would 
be counterproductive to the gains that we have made in security 
since September 11. There are specific proposals that we have 
concern would be disruptive to our industrial security 
operations. Although we are in the energy business, some 
proposals to address the security of chemical sites could 
affect the energy industry, as well as agricultural, water 
treatment, food, dairy processing, and other small businesses. 
These U.S. industries and farms are essential for our national 
security and economic vitality and are not traditionally 
thought of as chemical industry facilities.
    Concerning inherently safer technology, we strongly oppose 
any environmental mandates for inherently safer technology 
pursued under the guise of security. It would be 
counterproductive to protecting our infrastructure. Security 
law covering companies should be risk-based and not seek to 
legislate out the elimination of all risk, which quite frankly 
is impossible. Private farms and company facilities that need 
to use dangerous substances intensify their security plans 
based on the risk level.
    Infrastructure security laws already passed by Congress, 
such as the Maritime Transportation Security Act, the 
Bioterrorism Act, require vulnerability assessments and 
security plans for private facilities and vessels, but they do 
not create a new requirement for IST. In fact, no other 
security law requires IST and that is for good reason.
    First, creating an inherently safer technology requirement 
for farms and businesses and others in the name of national 
security could actually increase risk. For example, in reducing 
volumes of hazardous chemicals stored at a facility, you may 
reduce the on-site risk, but consequently you could increase 
the transportation risk where the material has to be 
transported by rail, truck, or barge traffic to the site that 
used to keep it on site, and this could potentially increase 
risk to the overall system.
    Under new IST authority, a government order for a change to 
materials or processes could very well result in accidental or 
intentional harm and create a new liability for complying with 
the law. Process safety concepts are already incorporated under 
existing Federal health and safety requirements. They are both 
in the Occupational Safety and Health Administration's Process 
Safety Management Program and the EPA's Risk Management 
Program.
    American farms and companies will continue to comply with 
Federal and State and local requirements as they are today. 
Farms and company facilities, through self-interest, consider 
the safest, most innovative and cost-effective technology as 
they do business. New government mandates for IST could require 
bureaucrats without expertise and courts to determine the best 
technology of businesses. Creating a new security IST authority 
will allow government micro-management in mandating 
substitutions for all processes and substances, and this would 
greatly inhibit and limit operational flexibility and 
innovation.
    I want to mention information protection, too. It has been 
mentioned earlier. But in addition to FOIA exemption, I believe 
information protection is extremely important in anything to do 
with security legislation. I would like to see additional 
protections made to prevent the leak of vulnerability 
information which could provide a roadmap to terrorists or 
other criminals. Any information developed in regard to this 
security legislation should be protected from civil discovery.
    I want to mention, too, MTSA. We have heard a lot about it 
already. Should the Committee conclude that new legislation is 
needed, we would suggest that it not apply to facilities 
already covered under the existing MTSA legislation. We would 
also suggest that sites that contain areas only partially 
covered by MTSA have the option for the entire facility to be 
covered by MTSA instead of a new law, something the Senator 
questioned the Admiral about earlier. We would support that as 
it would avoid conflicting regulations in a single facility, to 
have part of it under MTSA and part of it under some other 
requirement when you have a common management for the site.
    Examining the MTSA security law, I would like to highlight 
a few characteristics for your consideration. In implementing a 
broad new security law, the Coast Guard has overall done a 
successful job without impeding the commerce it protects. This 
is a credit to the Coast Guard century-long experience in 
protecting onshore and offshore commerce, as well as the 
existing relationships of local stakeholders and the respective 
captains of the port. Without this security expertise and these 
relationships with private sector operations, the MTSA would 
not have been able to be successful. Many agencies do not have 
the security expertise of the Coast Guard and should not have 
responsibility for counterterrorism.
    Like the MTSA, other Federal security laws have protected 
and strengthened our infrastructure, instead of having a 
Federal bureaucracy attempt to redraw or micromanage how 
private operators function. In other words, we believe that a 
security rule or law has to be a risk-based philosophy. The 
required security protections need to meet the risk under which 
the facility is operating.
    In conclusion, oil and natural gas operations are safer now 
and more secure as a result of the public/private partnerships 
and numerous new Federal security requirements. We urge the 
Committee to carefully consider the effect any new Federal law 
would have upon existing security laws, industry practices, and 
the partnerships that have been developed with government thus 
far.
    The oil and gas industry is committed to protecting the 
reliable supply, supply network of fuels and products to keep 
our economy growing, and whether or not new security 
legislation is passed, we are going to continue to work with 
the government to consistently reevaluate and improve security 
of U.S. oil and gas operations.
    I thank you.
    Chairman Collins. Thank you. Chief Full, welcome.

 TESTIMONY OF CHIEF ROBERT A. FULL,\1\ FIRE MARSHAL/EMERGENCY 
  MANAGEMENT COORDINATOR, ALLEGHENY COUNTY (PA) DEPARTMENT OF 
                       EMERGENCY SERVICES

    Mr. Full. Good morning, Chairman Collins and Senators. It 
is a distinct honor and privilege to be invited here to testify 
on behalf of chemical facility security today and its impact to 
the local and county level of government. My County Chief 
Executive, Dan Onorato, extends his appreciation for this 
opportunity as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Full appears in the Appendix on 
page 272.
---------------------------------------------------------------------------
    I speak this morning as a 30-year first responder as a 
firefighter, paramedic, and a hazardous materials technician, 
as both a career professional and a volunteer firefighter from 
Allegheny County in Southwestern Pennsylvania. I serve as my 
county's local Emergency Management Coordinator, and also the 
local Emergency Planning Committee Chairperson. I also have had 
the privilege to serve as the chairman of one of our Regional 
Counterterrorism Task Forces in Pennsylvania, representing 13 
counties, a population of 3.1 million people, which would also 
include the city of Pittsburgh.
    Allegheny County in Pennsylvania has the city of Pittsburgh 
as its county seat and is famous for Three Rivers, steel 
making, research centers, world class medical systems, 
education institutions such as the University of Pittsburgh, 
Duquesne, and Carnegie Mellon, major transportation systems, 
and the Pittsburgh Steelers and Pirates. The county covers some 
730 square miles with a population of 1.3 million residents, 
and most unusual, with 130 separate local municipalities.
    This morning as I awoke early to fly here, I took a shower 
and made my coffee with crystal clean and safe water. My 
clothes have synthetics in them. The breakfast fruits that I 
enjoyed were free from bacteria and were hearty from the vine. 
The fuel in both my car and the airplane I flew in worked 
extremely well today. As I look around here I see so much of 
the positives and the need for a strong and safe chemical 
industry. It has been said and reinforced that one of the main 
reasons the United States enjoys the highest standard of living 
is through the use of our chemicals in all aspects of our daily 
lives.
    On behalf of those that I represent, the first responder 
community and local government, we could not agree more in the 
need to support and protect our chemical industry. I am humbled 
to be with such fine representatives of the chemical industry. 
I know personally firsthand the representatives from these 
various organizations have done an outstanding job in working 
with us at times at the local level to provide us training and 
resources so we can better serve the public.
    As a first responder, paramount to the success of doing 
your job is to be able to protect lives and property during 
emergencies. An individual comes into public safety as a first 
responder and he/she is primarily trained to deal with the 
aftermath of an incident which was caused by perhaps an 
accident, an act of God, or an intentional act.
    Every day in this country the men and women of our public 
safety departments, police, fire, emergency medical services, 
911, demonstrate great courage and conviction to be the best 
they can be. These folks plan, train, exercise, and respond to 
any emergency no matter what the case. No matter how good a 
public safety organization is, there will be times that their 
training, skills, knowledge, capabilities will be overwhelmed, 
or they may not have the expertise to deal effectively with the 
situation.
    To minimize this scenario, having a strong emergency plan 
and relationships with pertinent persons in advance pays 
dividends each day at the local level across America. It is 
cliche, but it is not the time or place to exchange business 
cards during the time of an emergency.
    I would like to focus now on chemical safety. In 1986, the 
Federal Government enacted the SARA Title III, Emergency 
Planning and Community Right to Know Act. The overall success 
of this law cannot be overstated and can be measured in my 
county and throughout the country by the reduction in chemical 
spill emergencies, better informed employees and responders 
during emergencies, Federal, State, and local government input 
and coordination, and so much more.
    In my career I have had an opportunity to specialize in 
hazardous materials response emergencies. I was the first city 
of Pittsburgh Hazardous Materials Chief and served in that 
capacity for 13 years, and today I oversee five hazardous 
materials teams in my county, and I have logged in excess of 
2,000 responses to hazardous material emergencies.
    I have come to see firsthand the potential life-threatening 
situations that are involved when chemicals are accidentally or 
intentionally released from their containers and processes. The 
chemicals and materials are found in fixed facilities during 
production, transfer, storage, and along with the 
transportation to and from market via highway, railroad, water, 
air, and pipeline. Responding to chemical spills requires quick 
informed decisionmaking along with specialized tools and 
equipment. Incidents of vapor clouds, running liquid spills, 
unidentified products, and fires severely complicate local 
response actions, many times to the point that a community may 
not be able to react fast enough to save its residents. 
Transportation accidents involving chemicals provide even a 
greater challenge as they move in and out of our neighborhoods, 
by our schools, homes, and places of business.
    The SARA Title III law targeting fixed chemical facilities, 
followed by similar legislation in my Commonwealth of 
Pennsylvania, has directly contributed to saving lives, 
property, and the environment. The SARA law has allowed us to 
be proactive through planning, training, and networking versus 
reacting and always responding to the unknown and not knowing 
the players when you get there. The Federal Government has 
served us all well with this law, but we need to update some of 
the provisions to meet the needs of today.
    I believe we all knew it would come some day or another, 
and never did any of us expect it to come in a manner so 
coordinated with such devastating results as it did on 
September 11. It did, and we should have learned from it and 
should not forget. I was always told by my father that mistakes 
and accidents can and will happen. Most importantly you learn 
and work to make sure that you do not make the same mistake 
twice. We may have missed it the first time to a degree, but 
let us do everything to prevent it from happening a second 
time. The next time when it comes, we are told by the top 
security minds in our government, it may be greater in 
magnitude with even more loss of life and property, utilizing 
weapons of mass destruction, involving chemicals, biological, 
nuclear, radioactive materials, and explosive devices. We need 
to get and be ready now.
    At the local government and first responder levels we are 
concerned that our residents believe that we can protect them 
effectively against the threat of WMD and chemical releases 
from a terrorist act, which could easily be one of our own 
chemical facilities in our neighborhoods.
    Our men and women on the front lines in our communities 
have been working hard in getting some of the special training 
and have begun to reap the benefit of some of the generous 
homeland funding that has been provided by this Congress and 
the President by putting new specialized equipment in the hands 
of first responders and local governments and extra training. 
The sharing of intelligence between the levels of government 
has not been better. However, we are not where we need to be as 
of yet and have a long way to go, but we are better off today 
than we were yesterday.
    Terrorism threat assessments and uniform strategies that 
deal with them are a common requirement and a need at all 
levels of government. In looking at all the potential hazards 
and threats to our communities, chemical facilities and their 
transportation rise with just a few others to the very top. It 
is not that we do not know what is in the plant or what is 
being transported in most cases. We do, through the impact of 
the Federal and State laws. But we do not know for sure what 
safety and security measures are in place to keep something or 
someone from getting to them. Can the bad guys use them against 
us? The fact is that there are some chemicals and materials, if 
released from their containers for whatever reason or by a 
terrorist, that can greatly cause injury and death to our 
unprotected public. We have to make sure that we do everything 
in our collective powers to make sure that we understand and 
make chemical facilities and their transportation safe.
    Madam Chairman and Members of this Committee, today you are 
hearing from some of the most notable and responsible chemical 
companies in our country. I have had the opportunity to work 
with these folks and their people in safety and response 
personnel. The communities are top notch, well trained. They 
have excellent plans. They are in good financial condition and 
have in most cases good security systems.
    Unfortunately, that is not the case around the country for 
many of us at the local level. There are so many other 
companies that are in our neighborhoods that are less fortunate 
that really concern us and pose a unique risk. These companies 
will not do anything unless there is some force of law to cause 
them to do it.
    The American Chemistry Council has done a good job in 
stepping up to the plate with providing a voluntary program 
with materials and training on chemical plant security. A 
problem exists that it is voluntary, and second, not all 
companies belong to the Council, especially in my county.
    Today we have an opportunity to be proactive versus 
reactive. Chemical plant safety and transportation is an issue 
that needs to be and should be addressed on a national level to 
ensure uniformity, and not at the State level, even though my 
State government has a fabulous State law that was enacted 
utilizing the SARA law and additional legislation from the 
Federal Government as a template.
    I do not have a political or legislative expertise on 
whether or not a new law or tweaking an old one is the best way 
to go. I leave that, and the people that I represent, we leave 
that to you.
    I was around in the 1980s when there was a great outcry 
from the chemical industry about how the SARA Title III law was 
unnecessary and that the industry voluntary program for 
planning and response was more than adequate. The law almost 
was not enacted. It took a real wake-up call. It took several 
thousands of folks to die in Bhopal, India, coupled with an 
incident in West Virginia that was just on the brink of 
catastrophe to raise enough concern that our Congress enacted 
the law.
    Today we hear some of the same in different forms, or you 
have heard some of the same perhaps from other folks testifying 
before you in the past. Security, trade secrets, plans, 
products, we have heard it all before. What if it gets out, 
etc.? Together we can work it out.
    The local governments and the people that are going to be 
responding to these incidents need to be a part of the process 
and be part of the solution because we are the ones on the 
front lines who are going to be out there responding when that 
emergency comes in, no matter what. We speak to international 
terrorism, but we know that we have grown some phenomenal 
terrorists at home as well. That is not to say that even a 
domestic terrorism event cannot be superseded by somebody who 
is mentally deranged, whether he is an employee of the company 
or not.
    I do not know of many trade secrets that have been given up 
or critical information that has been given out. If so, then 
that information and those folks that made that available 
inappropriately should be held accountable and sanctions for 
doing so should be applied.
    LEPCs have been a great tool to ensure effective planning 
and community safety. We can have experienced security people 
look over the plans as necessary. I do not advocate LEPCs as a 
policing agency by any stretch of the imagination for security. 
We can utilize the JTTFs, which are in place around the 
country. We have great relationships with U.S. Coast Guard, 
Department of Homeland Security, and our local law enforcement, 
but I do advocate that we cannot appreciate or effectively plan 
for incidents within our jurisdictions without the full benefit 
of all aspects of the hazards, the risks, and the 
vulnerabilities that we face.
    The public is counting on us. I know my residents are 
counting on me and the 10,000 first responders in my county. 
Shame on all of us if we wait until it is too late. We can do 
something now, and we should move forward. Thank you.
    Chairman Collins. Thank you, Chief. I think your local 
Chamber of Commerce ought to give you a special award for 
getting in all of the advantages of the county in which you 
live, and some beyond them as well.
    At the end of your testimony you talked about an issue that 
we are going to have to deal with as we draft legislation, and 
that has to do with information sharing and the protection of 
sensitive security information. Under MTSA, the vulnerability 
assessments and security plans for individual facilities are 
maintained by the Captain of the Port, and a copy is also kept 
at the Coast Guard headquarters in Washington, DC. Do you 
believe that local law enforcement ought to also have access to 
or a copy of the vulnerability assessment? Where do we draw the 
line?
    I will tell you that one chemical company told me that the 
Coast Guard actually lost its security plan. And I have great 
respect and admiration for the Coast Guard, but it seems to me 
if we are concerned about information that that was not a good 
indicator. But who should have access? Where should these 
vulnerability assessments, which obviously contain very 
sensitive information, and security plans be kept and who 
should have access to them?
    Mr. Full. Well, clearly, we have heard today, Senator, that 
there is an outstanding program that goes on where the Coast 
Guard does deal with the maritime issues of chemical plant 
security. I believe that those files, they are kept with the 
Captain of the Port, is just that, they are kept with the 
Captain of the Port right now.
    I would argue the fact that a good bit of that information 
that has probably been developed has been developed without any 
local input or any knowledge of the local responders that may 
be involved with that in concert with local law enforcement or 
anybody that is familiar with security aspects from anywhere 
other than the maritime folks.
    Chairman Collins. Mr. Chamberlain, what is your answer to 
that? What is your advice to the Committee on how can we strike 
the right balance between ensuring the security of this very 
sensitive information, and yet making sure that if someone like 
Chief Full, who is going to be called upon to respond, 
understands what security issues or vulnerabilities may exist 
at a plant?
    Mr. Chamberlain. The facility security plan goes into 
tremendous amount of detail on single-point sources that could 
shut down your facility, basically your Achilles heel, and that 
is what you are going to identify and then protect against. 
Those types of things I think need to be kept classified, as 
they are today.
    We work closely, and our facilities, wherever we operate, 
have close relationships with local first responder groups. We 
usually have various law enforcement and safety committees that 
we are active on, so we are not trying to surprise anybody in 
the types of issues that they may need to be responding to. The 
response is typically going to be after the fact, after 
something has occurred. Part of the plan is to try to prevent 
something from occurring. I think what you have under MTSA is a 
very workable approach. It has worked so far so well.
    Chairman Collins. Mr. Schellhorn, should chemical 
facilities maintain vulnerability assessments and security 
plans on their site or on file with the Department of Homeland 
Security in Washington? What are your views on this as we are 
drafting legislation?
    Mr. Schellhorn. They certainly should maintain a copy of 
the vulnerability assessment on site, and we do that now under 
MTSA, and a copy of that vulnerability assessment and plan, I 
would think, would be submitted to the regulatory authority, 
like we do now under MTSA. I do not think a copy should be 
submitted to the local fire department or emergency management 
authority. My personal opinion is you want to limit the 
distribution of those plans and vulnerability assessments.
    However, what we have done is we invite the local 
authorities, the local emergency management agency, the LEPC 
chairman, the local law enforcement authorities to our 
facility. We share the details of our security plan and our 
vulnerability assessment with those individuals at our site so 
that they are familiar with what we are doing and familiar with 
the details of our security program.
    Chairman Collins. Ms. Turner, what is the right balance 
here from your perspective? How do we ensure that this very 
sensitive information does not fall into the wrong hands, and 
yet make sure that first responder groups or those who would be 
called upon to act in the event of a terrorist attack on a 
chemical facility or an accidental spill do have the 
information they need? What is your advice to us?
    Ms. Turner. I think it is extremely important that the 
first responders have access to the information they need in 
order to know what to expect from the hazards that they are 
going to be responding to, and that information is freely 
shared today so that our first responders know the hazards they 
could encounter, what kind of equipment they need to have with 
them, and that is very important to keep that information there 
so they can access that.
    We might think about that information as different than the 
vulnerabilities that are associated with getting into a 
chemical facility, as you just said, whether it is accidental 
or intentional, the nature of the chemical information is what 
you need, different than the vulnerability and separate from 
the vulnerability of the facility from a security standpoint.
    Now, on that latter information we do, as was just said, we 
keep our vulnerability assessments on site, and then we vet the 
person who wants information, and we are pretty free with 
showing it to people that have a need-to-know basis, and I 
think that is the right thing to do. But it is very sensitive 
information that we want to be certain is properly secured, and 
in fact, that is why in my testimony I indicated that beyond 
MTSA we do need a framework for protecting that vulnerability 
information.
    Chairman Collins. Thank you. Senator Voinovich.
    Senator Voinovich. I would like to pursue your line of 
questioning.
    Chief Full, you are the Emergency Management Coordinator, 
Allegheny County; is that right?
    Mr. Full. Yes, Senator.
    Senator Voinovich. Do you have a list somewhere in your 
office of the chemical facilities that you have in Allegheny 
County?
    Mr. Full. Yes, sir, we do. In Allegheny County we have 235 
chemical facilities which are required under the SARA law to 
have emergency plans and have reported the amount of chemicals 
and so forth within the facilities.
    Senator Voinovich. Have the chemical facilities in the 
county for the most part done their threat assessment?
    Mr. Full. We believe that the majority of them, but there 
are some of them that are on the threshold of reporting now 
through the process of even some of the outreach of the SARA 
Title III law and the reporting and so forth. We find that 
there is more and more chemical companies that are reducing 
their amount of stored materials, putting them in the 
transportation stream, and falling out of the need for them to 
report.
    Senator Voinovich. Is it mandatory that a fertilizer 
company share with you their vulnerability?
    Mr. Full. No, sir, not whatsoever. That is why the 
suggestion is----
    Senator Voinovich. Do you think it should be mandatory?
    Mr. Full. I believe that we can go into exactly--the 
Federal Government address in the SARA Title III law--first 
off, again, our experience has been we have held close trade 
secrets. We are familiar with that. We are certainly not going 
to give up the ship here. We are just as interested as the 
corporate chemical facilities to make sure that it does not get 
into the wrong hands, but at the same time we believe also that 
we are responsible and in the law it already addressed that 
fire and local fire folks can get the fire information, 
medical----
    Senator Voinovich. How about the ``Right-to-Know'' laws? 
Has there been pretty good compliance with those?
    Mr. Full. Yes.
    Senator Voinovich. So to clarify, your fire department has 
on file what chemicals are on the premises.
    Mr. Full. Right.
    Senator Voinovich. So with the ``Right-to-Know'' law, the 
community has access to knowing what is on file there, correct?
    Mr. Full. There is nothing on security though, sir. There 
is nothing of them to share it with us at all other than----
    Senator Voinovich. But the fact is that you would not want 
them to share that information with, say, the community. You 
would like a provision that provides the necessary information 
to those that will be responding, and that allows you to have a 
good idea of the vulnerabilities, so that you have a better 
idea of how you would coordinate with them to respond if 
something happened.
    Mr. Full. That is what we are asking for right now, right.
    Senator Voinovich. Mr. Chamberlain, how do you feel about 
that, and Mr. Schellhorn and Ms. Turner, how do you feel about 
that?
    Mr. Chamberlain. I would like to make a distinction between 
responding to an emergency--which certainly the Chief and the 
first responders do--an emergency has usually already occurred, 
and the security plans, the security vulnerability assessment, 
and the facility security plan also address prevention, what 
you are doing to prevent an emergency. There are no chemicals 
or products on site that our first responders do not know are 
there. We are not trying to hide anything at all. It is merely 
the sensitivity of giving somebody a roadmap on how to shut you 
down or how to do damage that you want to carefully control.
    And certainly, I think, MTSA does that today. I would 
encourage any future legislation would have that sensitivity in 
there. We want people to know what they are going to be coming 
into if they are coming out to assist with an emergency.
    Senator Voinovich. I would be interested to get your best 
thoughts on how you would get that done.
    Mr. Schellhorn--fertilizers--how much more has your product 
gone up because of natural gas costs? [Laughter.]
    Thank you for being in business.
    Mr. Schellhorn. It has not gone up as much as the natural 
gas price has gone up, I assure you.
    I would like to add something if I may to what Mr. 
Chamberlain just said.
    Senator Voinovich. Sure.
    Mr. Schellhorn. Additionally, communicating with neighbors 
about what to do in the event that there is a release is 
extremely important, and Senator Lieberman touched on this in 
his opening statement. It is very important that neighbors know 
what to do, that they know when there is an incident, they know 
how they are going to learn if there is an incident, and then 
they know what to do to protect themselves, and the fertilizer 
industry has been very involved in that kind of community 
outreach program, as I know others in the chemical industry 
have been. Community awareness and emergency response programs 
have addressed that.
    I have brought some information. I spoke to some of the 
staff about this earlier. We have an outreach program that has 
been in place for more than 10 years, where we visited with our 
neighbors to talk about shelter-in-place programs, and we have 
telephone notification systems that call our neighbors within a 
very short period of time if we have an accident. I know DuPont 
has that system in place, and so do many of the other chemical 
plants. I would like to share this with the Committee if I may. 
That is a very important part. These programs are coordinated 
with LEPCs and the local fire departments. So that is also, I 
think, an important part of this whole effort.
    Senator Voinovich. Can I just ask one more question?
    Chairman Collins. Absolutely.
    Senator Voinovich. You represent the Fertilizer Institute.
    Mr. Schellhorn. Yes, sir.
    Senator Voinovich. Does the Fertilizer Institute also 
belong to the American Chemistry Council?
    Mr. Schellhorn. No, sir. We are not a member of the 
American Chemistry Council.
    Senator Voinovich. How about API companies, are you part of 
the American Chemistry Council or do you have a separate----
    Mr. Chamberlain. No. API is a separate manufacturing group.
    Senator Voinovich. So when we talk about 150 companies that 
are in the American Chemistry Council that are working with the 
Coast Guard, that does not include any oil companies?
    Mr. Chamberlain. No, that is not correct. Shell is a member 
of the American Chemistry Council. When you asked if API was a 
member, those are two----
    Senator Voinovich. OK. But that is what I meant.
    Mr. Chamberlain. Yes, my company is a member----
    Senator Voinovich. They belong to API and they belong to 
the American Chemistry Council?
    Mr. Chamberlain. Yes.
    Senator Voinovich. And you are part of the 150 companies 
that are in that organization?
    Mr. Chamberlain. Yes.
    Senator Voinovich. Mr. Schellhorn, my last question is 
regarding Senator Cochran's legislation, ``Secure Handling of 
Ammonium Nitrate.'' How does what you are requiring in that 
legislation differ from what is in MTSA or what is being done 
by ACC?
    Mr. Schellhorn. Yes, sir. The Cochran bill is specific to 
ammonium nitrate manufacturing, distribution, and retail sales 
of ammonium nitrate specifically. It is a registration.
    Senator Voinovich. So, when considering legislation, we 
ought to be aware of the differences through the industry.
    Mr. Schellhorn. Yes, sir.
    Senator Voinovich. Thank you.
    Chairman Collins. Thank you, Senator.
    Senator Carper, you did miss excellent testimony from Ms. 
Turner, but I know you made a great effort to get back here in 
order to ask questions, and I am pleased to call upon you.
    Senator Carper. I apologize for leaving. Senators Lincoln, 
Lieberman, and myself, and a few others have just unveiled 
legislation to address the issue of children having access to 
pornography on the Internet, to create almost like a step that 
some would have to go through to register their age, to be able 
to identify their age, so that if you are under the age of 18 
you cannot get on; to impose a 25 percent tax on the profits 
for the Internet, and to use those monies to develop new 
technologies to help keep kids clear of that kind of 
temptation. I apologize. It is an important issue. Not to say 
that this is not important as well, but that is why I have been 
away.
    Thank you all for coming in. I especially wanted to welcome 
Beth Turner to our hearing today, and if I may I would just 
like to ask the first question of you, Beth.
    We are proud of DuPont and we are proud of DuPont's 
reputation as a good steward of the environment, and my wife 
who worked there for 28 years, just retired last summer, and in 
a number of her jobs she was in charge of safety with the 
people in her workforce around her. She not only was that way 
at work, she was that way at home. I tell the story about how 
we would go on family vacations or be staying at a hotel, and 
get the kids to bed in their room, and we were getting ready 
for bed. My wife was probably one of the few--I do not know 
what other spouses talk about just before they go to sleep, but 
my wife is going through, out loud, just making out the escape 
routes from the hotel. Which door do we go out? Which direction 
do we go? Which stairs do we go down? So it was a company that 
puts a whole lot of emphasis on safety, and we are proud of 
them and respectful for that.
    I would ask of Ms. Turner, if I could, could you describe 
DuPont's experience with the Maritime--and you may have 
addressed this, and if you have I apologize--but with the 
Maritime Transportation Security Act, and how you and DuPont 
believe that law can inform our Committee's work in a broader 
chemical facility security bill? Specifically I would like to 
hear how DuPont implemented the requirements and about your 
ongoing compliance assurance.
    Ms. Turner. Good morning, Senator Carper, it is nice to see 
you.
    Senator Carper. My pleasure.
    Ms. Turner. I only spoke briefly about the Maritime 
Transportation Security Act. In my comments I indicated that 
the regulations have very effectively secured our sites and 
that we would view them as a model for security and higher 
priority sites.
    In terms of how we approach the regulation, we identified 
our facilities that are impacted. There are some very specific 
criteria in the regulations about facilities that have wharves 
on navigable bodies of water and that unload certain dangerous 
goods. So I went through that analysis of which facilities fell 
into that classification. And there are a number of very clear 
requirements on what you have to do once you are in, one of 
which is identify an individual who is a formal facility 
security officer, and put them through some very specific 
training. So our approach was to identify the facilities and 
then take them through the whole process as a group.
    So we centralized, did our training. Much of what we had 
done for the Responsible Care Security Code in terms of our 
vulnerability assessments, the things we had done for DuPont 
all fed into that very nicely so we were able to integrate it 
all, which is an important thing, so that the sites could see 
an integrated effort, and not, ``I have to do this for 
responsible care and that for MTSA, and have to do this for 
corporate headquarters.'' So we made sure it all fits together.
    On the ground with the Captain of the Port and their staff 
we have had a tremendous working relationship. I am very 
impressed at how grass roots oriented the Coast Guard is in 
deploying itself to work with sites. They do not let us get 
lax. They may show up at 2 a.m. in the morning when we least 
expect it, or run a boat down the channel and see if our 
cameras can pick it up. Our impacted sites have really tried to 
incent our security officers to see the Coast Guard before they 
think we can see them. So we have given out prizes and awards 
for sort of detecting the Coast Guard, and it has generated a 
lot of energy.
    We have been successfully inspected by the Coast Guard at 
all of our regulated facilities.
    Senator Carper. I think in your testimony you described how 
DuPont categorized its sites. I think you may have just alluded 
to it. Category 1 sites, I am told, are your highest priority 
group.
    Ms. Turner. That is right.
    Senator Carper. Category 2 sites have no potential for off-
site release or theft of materials. Is that correct?
    Ms. Turner. Yes, that is correct.
    Senator Carper. Many folks have advocated--I think even 
here today--for a risk-based tiered approach to regulating 
facilities. Let me just ask what criteria and what methods did 
DuPont use in categorizing your sites and your facilities? Do 
you think that the categorization that DuPont used is a 
sufficient approach, or do you think some additional steps or 
categories might be appropriate as we try to develop a risk-
based tiered approach?
    Ms. Turner. I think that the categorization was absolutely 
critical. I find that--and let us not talk for a minute about 
whether you have two categories or four or however many. The 
fact that you can spread facilities out over certain categories 
is absolutely critical deploying resources. I treat and work 
with and defend and protect a Category 1 site very differently 
than I do a Category 2 site because the potential consequence 
is so very different.
    From my standpoint I think that we have to have--and I 
think we have all been in agreement--that risk-based approach 
is very necessary here. I might just mention why we had a 
Category 1 or 2. It is really an internal thing. The American 
Chemistry Council had four tiers. The first three would have 
been equivalent to our Category 1, and the only difference was 
a 6-month delay that you could spread out. So the Tier 1 had to 
be done first, then Tier 2 6 months later, Tier 3 6 months 
later, and then Tier 4 after that. I simply made an internal 
decision that I wanted to treat everything as Tier 1.
    So we identified all of our facilities, and we also tried 
to make it simple by saying it does not matter whether a 
facility is an RMP facility or not. If it can create an off-
site consequence, then I put it in Category 1. And then we just 
took those Category 1s, again, just like we did MTSA, right 
through the process as a group. And for our company--and I am 
only speaking for our company--that created some efficiencies. 
For other companies, obviously having more tiers was a helpful 
thing and you could spread the effort out.
    Senator Carper. My time has expired. I appreciate those 
responses, and again your presence here.
    Ms. Turner. Thank you.
    Senator Carper. How did these guys do? Did they do a pretty 
good job in their testimony?
    Ms. Turner. They did great.
    Senator Carper. I wish I could ask them a few questions, 
but I am afraid time does not allow. Thank you again for 
joining us and for your valued input. Thank you, Madam 
Chairman.
    Chairman Collins. Thank you very much, Senator.
    Ms. Turner, I want to follow up on the issue that Senator 
Carper just raised. I do believe that we need a tiered 
approach. The security for a local fertilizer dealer may not be 
the same level that is needed for a large chemical plant on 
that two-mile stretch in New Jersey that Senator Lautenberg has 
referred to. One of our challenges is defining the scope of the 
chemical industry for regulation by the legislation that we are 
drafting. Each of the three of you, each of your respective 
companies has chemical facilities listed under the EPA RMP 
program, and you just were referring to that. Each of you also 
have facilities that are covered under the Maritime 
Transportation Security Act and are regulated for security by 
the Coast Guard.
    Of your companies' chemical facilities that are not covered 
by the MTSA regulations, how would you identify which ones you 
think should be covered under a new chemical facility security 
regime? In other words, I am trying to pick up where Senator 
Carper left off, on his categorization. As we do this tiered 
approach, there are going to be some facilities, perhaps a 
local potato farm in Northern Maine, that should not come under 
the law at all. There may be others that need some coverage but 
at a lower level, etc. How should we define the scope of 
facilities that should be covered? Ms. Turner.
    Ms. Turner. Thank you. Speaking from DuPont's standpoint, 
the criteria that I used was the ability to create consequence 
off site. I think that is a very important discriminator, and I 
would recommend that as a consideration for the Committee. It 
is in our self-interest as a company not to create off-site 
consequence. We want the safest communities. We want our 
employees to be safe, and so the whole concept that we want to 
be able to contain our chemicals in the vessels where they 
belong, and focus on those facilities that have the potential 
to go beyond our fence line is the internal criteria I have 
used.
    My view is that it does not matter how far the off-site 
consequence goes. If it goes off site then it needs to be in 
the highest priority category, and that is the approach DuPont 
has used.
    Chairman Collins. That is helpful. Mr. Schellhorn.
    Mr. Schellhorn. I agree with what Ms. Turner has said. One 
thing that I would add, however, is the four categories of risk 
is pretty helpful for dividing that group of facilities into 
highest, medium, and lowest risk facilities based on the 
significance of the off-site impact. I certainly understand why 
DuPont did what they did and just grouped everything that had 
off-site impact into Tier 1. But when you are looking at a 
universe of all facilities, breaking it down into Tier 1, 2, 3, 
and 4 is, I think, helpful because that helps to focus 
attention on the very highest risk facilities, and then down 
from there.
    That criteria is established criteria. American Chemistry 
Council has a methodology for doing that.
    Chairman Collins. Thank you. Mr. Chamberlain.
    Mr. Chamberlain. Yes. Let me just mention all of our major 
chemical facilities do happen to fall under MTSA, but if there 
were other--and then I also wanted to just make sure that the 
Chairman and the other Senators realize that a number of 
chemical facilities are co-located on sites with refineries. In 
my case, my two biggest chemical facilities share a property 
with a refinery that you would not know where one stops and the 
other begins. So the co-located chemical facilities are another 
aspect that you need to have in the planning and mapping of 
future issues that you deal with.
    Certainly off-site consequences is something that should be 
considered in trying to determine the severity. You also need 
to look at what is off site? If the closest population is 15 
miles away and you are surrounded by a sugar cane farm, the 
consequence of an off-site release is not the same as if you 
are in a major metropolitan area with neighbors living on your 
fence line. So you have to look at the entire picture, look at 
the vulnerabilities that you have and the consequences of a 
worst-case scenario.
    Chairman Collins. Chief Full, do you have any thoughts on 
this issue?
    Mr. Full. Senator, what is interesting to me here right now 
is the fact that we receive in our emergency management agency, 
emergency plans from companies that are just eloquently put 
together by consultants and so forth. We will get plans that 
are 100 pages thick. They will answer all kinds of questions in 
there about the vulnerabilities to the community and different 
things like this. Then we will find some other companies, that 
they will send us a three- or four-page report as well. Many of 
those folks, especially the ones that come from the biggest 
companies, have never consulted with us at the local level.
    There is a disconnect right now between what we hear right 
now from the table here, and what goes on at the local level at 
times. How can folks really sit and say what is going on there 
without consulting with the local folks to see what 
vulnerabilities there are out there before the plans are done, 
and quite frankly, that is more the exception than the rule.
    We come upon plans. We review the plans. It will say if 
people are injured here, they are going to go to XYZ Hospital. 
You tell the hospital that this particular chemical company has 
identified their hospital to take the injured, and they say, we 
do not know anything about it. They never talked to us about 
it.
    I mean, my crusade here today on behalf of the folks at the 
local level on that is, again, just to ensure that whatever 
comes about--and we certainly need chemical plant and 
transportation security--additional security. In whatever form 
it comes from, we do have to have a strong input in 
coordination with us at the local level.
    We are going to be there to handle the aftermath, and all 
too often it is sort of like they say, well, we will call the 
first responders and they will come. But frankly, we need to be 
involved in preventing too. We do not want to have to respond 
to these things because we know that going in that we are going 
to have very little or no impact, positive impact, and we are 
going to lose a lot of our folks as well as a lot of residents 
if we are not involved. We should know what the risks are, and 
so forth. I think there can be a happy balance between 
sensitive information and Achilles heel scenarios and so forth 
along those lines, but clearly we need to be involved, and we 
see all too often that we are not.
    Chairman Collins. Ms. Turner, I am going to ask you my 
final question of the day. It has to do with, perhaps, the most 
controversial issue that we will have to wrestle with in this 
bill, and that is the inherently safer technology issue. It is 
clear from the four hearings that I have chaired that some 
people want this bill to be a hazards reduction bill. There are 
others who want this bill to be strictly limited to the 
physical security of chemical plants.
    You have testified this morning that DuPont believes that 
inherently safer technology and chemicals are mainstream 
components of process safety and have a role to play as 
companies evaluate security. But you have also said that DuPont 
does not believe that inherent safety could or should be 
mandated by regulation, and you have called that unworkable. 
Similarly, and I think it was Mr. Schellhorn who pointed out 
that inherently safer technology is a safety process, it is not 
a security measure.
    Is there a middle ground here? What I am wondering is 
whether it makes sense in our legislation to require companies 
to evaluate inherently safer technology as they do their safety 
plans, but in their vulnerability assessments, but not have the 
Federal Government mandate specific processes or get involved 
in second guessing, if you will, the safety processes used in 
the plants. It seems to me that it does make sense for 
companies to be required to look at whether safer chemicals or 
processes could be used to help make their plants less 
vulnerable to an attack. What are your thoughts on this?
    Ms. Turner. First, let me speak briefly about what is 
behind the testimony in terms of those things. We are saying 
IST has a role in security, but we are saying do not mandate it 
in security regulation, and in some respects that could appear 
to be sort of a contradiction.
    I think that when we look back over the history of 
inherently safer technologies, at least in our company, we have 
been pursuing this for 40 years through--first the safety 
systems are engineering designs for our plants. We have very 
mature infrastructure for managing process safety management, 
inherently safer technology. We also have two codes of 
Responsible Care, the process safety code and the security 
code that focus on inherently safer.
    Then the Sandia methodology for conducting vulnerability 
assessments, which is a site that just because it is the one 
that we chose has a very structured approach for going through 
inherently safer from the very first step of the methodology 
when you form your team, characterize your facility. You have 
both process safety experts and security experts at the table 
because they bring separate expertise. So in the greater 
context we have these drivers for inherently safer in a very 
mature safety system that has IST embedded in it.
    In my view, the place where we do not have something 
complementary is in the pure security side of the house, and 
that is why we recommend the passage of legislation so that we 
then can essentially bolt or marry these two together.
    Now, in terms of how do we feel about what you said at the 
end about some view of requiring consideration, I think that my 
response is it depends on what is in the language. We would 
like very much to work with you if the Committee decides to go 
in that direction, using a phrase, the devil is in the details.
    I think the thought I want to leave with you is--I will 
speak broadly--responsible chemical companies have many 
incentives for a look at inherently safer. A big one is keeping 
our facility safe, keeping our employees safe, keeping our 
employees' families safe. We cannot run a company if we are not 
doing that. But the other driver is, as you said at the last 
hearing, the incentive to a chemical company to pull its risk 
down through any tool is there both because it is good business 
and because it helps us bring down the risk category in the 
face of regulation and other drivers.
    Chairman Collins. Your points are very well taken, and 
DuPont, of course, is renowned for its commitment to safety. It 
is difficult for me to imagine that the Department of Homeland 
Security could teach DuPont anything about the process of 
inherently safer technology. We might, however, be able to help 
you improve your security in general I would hope. But that is 
not going to be true of every chemical facility. I am thinking 
of the ones that Chief Full has talked about in his county, not 
all of whom are members of the American Chemistry Council or 
comply with the Responsible Care Security Code or even have 
the sophistication perhaps of a DuPont.
    Then we get into the dilemma of what if the Department of 
Homeland Security, in reviewing a plant, perhaps doing an audit 
of its vulnerability assessment, and comes across improper 
storage of chemicals, where there clearly is an increased 
security risk because of a lack of a secondary containment, for 
example, or some other measure. So should the Department, in 
such a case, be able to step in and mandate an improvement in 
the storage of the chemicals as the price of approving the 
security plant? How do we draw the lines here?
    Ms. Turner. I think that is going to require some analysis 
of the roles of the different regulatory agencies that are at 
play in the chemical industry. Right now I would not see 
Department of Homeland Security as having the kind of expertise 
to look at how a tank is built. That does not mean we could not 
embed it there, and I am not so sure that would not divert DHS 
from the security mission they need. It is possible to build it 
there, but I think the better approach might be to look at what 
resides in OSHA and what resides in EPA for driving the safety 
part that has been in place before September 11 ever came.
    So it is certainly unacceptable if a chemical company is 
doing something that is blatantly unsafe, and somewhere in the 
regulatory regime we need to have an agency that has the 
capability to enforce its regulations. I am just not sure in my 
mind that is going to be a great focus for the security piece, 
which we need to stand up very quickly in a very thoughtful 
manner.
    So it is a very important issue, and I appreciate how hard 
the Committee is working to figure out where the right place is 
on that issue, and we want to work with you on it. It is very 
important.
    Chairman Collins. Thank you. I very much look forward to 
working with all of you. We are going to use the August recess 
to draft what I hope will be a comprehensive, effective, 
bipartisan, and reasonable bill on chemical security. We do not 
have that many of those around here that meet all of those 
criteria, and that is why we have spent so much time on this 
issue. This is our fourth hearing. There are not very many 
issues that Congress debates that have this many hearings and 
this kind of consideration, but I think this is enormously 
complex and enormously important. I really appreciate all of 
you sharing your expertise today.
    I also want to thank the Committee staff, which has worked 
very hard to put together this series of hearings. You noticed 
that they all groaned when I said we would be spending the 
August recess drafting the bill. [Laughter.]
    But I am very committed to introducing a bill in September, 
and we are going to try to adhere to that timeline.
    This hearing record will remain open for 15 days for the 
submission of additional questions and other materials. I thank 
you all for your cooperation and advice to the Committee.
    This hearing is now adjourned.
    [Whereupon, at 12:23 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3157.001

[GRAPHIC] [TIFF OMITTED] T3157.002

[GRAPHIC] [TIFF OMITTED] T3157.003

[GRAPHIC] [TIFF OMITTED] T3157.004

[GRAPHIC] [TIFF OMITTED] T3157.005

[GRAPHIC] [TIFF OMITTED] T3157.006

[GRAPHIC] [TIFF OMITTED] T3157.007

[GRAPHIC] [TIFF OMITTED] T3157.008

[GRAPHIC] [TIFF OMITTED] T3157.009

[GRAPHIC] [TIFF OMITTED] T3157.010

[GRAPHIC] [TIFF OMITTED] T3157.011

[GRAPHIC] [TIFF OMITTED] T3157.012

[GRAPHIC] [TIFF OMITTED] T3157.013

[GRAPHIC] [TIFF OMITTED] T3157.014

[GRAPHIC] [TIFF OMITTED] T3157.015

[GRAPHIC] [TIFF OMITTED] T3157.016

[GRAPHIC] [TIFF OMITTED] T3157.017

[GRAPHIC] [TIFF OMITTED] T3157.018

[GRAPHIC] [TIFF OMITTED] T3157.019

[GRAPHIC] [TIFF OMITTED] T3157.020

[GRAPHIC] [TIFF OMITTED] T3157.021

[GRAPHIC] [TIFF OMITTED] T3157.022

[GRAPHIC] [TIFF OMITTED] T3157.023

[GRAPHIC] [TIFF OMITTED] T3157.024

[GRAPHIC] [TIFF OMITTED] T3157.025

[GRAPHIC] [TIFF OMITTED] T3157.026

[GRAPHIC] [TIFF OMITTED] T3157.027

[GRAPHIC] [TIFF OMITTED] T3157.028

[GRAPHIC] [TIFF OMITTED] T3157.029

[GRAPHIC] [TIFF OMITTED] T3157.030

[GRAPHIC] [TIFF OMITTED] T3157.031

[GRAPHIC] [TIFF OMITTED] T3157.032

[GRAPHIC] [TIFF OMITTED] T3157.033

[GRAPHIC] [TIFF OMITTED] T3157.034

[GRAPHIC] [TIFF OMITTED] T3157.035

[GRAPHIC] [TIFF OMITTED] T3157.036

[GRAPHIC] [TIFF OMITTED] T3157.037

[GRAPHIC] [TIFF OMITTED] T3157.038

[GRAPHIC] [TIFF OMITTED] T3157.039

[GRAPHIC] [TIFF OMITTED] T3157.040

[GRAPHIC] [TIFF OMITTED] T3157.041

[GRAPHIC] [TIFF OMITTED] T3157.042

[GRAPHIC] [TIFF OMITTED] T3157.043

[GRAPHIC] [TIFF OMITTED] T3157.044

[GRAPHIC] [TIFF OMITTED] T3157.045

[GRAPHIC] [TIFF OMITTED] T3157.046

[GRAPHIC] [TIFF OMITTED] T3157.047

[GRAPHIC] [TIFF OMITTED] T3157.048

[GRAPHIC] [TIFF OMITTED] T3157.049

[GRAPHIC] [TIFF OMITTED] T3157.050

[GRAPHIC] [TIFF OMITTED] T3157.051

[GRAPHIC] [TIFF OMITTED] T3157.052

[GRAPHIC] [TIFF OMITTED] T3157.053

[GRAPHIC] [TIFF OMITTED] T3157.054

[GRAPHIC] [TIFF OMITTED] T3157.055

[GRAPHIC] [TIFF OMITTED] T3157.056

[GRAPHIC] [TIFF OMITTED] T3157.057

[GRAPHIC] [TIFF OMITTED] T3157.058

[GRAPHIC] [TIFF OMITTED] T3157.059

[GRAPHIC] [TIFF OMITTED] T3157.060

[GRAPHIC] [TIFF OMITTED] T3157.061

[GRAPHIC] [TIFF OMITTED] T3157.062

[GRAPHIC] [TIFF OMITTED] T3157.063

[GRAPHIC] [TIFF OMITTED] T3157.064

[GRAPHIC] [TIFF OMITTED] T3157.065

[GRAPHIC] [TIFF OMITTED] T3157.066

[GRAPHIC] [TIFF OMITTED] T3157.067

[GRAPHIC] [TIFF OMITTED] T3157.068

[GRAPHIC] [TIFF OMITTED] T3157.069

[GRAPHIC] [TIFF OMITTED] T3157.070

[GRAPHIC] [TIFF OMITTED] T3157.071

[GRAPHIC] [TIFF OMITTED] T3157.072

[GRAPHIC] [TIFF OMITTED] T3157.073

[GRAPHIC] [TIFF OMITTED] T3157.074

[GRAPHIC] [TIFF OMITTED] T3157.075

[GRAPHIC] [TIFF OMITTED] T3157.076

[GRAPHIC] [TIFF OMITTED] T3157.077

[GRAPHIC] [TIFF OMITTED] T3157.078

[GRAPHIC] [TIFF OMITTED] T3157.079

[GRAPHIC] [TIFF OMITTED] T3157.080

[GRAPHIC] [TIFF OMITTED] T3157.081

[GRAPHIC] [TIFF OMITTED] T3157.082

[GRAPHIC] [TIFF OMITTED] T3157.083

[GRAPHIC] [TIFF OMITTED] T3157.084

[GRAPHIC] [TIFF OMITTED] T3157.085

[GRAPHIC] [TIFF OMITTED] T3157.086

[GRAPHIC] [TIFF OMITTED] T3157.087

[GRAPHIC] [TIFF OMITTED] T3157.088

[GRAPHIC] [TIFF OMITTED] T3157.089

[GRAPHIC] [TIFF OMITTED] T3157.090

[GRAPHIC] [TIFF OMITTED] T3157.091

[GRAPHIC] [TIFF OMITTED] T3157.092

[GRAPHIC] [TIFF OMITTED] T3157.093

[GRAPHIC] [TIFF OMITTED] T3157.094

[GRAPHIC] [TIFF OMITTED] T3157.095

[GRAPHIC] [TIFF OMITTED] T3157.096

[GRAPHIC] [TIFF OMITTED] T3157.097

[GRAPHIC] [TIFF OMITTED] T3157.098

[GRAPHIC] [TIFF OMITTED] T3157.099

[GRAPHIC] [TIFF OMITTED] T3157.100

[GRAPHIC] [TIFF OMITTED] T3157.101

[GRAPHIC] [TIFF OMITTED] T3157.102

[GRAPHIC] [TIFF OMITTED] T3157.103

[GRAPHIC] [TIFF OMITTED] T3157.104

[GRAPHIC] [TIFF OMITTED] T3157.105

[GRAPHIC] [TIFF OMITTED] T3157.106

[GRAPHIC] [TIFF OMITTED] T3157.107

[GRAPHIC] [TIFF OMITTED] T3157.108

[GRAPHIC] [TIFF OMITTED] T3157.109

[GRAPHIC] [TIFF OMITTED] T3157.110

[GRAPHIC] [TIFF OMITTED] T3157.111

[GRAPHIC] [TIFF OMITTED] T3157.112

[GRAPHIC] [TIFF OMITTED] T3157.113

[GRAPHIC] [TIFF OMITTED] T3157.114

[GRAPHIC] [TIFF OMITTED] T3157.115

[GRAPHIC] [TIFF OMITTED] T3157.116

[GRAPHIC] [TIFF OMITTED] T3157.117

[GRAPHIC] [TIFF OMITTED] T3157.118

[GRAPHIC] [TIFF OMITTED] T3157.119

[GRAPHIC] [TIFF OMITTED] T3157.120

[GRAPHIC] [TIFF OMITTED] T3157.121

[GRAPHIC] [TIFF OMITTED] T3157.122

[GRAPHIC] [TIFF OMITTED] T3157.123

[GRAPHIC] [TIFF OMITTED] T3157.124

[GRAPHIC] [TIFF OMITTED] T3157.125

[GRAPHIC] [TIFF OMITTED] T3157.126

[GRAPHIC] [TIFF OMITTED] T3157.127

[GRAPHIC] [TIFF OMITTED] T3157.128

[GRAPHIC] [TIFF OMITTED] T3157.129

[GRAPHIC] [TIFF OMITTED] T3157.130

[GRAPHIC] [TIFF OMITTED] T3157.131

[GRAPHIC] [TIFF OMITTED] T3157.132

[GRAPHIC] [TIFF OMITTED] T3157.133

[GRAPHIC] [TIFF OMITTED] T3157.134

[GRAPHIC] [TIFF OMITTED] T3157.135

[GRAPHIC] [TIFF OMITTED] T3157.136

[GRAPHIC] [TIFF OMITTED] T3157.137

[GRAPHIC] [TIFF OMITTED] T3157.138

[GRAPHIC] [TIFF OMITTED] T3157.139

[GRAPHIC] [TIFF OMITTED] T3157.140

[GRAPHIC] [TIFF OMITTED] T3157.141

[GRAPHIC] [TIFF OMITTED] T3157.142

[GRAPHIC] [TIFF OMITTED] T3157.143

[GRAPHIC] [TIFF OMITTED] T3157.144

[GRAPHIC] [TIFF OMITTED] T3157.145

[GRAPHIC] [TIFF OMITTED] T3157.146

[GRAPHIC] [TIFF OMITTED] T3157.147

[GRAPHIC] [TIFF OMITTED] T3157.148

[GRAPHIC] [TIFF OMITTED] T3157.149

[GRAPHIC] [TIFF OMITTED] T3157.150

[GRAPHIC] [TIFF OMITTED] T3157.151

[GRAPHIC] [TIFF OMITTED] T3157.152

[GRAPHIC] [TIFF OMITTED] T3157.153

[GRAPHIC] [TIFF OMITTED] T3157.154

[GRAPHIC] [TIFF OMITTED] T3157.155

[GRAPHIC] [TIFF OMITTED] T3157.156

[GRAPHIC] [TIFF OMITTED] T3157.157

[GRAPHIC] [TIFF OMITTED] T3157.158

[GRAPHIC] [TIFF OMITTED] T3157.159

[GRAPHIC] [TIFF OMITTED] T3157.160

[GRAPHIC] [TIFF OMITTED] T3157.161

[GRAPHIC] [TIFF OMITTED] T3157.162

[GRAPHIC] [TIFF OMITTED] T3157.163

[GRAPHIC] [TIFF OMITTED] T3157.164

[GRAPHIC] [TIFF OMITTED] T3157.165

[GRAPHIC] [TIFF OMITTED] T3157.166

[GRAPHIC] [TIFF OMITTED] T3157.167

[GRAPHIC] [TIFF OMITTED] T3157.168

[GRAPHIC] [TIFF OMITTED] T3157.169

[GRAPHIC] [TIFF OMITTED] T3157.170

[GRAPHIC] [TIFF OMITTED] T3157.171

[GRAPHIC] [TIFF OMITTED] T3157.172

[GRAPHIC] [TIFF OMITTED] T3157.173

[GRAPHIC] [TIFF OMITTED] T3157.174

[GRAPHIC] [TIFF OMITTED] T3157.175

[GRAPHIC] [TIFF OMITTED] T3157.176

[GRAPHIC] [TIFF OMITTED] T3157.177

[GRAPHIC] [TIFF OMITTED] T3157.178

[GRAPHIC] [TIFF OMITTED] T3157.179

[GRAPHIC] [TIFF OMITTED] T3157.180

[GRAPHIC] [TIFF OMITTED] T3157.181

[GRAPHIC] [TIFF OMITTED] T3157.182

[GRAPHIC] [TIFF OMITTED] T3157.183

[GRAPHIC] [TIFF OMITTED] T3157.184

[GRAPHIC] [TIFF OMITTED] T3157.185

[GRAPHIC] [TIFF OMITTED] T3157.186

[GRAPHIC] [TIFF OMITTED] T3157.187

[GRAPHIC] [TIFF OMITTED] T3157.188

[GRAPHIC] [TIFF OMITTED] T3157.189

[GRAPHIC] [TIFF OMITTED] T3157.190

[GRAPHIC] [TIFF OMITTED] T3157.191

[GRAPHIC] [TIFF OMITTED] T3157.192

[GRAPHIC] [TIFF OMITTED] T3157.193

[GRAPHIC] [TIFF OMITTED] T3157.194

[GRAPHIC] [TIFF OMITTED] T3157.195

[GRAPHIC] [TIFF OMITTED] T3157.196

[GRAPHIC] [TIFF OMITTED] T3157.197

[GRAPHIC] [TIFF OMITTED] T3157.198

[GRAPHIC] [TIFF OMITTED] T3157.199

[GRAPHIC] [TIFF OMITTED] T3157.200

[GRAPHIC] [TIFF OMITTED] T3157.201

[GRAPHIC] [TIFF OMITTED] T3157.202

[GRAPHIC] [TIFF OMITTED] T3157.203

[GRAPHIC] [TIFF OMITTED] T3157.204

[GRAPHIC] [TIFF OMITTED] T3157.205

[GRAPHIC] [TIFF OMITTED] T3157.206

[GRAPHIC] [TIFF OMITTED] T3157.207

[GRAPHIC] [TIFF OMITTED] T3157.208

[GRAPHIC] [TIFF OMITTED] T3157.209

[GRAPHIC] [TIFF OMITTED] T3157.210

[GRAPHIC] [TIFF OMITTED] T3157.211

[GRAPHIC] [TIFF OMITTED] T3157.212

[GRAPHIC] [TIFF OMITTED] T3157.213

[GRAPHIC] [TIFF OMITTED] T3157.214

[GRAPHIC] [TIFF OMITTED] T3157.215

[GRAPHIC] [TIFF OMITTED] T3157.216

[GRAPHIC] [TIFF OMITTED] T3157.217

[GRAPHIC] [TIFF OMITTED] T3157.218

[GRAPHIC] [TIFF OMITTED] T3157.219

[GRAPHIC] [TIFF OMITTED] T3157.220

[GRAPHIC] [TIFF OMITTED] T3157.221

[GRAPHIC] [TIFF OMITTED] T3157.222

[GRAPHIC] [TIFF OMITTED] T3157.223

[GRAPHIC] [TIFF OMITTED] T3157.224

[GRAPHIC] [TIFF OMITTED] T3157.225

[GRAPHIC] [TIFF OMITTED] T3157.226

[GRAPHIC] [TIFF OMITTED] T3157.227

[GRAPHIC] [TIFF OMITTED] T3157.228

[GRAPHIC] [TIFF OMITTED] T3157.229

[GRAPHIC] [TIFF OMITTED] T3157.230

[GRAPHIC] [TIFF OMITTED] T3157.231

[GRAPHIC] [TIFF OMITTED] T3157.232

[GRAPHIC] [TIFF OMITTED] T3157.233

[GRAPHIC] [TIFF OMITTED] T3157.234

[GRAPHIC] [TIFF OMITTED] T3157.235

[GRAPHIC] [TIFF OMITTED] T3157.236

[GRAPHIC] [TIFF OMITTED] T3157.237

[GRAPHIC] [TIFF OMITTED] T3157.238

[GRAPHIC] [TIFF OMITTED] T3157.239

[GRAPHIC] [TIFF OMITTED] T3157.240

[GRAPHIC] [TIFF OMITTED] T3157.241

[GRAPHIC] [TIFF OMITTED] T3157.242

[GRAPHIC] [TIFF OMITTED] T3157.243

[GRAPHIC] [TIFF OMITTED] T3157.244

[GRAPHIC] [TIFF OMITTED] T3157.245

[GRAPHIC] [TIFF OMITTED] T3157.246

[GRAPHIC] [TIFF OMITTED] T3157.247

[GRAPHIC] [TIFF OMITTED] T3157.248

[GRAPHIC] [TIFF OMITTED] T3157.249

[GRAPHIC] [TIFF OMITTED] T3157.250

[GRAPHIC] [TIFF OMITTED] T3157.251

[GRAPHIC] [TIFF OMITTED] T3157.252

[GRAPHIC] [TIFF OMITTED] T3157.253

[GRAPHIC] [TIFF OMITTED] T3157.254

[GRAPHIC] [TIFF OMITTED] T3157.255

[GRAPHIC] [TIFF OMITTED] T3157.256

[GRAPHIC] [TIFF OMITTED] T3157.257

[GRAPHIC] [TIFF OMITTED] T3157.258

[GRAPHIC] [TIFF OMITTED] T3157.259

[GRAPHIC] [TIFF OMITTED] T3157.260

[GRAPHIC] [TIFF OMITTED] T3157.261

[GRAPHIC] [TIFF OMITTED] T3157.262

[GRAPHIC] [TIFF OMITTED] T3157.263

[GRAPHIC] [TIFF OMITTED] T3157.264

[GRAPHIC] [TIFF OMITTED] T3157.265

[GRAPHIC] [TIFF OMITTED] T3157.266

[GRAPHIC] [TIFF OMITTED] T3157.267

[GRAPHIC] [TIFF OMITTED] T3157.268

[GRAPHIC] [TIFF OMITTED] T3157.269

[GRAPHIC] [TIFF OMITTED] T3157.270

[GRAPHIC] [TIFF OMITTED] T3157.271

[GRAPHIC] [TIFF OMITTED] T3157.272

[GRAPHIC] [TIFF OMITTED] T3157.273

[GRAPHIC] [TIFF OMITTED] T3157.274

[GRAPHIC] [TIFF OMITTED] T3157.275

[GRAPHIC] [TIFF OMITTED] T3157.276

[GRAPHIC] [TIFF OMITTED] T3157.277

[GRAPHIC] [TIFF OMITTED] T3157.278

[GRAPHIC] [TIFF OMITTED] T3157.279

[GRAPHIC] [TIFF OMITTED] T3157.280

[GRAPHIC] [TIFF OMITTED] T3157.281

[GRAPHIC] [TIFF OMITTED] T3157.282

[GRAPHIC] [TIFF OMITTED] T3157.283

[GRAPHIC] [TIFF OMITTED] T3157.284

[GRAPHIC] [TIFF OMITTED] T3157.285

[GRAPHIC] [TIFF OMITTED] T3157.286

[GRAPHIC] [TIFF OMITTED] T3157.287

[GRAPHIC] [TIFF OMITTED] T3157.288

[GRAPHIC] [TIFF OMITTED] T3157.289

[GRAPHIC] [TIFF OMITTED] T3157.290

[GRAPHIC] [TIFF OMITTED] T3157.291

[GRAPHIC] [TIFF OMITTED] T3157.292

[GRAPHIC] [TIFF OMITTED] T3157.293

[GRAPHIC] [TIFF OMITTED] T3157.294

[GRAPHIC] [TIFF OMITTED] T3157.295

[GRAPHIC] [TIFF OMITTED] T3157.296

[GRAPHIC] [TIFF OMITTED] T3157.297

[GRAPHIC] [TIFF OMITTED] T3157.298

[GRAPHIC] [TIFF OMITTED] T3157.299

[GRAPHIC] [TIFF OMITTED] T3157.300

[GRAPHIC] [TIFF OMITTED] T3157.301

[GRAPHIC] [TIFF OMITTED] T3157.302

[GRAPHIC] [TIFF OMITTED] T3157.303

[GRAPHIC] [TIFF OMITTED] T3157.304

[GRAPHIC] [TIFF OMITTED] T3157.305

[GRAPHIC] [TIFF OMITTED] T3157.306

[GRAPHIC] [TIFF OMITTED] T3157.307

[GRAPHIC] [TIFF OMITTED] T3157.308

[GRAPHIC] [TIFF OMITTED] T3157.309

[GRAPHIC] [TIFF OMITTED] T3157.310

[GRAPHIC] [TIFF OMITTED] T3157.311

[GRAPHIC] [TIFF OMITTED] T3157.312

[GRAPHIC] [TIFF OMITTED] T3157.313

[GRAPHIC] [TIFF OMITTED] T3157.314

[GRAPHIC] [TIFF OMITTED] T3157.315

[GRAPHIC] [TIFF OMITTED] T3157.316

[GRAPHIC] [TIFF OMITTED] T3157.317

[GRAPHIC] [TIFF OMITTED] T3157.318

[GRAPHIC] [TIFF OMITTED] T3157.319

[GRAPHIC] [TIFF OMITTED] T3157.320

[GRAPHIC] [TIFF OMITTED] T3157.321

[GRAPHIC] [TIFF OMITTED] T3157.322

[GRAPHIC] [TIFF OMITTED] T3157.323

[GRAPHIC] [TIFF OMITTED] T3157.324

[GRAPHIC] [TIFF OMITTED] T3157.325

[GRAPHIC] [TIFF OMITTED] T3157.326

[GRAPHIC] [TIFF OMITTED] T3157.327

[GRAPHIC] [TIFF OMITTED] T3157.328

[GRAPHIC] [TIFF OMITTED] T3157.329

[GRAPHIC] [TIFF OMITTED] T3157.330

[GRAPHIC] [TIFF OMITTED] T3157.331

[GRAPHIC] [TIFF OMITTED] T3157.332

[GRAPHIC] [TIFF OMITTED] T3157.333

[GRAPHIC] [TIFF OMITTED] T3157.334

[GRAPHIC] [TIFF OMITTED] T3157.335

[GRAPHIC] [TIFF OMITTED] T3157.336

[GRAPHIC] [TIFF OMITTED] T3157.337

[GRAPHIC] [TIFF OMITTED] T3157.338

[GRAPHIC] [TIFF OMITTED] T3157.339

[GRAPHIC] [TIFF OMITTED] T3157.340

[GRAPHIC] [TIFF OMITTED] T3157.341

[GRAPHIC] [TIFF OMITTED] T3157.342

[GRAPHIC] [TIFF OMITTED] T3157.343

[GRAPHIC] [TIFF OMITTED] T3157.344

[GRAPHIC] [TIFF OMITTED] T3157.345

[GRAPHIC] [TIFF OMITTED] T3157.346

[GRAPHIC] [TIFF OMITTED] T3157.347

[GRAPHIC] [TIFF OMITTED] T3157.348

[GRAPHIC] [TIFF OMITTED] T3157.349

[GRAPHIC] [TIFF OMITTED] T3157.350

[GRAPHIC] [TIFF OMITTED] T3157.351

[GRAPHIC] [TIFF OMITTED] T3157.352

[GRAPHIC] [TIFF OMITTED] T3157.353

[GRAPHIC] [TIFF OMITTED] T3157.354

[GRAPHIC] [TIFF OMITTED] T3157.355

[GRAPHIC] [TIFF OMITTED] T3157.356

[GRAPHIC] [TIFF OMITTED] T3157.357

[GRAPHIC] [TIFF OMITTED] T3157.358

[GRAPHIC] [TIFF OMITTED] T3157.359

[GRAPHIC] [TIFF OMITTED] T3157.360

[GRAPHIC] [TIFF OMITTED] T3157.361

[GRAPHIC] [TIFF OMITTED] T3157.362

[GRAPHIC] [TIFF OMITTED] T3157.363

[GRAPHIC] [TIFF OMITTED] T3157.364

[GRAPHIC] [TIFF OMITTED] T3157.365

[GRAPHIC] [TIFF OMITTED] T3157.366

[GRAPHIC] [TIFF OMITTED] T3157.367

[GRAPHIC] [TIFF OMITTED] T3157.368

[GRAPHIC] [TIFF OMITTED] T3157.369

[GRAPHIC] [TIFF OMITTED] T3157.370

[GRAPHIC] [TIFF OMITTED] T3157.371

[GRAPHIC] [TIFF OMITTED] T3157.372

[GRAPHIC] [TIFF OMITTED] T3157.373

[GRAPHIC] [TIFF OMITTED] T3157.374

[GRAPHIC] [TIFF OMITTED] T3157.375

[GRAPHIC] [TIFF OMITTED] T3157.376

[GRAPHIC] [TIFF OMITTED] T3157.377

[GRAPHIC] [TIFF OMITTED] T3157.378

[GRAPHIC] [TIFF OMITTED] T3157.379

[GRAPHIC] [TIFF OMITTED] T3157.380

[GRAPHIC] [TIFF OMITTED] T3157.381

[GRAPHIC] [TIFF OMITTED] T3157.382

[GRAPHIC] [TIFF OMITTED] T3157.383

[GRAPHIC] [TIFF OMITTED] T3157.384

[GRAPHIC] [TIFF OMITTED] T3157.385

[GRAPHIC] [TIFF OMITTED] T3157.386

[GRAPHIC] [TIFF OMITTED] T3157.387

[GRAPHIC] [TIFF OMITTED] T3157.388

[GRAPHIC] [TIFF OMITTED] T3157.389

[GRAPHIC] [TIFF OMITTED] T3157.390

[GRAPHIC] [TIFF OMITTED] T3157.391

[GRAPHIC] [TIFF OMITTED] T3157.392

[GRAPHIC] [TIFF OMITTED] T3157.393

[GRAPHIC] [TIFF OMITTED] T3157.394

[GRAPHIC] [TIFF OMITTED] T3157.395

[GRAPHIC] [TIFF OMITTED] T3157.396

[GRAPHIC] [TIFF OMITTED] T3157.397

[GRAPHIC] [TIFF OMITTED] T3157.398

[GRAPHIC] [TIFF OMITTED] T3157.399

[GRAPHIC] [TIFF OMITTED] T3157.400

[GRAPHIC] [TIFF OMITTED] T3157.401

[GRAPHIC] [TIFF OMITTED] T3157.402

[GRAPHIC] [TIFF OMITTED] T3157.403

[GRAPHIC] [TIFF OMITTED] T3157.404

[GRAPHIC] [TIFF OMITTED] T3157.405

[GRAPHIC] [TIFF OMITTED] T3157.406

[GRAPHIC] [TIFF OMITTED] T3157.407

[GRAPHIC] [TIFF OMITTED] T3157.408

[GRAPHIC] [TIFF OMITTED] T3157.409

[GRAPHIC] [TIFF OMITTED] T3157.410

[GRAPHIC] [TIFF OMITTED] T3157.411

[GRAPHIC] [TIFF OMITTED] T3157.412

[GRAPHIC] [TIFF OMITTED] T3157.413

[GRAPHIC] [TIFF OMITTED] T3157.414

[GRAPHIC] [TIFF OMITTED] T3157.415

[GRAPHIC] [TIFF OMITTED] T3157.416

[GRAPHIC] [TIFF OMITTED] T3157.417

[GRAPHIC] [TIFF OMITTED] T3157.418

[GRAPHIC] [TIFF OMITTED] T3157.419

[GRAPHIC] [TIFF OMITTED] T3157.420

[GRAPHIC] [TIFF OMITTED] T3157.421

[GRAPHIC] [TIFF OMITTED] T3157.422

[GRAPHIC] [TIFF OMITTED] T3157.423

[GRAPHIC] [TIFF OMITTED] T3157.424

[GRAPHIC] [TIFF OMITTED] T3157.425

[GRAPHIC] [TIFF OMITTED] T3157.426

[GRAPHIC] [TIFF OMITTED] T3157.427

[GRAPHIC] [TIFF OMITTED] T3157.428

[GRAPHIC] [TIFF OMITTED] T3157.429

[GRAPHIC] [TIFF OMITTED] T3157.430

[GRAPHIC] [TIFF OMITTED] T3157.431

[GRAPHIC] [TIFF OMITTED] T3157.432

[GRAPHIC] [TIFF OMITTED] T3157.433

[GRAPHIC] [TIFF OMITTED] T3157.434

[GRAPHIC] [TIFF OMITTED] T3157.435

[GRAPHIC] [TIFF OMITTED] T3157.436

[GRAPHIC] [TIFF OMITTED] T3157.437

[GRAPHIC] [TIFF OMITTED] T3157.438

[GRAPHIC] [TIFF OMITTED] T3157.439

[GRAPHIC] [TIFF OMITTED] T3157.440

[GRAPHIC] [TIFF OMITTED] T3157.441

[GRAPHIC] [TIFF OMITTED] T3157.442

[GRAPHIC] [TIFF OMITTED] T3157.443

[GRAPHIC] [TIFF OMITTED] T3157.444

[GRAPHIC] [TIFF OMITTED] T3157.445

[GRAPHIC] [TIFF OMITTED] T3157.446

[GRAPHIC] [TIFF OMITTED] T3157.447

[GRAPHIC] [TIFF OMITTED] T3157.448

[GRAPHIC] [TIFF OMITTED] T3157.449

[GRAPHIC] [TIFF OMITTED] T3157.450

[GRAPHIC] [TIFF OMITTED] T3157.451

[GRAPHIC] [TIFF OMITTED] T3157.452

[GRAPHIC] [TIFF OMITTED] T3157.453

[GRAPHIC] [TIFF OMITTED] T3157.454

[GRAPHIC] [TIFF OMITTED] T3157.455

[GRAPHIC] [TIFF OMITTED] T3157.456

[GRAPHIC] [TIFF OMITTED] T3157.457

[GRAPHIC] [TIFF OMITTED] T3157.458

[GRAPHIC] [TIFF OMITTED] T3157.459

[GRAPHIC] [TIFF OMITTED] T3157.460

[GRAPHIC] [TIFF OMITTED] T3157.461

[GRAPHIC] [TIFF OMITTED] T3157.462

[GRAPHIC] [TIFF OMITTED] T3157.463

[GRAPHIC] [TIFF OMITTED] T3157.464

[GRAPHIC] [TIFF OMITTED] T3157.465

[GRAPHIC] [TIFF OMITTED] T3157.466

[GRAPHIC] [TIFF OMITTED] T3157.467

[GRAPHIC] [TIFF OMITTED] T3157.468

[GRAPHIC] [TIFF OMITTED] T3157.469

[GRAPHIC] [TIFF OMITTED] T3157.470

[GRAPHIC] [TIFF OMITTED] T3157.471

[GRAPHIC] [TIFF OMITTED] T3157.472

[GRAPHIC] [TIFF OMITTED] T3157.473

[GRAPHIC] [TIFF OMITTED] T3157.474

[GRAPHIC] [TIFF OMITTED] T3157.475

[GRAPHIC] [TIFF OMITTED] T3157.476

[GRAPHIC] [TIFF OMITTED] T3157.477

[GRAPHIC] [TIFF OMITTED] T3157.478

[GRAPHIC] [TIFF OMITTED] T3157.479

[GRAPHIC] [TIFF OMITTED] T3157.480

[GRAPHIC] [TIFF OMITTED] T3157.481

[GRAPHIC] [TIFF OMITTED] T3157.482

[GRAPHIC] [TIFF OMITTED] T3157.483

[GRAPHIC] [TIFF OMITTED] T3157.484

[GRAPHIC] [TIFF OMITTED] T3157.485

[GRAPHIC] [TIFF OMITTED] T3157.486

[GRAPHIC] [TIFF OMITTED] T3157.487

[GRAPHIC] [TIFF OMITTED] T3157.488

[GRAPHIC] [TIFF OMITTED] T3157.489

[GRAPHIC] [TIFF OMITTED] T3157.490

[GRAPHIC] [TIFF OMITTED] T3157.491

[GRAPHIC] [TIFF OMITTED] T3157.492

[GRAPHIC] [TIFF OMITTED] T3157.493

[GRAPHIC] [TIFF OMITTED] T3157.494

[GRAPHIC] [TIFF OMITTED] T3157.495

[GRAPHIC] [TIFF OMITTED] T3157.496

[GRAPHIC] [TIFF OMITTED] T3157.497

[GRAPHIC] [TIFF OMITTED] T3157.498

[GRAPHIC] [TIFF OMITTED] T3157.499

[GRAPHIC] [TIFF OMITTED] T3157.500

[GRAPHIC] [TIFF OMITTED] T3157.501

[GRAPHIC] [TIFF OMITTED] T3157.502

[GRAPHIC] [TIFF OMITTED] T3157.503

[GRAPHIC] [TIFF OMITTED] T3157.504

[GRAPHIC] [TIFF OMITTED] T3157.505

[GRAPHIC] [TIFF OMITTED] T3157.506

[GRAPHIC] [TIFF OMITTED] T3157.507

[GRAPHIC] [TIFF OMITTED] T3157.508

[GRAPHIC] [TIFF OMITTED] T3157.509

[GRAPHIC] [TIFF OMITTED] T3157.510

[GRAPHIC] [TIFF OMITTED] T3157.511

[GRAPHIC] [TIFF OMITTED] T3157.512

[GRAPHIC] [TIFF OMITTED] T3157.513

[GRAPHIC] [TIFF OMITTED] T3157.514

[GRAPHIC] [TIFF OMITTED] T3157.515

[GRAPHIC] [TIFF OMITTED] T3157.516

[GRAPHIC] [TIFF OMITTED] T3157.517

[GRAPHIC] [TIFF OMITTED] T3157.518

[GRAPHIC] [TIFF OMITTED] T3157.519

[GRAPHIC] [TIFF OMITTED] T3157.520

[GRAPHIC] [TIFF OMITTED] T3157.521

[GRAPHIC] [TIFF OMITTED] T3157.522

[GRAPHIC] [TIFF OMITTED] T3157.523

[GRAPHIC] [TIFF OMITTED] T3157.524

[GRAPHIC] [TIFF OMITTED] T3157.525

[GRAPHIC] [TIFF OMITTED] T3157.526

[GRAPHIC] [TIFF OMITTED] T3157.527

[GRAPHIC] [TIFF OMITTED] T3157.528

[GRAPHIC] [TIFF OMITTED] T3157.529

[GRAPHIC] [TIFF OMITTED] T3157.530

[GRAPHIC] [TIFF OMITTED] T3157.531

[GRAPHIC] [TIFF OMITTED] T3157.532

[GRAPHIC] [TIFF OMITTED] T3157.533

[GRAPHIC] [TIFF OMITTED] T3157.534

[GRAPHIC] [TIFF OMITTED] T3157.535

[GRAPHIC] [TIFF OMITTED] T3157.536

[GRAPHIC] [TIFF OMITTED] T3157.537

[GRAPHIC] [TIFF OMITTED] T3157.538

[GRAPHIC] [TIFF OMITTED] T3157.539

[GRAPHIC] [TIFF OMITTED] T3157.540

[GRAPHIC] [TIFF OMITTED] T3157.541

[GRAPHIC] [TIFF OMITTED] T3157.542

                                 <all>

</pre></body></html>
